<html>
<title> - NOAA HURRICANE FORECASTING</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                       NOAA HURRICANE FORECASTING

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 7, 2005

                               __________

                           Serial No. 109-26

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
23-331                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         RUSS CARNAHAN, Missouri
W. TODD AKIN, Missouri               DANIEL LIPINSKI, Illinois
TIMOTHY V. JOHNSON, Illinois         SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   BRIAN BAIRD, Washington
TOM FEENEY, Florida                  JIM MATHESON, Utah
BOB INGLIS, South Carolina           JIM COSTA, California
DAVE G. REICHERT, Washington         AL GREEN, Texas
MICHAEL E. SODREL, Indiana           CHARLIE MELANCON, Louisiana
JOHN J.H. ``JOE'' SCHWARZ, Michigan  DENNIS MOORE, Kansas
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY


                            C O N T E N T S

                            October 7, 2005

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    14
    Written Statement............................................    15

Statement by Representative Bart Gordon, Ranking Minority Member, 
  Committee on Science, U.S. House of Representatives............    15
    Written Statement............................................    22

Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    23
    Written Statement............................................    23

Statement by Representative Charlie Melancon, Member, Committee 
  on Science, U.S. House of Representatives......................    24
    Written Statement............................................    25

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    26

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    26

Prepared Statement by Representative Russ Carnahan, Member, 
  Committee on Science, U.S. House of Representatives............    26

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    27

                               Witnesses:

Brigadier General David L. Johnson (ret.), Assistant 
  Administrator for Weather Services; Director, The National 
  Weather Service, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce
    Oral Statement...............................................    28
    Written Statement............................................    30
    Biography....................................................    41

Mr. Max Mayfield, Director, NOAA Tropical Prediction Center/
  National Hurricane Center
    Oral Statement...............................................    41
    Written Statement............................................    43
    Biography....................................................    53

Discussion
  Lessons Learned................................................    53
  Communication With Emergency Management Officials..............    54
  Directing Hurricanes...........................................    62
  Communication With Emergency Management Officials (cont.)......    64
  Hurricane Multi-decadal Cycle..................................    65
  Funding for Hurricane Research.................................    66
  Local Forecasts................................................    67
  Evacuation Decision............................................    67
  Hurricane Liaison Team.........................................    68
  Facilities and Equipment.......................................    70
  Long-Term Outlook..............................................    70
  Timeline.......................................................    71
  Five-Day Forecasts.............................................    73
  Rebuilding New Orleans.........................................    74
  Communicating With Media.......................................    75
  Concluding Remarks.............................................    83

             Appendix 1: Answers to Post-Hearing Questions

Brigadier General David L. Johnson (ret.), Assistant 
  Administrator for Weather Services; Director, The National 
  Weather Service, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce....................    86

Mr. Max Mayfield, Director, NOAA Tropical Prediction Center/
  National Hurricane Center......................................   108

             Appendix 2: Additional Material for the Record

Hurricane Liaison Team (HLT) Briefing, August 28, 2005...........   118


                       NOAA HURRICANE FORECASTING

                              ----------                              


                        FRIDAY, OCTOBER 7, 2005

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert (Chairman of the Committee) presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                       NOAA Hurricane Forecasting

                        friday, october 7, 2005
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose:

    On October 7, 2005 at 10:00 a.m., the House Science Committee will 
hold a hearing on hurricane forecasting by the National Oceanic and 
Atmospheric Administration (NOAA). The Committee is holding the hearing 
to better understand the prediction of hurricanes and the outlook for 
the remainder of the 2005 hurricane season.
    The Committee plans to explore several overarching questions:

        1.  What are the different responsibilities of the National 
        Hurricane Center and local weather forecast offices when a 
        tropical storm or hurricane threatens the United States?

        2.  What were the timelines of Katrina and Rita progressing 
        from tropical depressions to major hurricanes and when were 
        warnings issued to the public and to federal, State, and local 
        officials? Was there any difference in how the National Weather 
        Service forecast and issued warnings for these two major 
        hurricanes?

        3.  What is the outlook for the remainder of the 2005 hurricane 
        season and for the next five to 10 years? Are we in a period of 
        increased hurricane frequency and/or intensity? If so, what is 
        the likely cause of this increase?

        4.  What can be done to improve prediction of hurricanes, both 
        in the short-term and in the long-term?

Witnesses:

Brigadier General David L. Johnson (ret.), Director of NOAA's National 
Weather Service.

Mr. Max Mayfield, Director of the National Weather Service's National 
Hurricane Center.

Background:

What Are Hurricanes?
    The terms ``hurricane'' and ``typhoon'' are regionally specific 
names for a strong ``tropical cyclone.'' A tropical cyclone is the 
generic term for a low-pressure weather system over tropical or sub-
tropical waters with organized thunderstorm activity. Tropical cyclones 
with maximum sustained surface winds of less than 39 mph are called 
``tropical depressions.'' Once the tropical cyclone reaches winds of at 
least 39 mph, it is called a ``tropical storm'' and assigned a name. If 
winds reach 74 mph then the storm is called a ``hurricane'' in the 
Atlantic Ocean or a ``typhoon'' in the Pacific Ocean. Typically, the 
more intense a tropical cyclone is, the less area it covers. Hurricane 
Katrina was unusual in that it both was very intense and very large 
(400 miles across).
    The United States utilizes the Saffir-Simpson hurricane intensity 
scale to give an estimate of the potential flooding and damage to 
property given a hurricane's estimated intensity. The scale is 
summarized in Appendix A.
How Hurricanes Are Forecast
    In the United States, the Atlantic hurricane season is from June 1 
to November 30. The National Weather Service (NWS), which is part of 
the National Oceanic and Atmospheric Administration (NOAA) in the 
Department of Commerce, has responsibility ``to provide weather, 
hydrologic, and climate forecasts and warnings for the United States, 
its territories, and adjacent waters, for the protection of life and 
property and the enhancement of the national economy.'' The National 
Hurricane Center in Miami, which is part of NWS, monitors and forecasts 
tropical storms and hurricanes in the Atlantic and Northeast Pacific 
oceans.
    The National Hurricane Center (NHC) compiles data about ocean 
temperature, wind speed and direction, barometric pressure, and other 
factors and enters that data into computer models to forecast 
hurricanes. This data is obtained from satellites, ocean buoys and 
radars. Also, a large amount of data comes from sensors dropped by 
``hurricane hunter'' airplanes as they fly into the storms. Hurricane 
hunters are flown by the Air Force and NOAA out of Keesler Air Force 
Base in Mississippi and MacDill Air Force Base in Florida. The planes 
are modified to carry weather instruments to measure wind, pressure, 
temperature and dew point and to drop instrumented sensors into 
hurricanes. When a storm is within three days of potential landfall, 
hurricane hunters fly into the storm once every six hours.
    When tracking a tropical storm or hurricane, the NHC issues 
official forecasts and warnings every six hours. As a storm nears 
landfall, the forecasts are updated more frequently. The information 
goes out to the public via the Internet (http://www.nhc.noaa.gov/) and 
through NOAA Weather Radio. NOAA Weather Radio is a nationwide network 
of radio stations broadcasting continuous weather information from 
nearby National Weather Service offices. Every six hours, the NHC also 
provides (via conference calls and the Internet) ``technical discussion 
products'' tailored to federal, State, and local emergency managers and 
decision-makers. Local weather forecast offices use the information 
from the NHC to provide advisories tailored to their region. An example 
of a tailored hurricane advisory from the New Orleans weather forecast 
office is provided in Appendix B. Whenever a hurricane threatens U.S. 
territory, the Federal Emergency Management Agency (FEMA) activates the 
Hurricane Liaison Team (HLT). This team consists of federal, State and 
local emergency managers, NWS meteorologists and computer specialists 
who help the NHC rapidly exchange information with federal, State and 
local emergency managers. The HLT works directly out of the NHC in 
Miami. For Hurricane Katrina, the HLT was activated on Wednesday, 
August 24.

Timeline of Hurricane Katrina and Hurricane Rita and NWS Warnings to 
        Federal, State and Local Officials
    Hurricane Katrina made landfall on the southeast corner of 
Louisiana at 6:10 am Central Daylight Time (CDT) on Monday, August 29 
as a Category 4 storm (maximum sustained winds of 145 mph) that was 
unusually large, measuring approximately 400 miles across. At 5:00 pm 
(CDT) on Friday, August 26, 56 hours before Katrina made landfall, the 
National Weather Service forecast the storm hitting near New Orleans as 
a Category 4 or 5 hurricane. NWS was very accurate with its forecast 
and the final landfall location was only 20 miles off from Friday's 
forecast. Since meteorological conditions that affect the track and 
intensity of the storm were relatively stable, NWS was especially 
accurate in forecasting Katrina.
    Between 7:00 and 8:00 pm CDT on Saturday August 27, 35 hours before 
landfall, the Director of the National Hurricane Center called State 
officials in Louisiana, Mississippi, and Alabama. At 7:00 am on Sunday, 
August 28, NWS advisories stated that Katrina was a ``potentially 
catastrophic'' storm. A more detailed description of Katrina's 
development from tropical storm to hurricane and the associated 
warnings are provided in Appendix C.
    Hurricane Rita made landfall near Port Arthur, TX around 2:30 am 
CDT on Saturday, September 24 as a Category 3 storm (maximum sustained 
winds of 120 mph) and measuring 170 miles across. At 4:00 pm CDT on 
Tuesday, September 20, the National Weather Service began warning that 
northwestern regions of the Gulf of Mexico should prepare for a major 
hurricane.

Hurricane Katrina and Hurricane Rita Compared to Previous Major Storms
    While Hurricane Katrina was over the Gulf of Mexico, NOAA measured 
winds reaching 175 mph, making it the strongest hurricane ever measured 
in the Gulf of Mexico. By the time it hit the Gulf Coast, Katrina's 
winds decreased to 145 mph, down to a Category 4 level but still a very 
strong storm. There have been three previous Category 5 storms (1935 
Labor Day storm, Florida Keys; 1969 Camille, Mississippi; and 1992 
Andrew, south Florida) to hit the U.S. and six previous Category 4 
storms (2004 Charley, 1989 Hugo, 1961 Carla, 1960 Donna, 1957 Audrey, 
1954 Hazel) to hit the U.S. The last major storm affecting New Orleans 
was Hurricane Betsy in 1965, during which winds hit 125 mph before 
equipment failed. Hurricane Camille (August 1969) was also a major hit 
but made landfall east of the city and was a more compact storm than 
either Betsy or Katrina. Hurricane Katrina was unusual in that it was 
both very intense and large.
    Typically, major hurricanes begin in the eastern Atlantic ocean 
near Cape Verde in western Africa, providing forecasters many days to 
track, study, and warn of the storms before they threaten U.S. coasts. 
Since records have been kept, 85 percent of major Atlantic hurricanes 
have originated from the eastern Atlantic. However, this year all nine 
tropical depressions that developed intro hurricanes did not form until 
the systems were west of 55 degrees longitude (near Barbados), 
providing forecasters only a couple of days to study the storms and 
citizens less time to prepare their homes.
    The last time such a large percentage of hurricanes formed in the 
western Atlantic was in 1969, when 10 of 12 hurricanes formed west of 
55 degrees latitude. That was the year Hurricane Camille struck New 
Orleans. Scientists can determine after the fact that the factors 
favoring quick formation of hurricanes in the Caribbean are a 
combination of favorable wind patterns and sea surface temperatures, 
but scientists cannot predict these patterns ahead of time.

Outlook for Future Hurricanes
    Hurricane Rita was the 13th named storm of the 2005 hurricane 
season. Typically the month of September is the peak month for 
hurricane activity. Through November 30 (end of hurricane season), NOAA 
expects seven to 10 additional named storms, of which one to three 
could be major hurricanes of Category 3 strength or higher. The chance 
of one of those major hurricanes making landfall somewhere in the U.S. 
is 21 percent. However, it is difficult to predict exactly where a 
hurricane would hit because the path of a hurricane is primarily 
determined by day-to-day weather patterns. Historically, weather 
patterns in October push tropical storms north from the Caribbean and 
back out to sea, decreasing the chances that the Gulf Coast will be hit 
by another hurricane. However, there is still a chance that the Gulf 
could see another storm this year.
    Most scientists agree that the Atlantic Ocean is currently in a 
period of increased hurricane activity, which is part of a natural 25- 
to 40-year cycle known as the ``Atlantic multi-decadal signal,'' a 
shift in the sea surface temperatures in the Atlantic. Warmer sea 
surface temperatures combined with optimal wind conditions cause more 
tropical depressions to develop into hurricanes. Scientists are unsure 
of the cause of the natural temperature and wind shifts in the 
Atlantic. The last period of high tropical Atlantic activity was 1920-
1966. The average number of hurricanes in a warm period is 10 per year, 
while the average number of hurricanes in a cold period is six storms 
per year. Today, many more people live in hurricane prone areas than 
during the last period of high tropical activity, meaning that today's 
storms will affect more people and cause more damage than historical 
storms. Appendix D contains more detail on the Atlantic multi-decadal 
signal and hurricane frequency.
    While most scientists agree that the current increase in hurricane 
frequency is not due to global climate change, over the next 50 years 
hurricane intensity (not frequency) could increase as ocean 
temperatures rise. Also, two recent studies have shown some evidence 
that current hurricane intensity has slightly increased since 1970. The 
first study, published in Nature in July, looked at the North Atlantic 
Ocean and found that hurricane intensity has increased 50 percent in 
the past 50 years.\1\ The second study, published in Science in 
September, looked globally at all oceans and found that the number of 
Category 4 and 5 hurricanes has nearly doubled each decade since 1970, 
while the total number of hurricanes has remained constant.\2\
---------------------------------------------------------------------------
    \1\ K.A. Emmanuel, Nature, 436, 686 (2005)
    \2\ P.J. Webster, G.J. Holland, J.A. Curry, H.R. Chang, Science 
309, 1844 (2005)
---------------------------------------------------------------------------
Improving Hurricane Forecasts
    In 1954, the NHC first issued one-day forecasts of hurricanes. 
Since 1964, the NHC has provided three-day hurricane forecasts. In 
2003, the forecasts were extended to include five-day predictions. 
Appendix E contains examples of the five- and three-day forecasts for 
Hurricane Katrina. Today, a three-day forecast is as accurate as those 
issued for a two-day prediction in the late 1980s. While NHC has 
significantly improved the forecast of where a hurricane is likely to 
go, the forecasts of hurricane intensity have not improved at the same 
pace.
    NOAA currently supports research in its own labs and provides 
grants to universities to try to improve hurricane forecasts. Other 
agencies that support this type of research include the National 
Science Foundation and the National Aeronautics and Space 
Administration. The most useful information to researchers comes from 
taking observations from hurricane hunter airplanes and ocean buoys 
during a real hurricane, which can be used to develop new forecasting 
models. As Congress debates supplemental spending and regular agency 
budgets, some experts think an additional hurricane hunter airplane 
equipped with research sensors would help researchers improve computer 
models of hurricane intensity. (Also, NOAA lost some facilities during 
Hurricane Katrina and may require additional funding to rebuild those 
facilities.)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Witness Questions:

    The witnesses were asked to address the following questions in 
their testimony.

        1.  What are the different responsibilities of the National 
        Hurricane Center and local weather forecast offices when a 
        tropical storm or hurricane threatens the United States?

        2.  What were the timelines of Katrina and Rita progressing 
        from tropical depressions to major hurricanes and when were 
        warnings issued to the public and to federal, State and local 
        officials? Was there any difference in how the National Weather 
        Service forecast and issued warnings for these two major 
        hurricanes?

        3.  What is the outlook for the remainder of the 2005 hurricane 
        season and for the next five to 10 years? Are we in a period of 
        increased hurricane frequency and/or intensity? If so, what is 
        the likely cause of this increase?

        4.  What can be done to improve prediction of hurricanes, both 
        in the short-term and in the long-term?
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Appendix C: Hurricane Katrina and Hurricane Rita Timelines

Hurricane Katrina

        <bullet>  4:00 pm CDT Tuesday August 23: First public advisory 
        of Tropical Depression Twelve.

        <bullet>  7:00 am CDT Wednesday August 24: FEMA activated the 
        Hurricane Liaison Team.

        <bullet>  10:00 am CDT Wednesday August 24: Tropical Depression 
        Twelve develops into Tropical Storm Katrina over the Bahamas.

        <bullet>  2:30 pm CDT Thursday August 25: Tropical Storm 
        Katrina develops into Hurricane Katrina, located 15 miles off 
        the coast of Ft. Lauderdale, FL.

        <bullet>  5:30 pm CDT Thursday August 25: Hurricane Katrina 
        makes landfall as a Category 1 hurricane on the southeast coast 
        of Florida. As it passes over Florida it weakens back down to a 
        tropical storm and moves into the Gulf of Mexico.

        <bullet>  4:00 am CDT Friday August 26: After passing over 
        Florida, Katrina regains hurricane status over the Gulf of 
        Mexico.

        <bullet>  5:00 pm CDT Friday August 26: Every NWS warning 
        beginning Friday evening, 56 hours before landfall, showed 
        Hurricane Katrina making landfall in southeastern Louisiana as 
        a Category 4 or 5 hurricane.

        <bullet>  10:00 am CDT Saturday August 27: At 44 hours before 
        landfall, the NWS issued a hurricane watch including New 
        Orleans. A hurricane watch advises of possible hurricane 
        conditions, with the objective of providing 36 hours notice. 
        The watch for Katrina surpassed that objective by eight hours.

        <bullet>  4:00 pm CDT Saturday August 27: At 42 hours before 
        landfall, the hurricane watch was extended to Mississippi and 
        Alabama.

        <bullet>  7:25 pm CDT Saturday August 27: Max Mayfield 
        (Director of the National Hurricane Center) called Gov. Blanco 
        of Louisiana.

        <bullet>  7:35 pm CDT Saturday August 27: Max Mayfield called 
        Bill Filter, Chief of Operations for Alabama Emergency 
        Management Agency.

        <bullet>  7:45 pm CDT Saturday August 27: Max Mayfield called 
        Gov. Barbour of Mississippi.

        <bullet>  8:00 pm CDT Saturday August 27: Max Mayfield called 
        Mayor Nagin of New Orleans.

        <bullet>  10:00 pm CDT Saturday August 27: At 32 hours before 
        landfall, the NWS issued a hurricane warning that included New 
        Orleans. A hurricane warning advises that a hurricane will 
        likely hit, with the objective of providing 24 hours lead time. 
        The watch for Katrina surpassed that objective by eight hours. 
        Every NWS warning beginning Saturday evening, 32 hours before 
        landfall, stated that ``Preparations to protect life and 
        property should be rushed to completion'' and predicted coastal 
        storm surge of at least 15 to 25 feet.

        <bullet>  7:00 am CDT Sunday August 28: Every NWS warning 
        beginning 23 hours before landfall, began with the headline 
        indicating that Hurricane Katrina could be ``Potentially 
        Catastrophic.'' Due to the advanced warning provided by NWS, a 
        mandatory evacuation was put in place for New Orleans on Sunday 
        morning (24 hours before landfall) and the President declared a 
        state of emergency on Sunday, meaning that Louisiana could use 
        federal resources before the hurricane hit. Typically, the 
        President waits until after an event.

Hurricane Rita

        <bullet>  10:00 pm CDT Saturday September 17: First public 
        advisory of Tropical Depression 18.

        <bullet>  6:00 am CDT Sunday September 18: FEMA activates the 
        Hurricane Liaison Team.

        <bullet>  4:00 pm CDT Sunday September 18: Tropical Depression 
        18 develops into Tropical Storm Rita.

        <bullet>  10:00 pm CDT Sunday September 18: Hurricane and 
        tropical storm warnings issued for southern Florida.

        <bullet>  10:00 pm CDT Monday September 19: Rita is predicted 
        to strengthen to a Category 2 hurricane before hitting Florida.

        <bullet>  10:00 am CDT Tuesday September 20: Rita elevated to a 
        Category 1 hurricane.

        <bullet>  1:00 pm CDT Tuesday September 20: Rita elevated to a 
        Category 2 hurricane as it moves over Florida.

        <bullet>  4:00 pm CDT Tuesday September 20: At 82 hours before 
        landfall, NWS warns that ``all indications are that Rita as an 
        intense hurricane will be approaching the Texas Coast in about 
        three days.''

        <bullet>  10:00 pm CDT Tuesday September 20: NWS warns that 
        Rita could reach Category 4 status by Wednesday evening.

        <bullet>  1:00 am CDT Wednesday September 21: Rita elevated to 
        a Category 3 hurricane.

        <bullet>  6:00 am CDT Wednesday September 21: Rita elevated to 
        a Category 4 hurricane.

        <bullet>  10:00 am CDT Wednesday September 21: At 64 hours 
        before landfall, NWS states that ``interests in the 
        northwestern Gulf of Mexico should monitor the progress of 
        dangerous Hurricane Rita. . .Rita is extremely dangerous 
        category four hurricane. . .some additional strengthening is 
        forecast during the next 24 hours and could reach category five 
        intensity in the central Gulf of Mexico.''

        <bullet>  4:00 pm CDT Wednesday September 21: At 58 hours 
        before landfall, Rita elevated to a Category 5 hurricane. 
        Hurricane and tropical storms watches are posted for Louisiana 
        and Texas.

        <bullet>  11:00 am CDT Thursday September 22: At 39 hours 
        before landfall, Rita downgraded to a Category 4 hurricane. 
        Hurricane and tropical storms warnings issued for Texas and 
        Louisiana.

        <bullet>  10:00 am CDT Friday September 23: At 16 hours before 
        landfall, Rita predicted to hit early Saturday morning as 
        either a Category 3 or 4 hurricane. Rita is expected to come 
        ashore as ``a dangerous hurricane.''

        <bullet>  2:30 am CDT Saturday September 24: Rita makes 
        landfall in extreme southwest Louisiana as a Category 3 
        hurricane (with top winds of 120 mph).

        <bullet>  7:00 am CDT Saturday September 24: Rita downgraded to 
        Category 2 hurricane.

        <bullet>  10:00 am CDT Saturday September 24: Rita downgraded 
        to Category 1 hurricane.

        <bullet>  1:00 pm CDT Saturday September 24: Rita downgraded to 
        a tropical storm.

        <bullet>  8:00 pm CDT Saturday September 24: Rita downgraded to 
        a tropical depression. Last NHC advisory.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Chairman Boehlert.Thank you for being here today at this 
long awaited hearing. We had hoped to have this hearing back in 
September but we postponed it twice, once because Hurricane 
Ophelia was developing and once to give the chance for the 
Select Committee to get started with its investigation.
    I participated in the Select Committee's hearing and I made 
clear then that the Science Committee retained all of its 
jurisdiction and interest in this subject and that we would be 
rescheduling our hearing today and that is why we are here 
today. Unfortunately, because of the Energy Bill on the Floor, 
my attendance today will be intermittent, but my focus will 
not. And incidentally, that is calling the attention of so many 
of our colleagues because of the significance of the bill on 
the Floor.
    The National Weather Service is probably the agency we 
oversee that has the most impact on the every day lives of our 
constituents, and we want to make sure we do everything we can 
to make sure it is in top form. Based on its recent performance 
trialed by water one might say, I do not think we have too much 
to worry about when it comes to the Weather Service. Let me 
repeat what I said at the Select Committee's hearing. The 
National Weather Service performed magnificently in tracking 
Hurricanes Katrina and Rita and in providing information 
before, during, and after the hurricanes made landfall. Max 
Mayfield was the indispensable man in the lead up to the storms 
and we owe the entire staff of the National Weather Service a 
debt of gratitude and that comes with all the sincerity that I 
can command.
    The men and women of the Weather Service and the men and 
women of the Armed Forces who fly into hurricanes to get data 
on storms get no special perks if they have had a rough couple 
of days or a bad season. They have to be ready for the next 
storm.
    I was talking the other day to Deputy Secretary Sampson of 
the Commerce Department and he had just been down to visit the 
National Hurricane Center. He said that morale at the center 
was suffering because the staff felt so saddened that Katrina 
had produced such suffering. That speaks volumes about the kind 
of people we have working for us down there.
    In all reality, all the Weather Service can do is provide 
the best information they can, which in the case of Katrina 
happened to be especially accurate because conditions were 
ideal for monitoring the storm. In short, the Weather Service 
can lead officials to information but they cannot make them 
think or act, I might add. Now that does not mean of course 
that nothing can be improved, we will want to see and hear 
today about any steps the Weather Service is taking to ensure 
that Federal, State, and local officials are receiving the 
information that the Weather Service is putting out. But it is 
not the Weather Service's job and it can't be to ensure that 
others are heeding its warnings.
    So I hope we will not be asking our witnesses today 
questions that fall beyond their purview. I also hope that we 
can ask questions beyond rehearsing the prelude to the most 
recent storms. We should be looking for information about the 
rest of the hurricane season, it is not over yet, about what is 
behind the increased frequency and intensity of hurricanes. And 
most important, about what tools the National Weather Service 
needs to continue to improve its ability to forecast and track 
storms. If nothing else, the horrifying events of recent weeks 
have underscored the value of the National Weather Service. We 
need to work together to make sure that the Weather Service can 
provide the best information possible.
    With that, it is my pleasure to recognize the distinguished 
Ranking Member, Mr. Gordon of Tennessee.
    [The prepared statement of Chairman Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    I want to thank everyone for being here today at this long awaited 
hearing. We had hoped to have this hearing back in September, but we 
postponed it twice--once because Hurricane Ophelia was developing and 
once to give the Select Committee a chance to get started with its 
investigation.
    I participated in the Select Committee's hearing, and I made clear 
then that the Science Committee retained all its jurisdiction--and 
interest--in this subject and that we would be rescheduling our 
hearing. And that is why we are here today.
    Unfortunately, because of the Energy Bill on the Floor, my 
attendance today will be intermittent, but my focus is not. The 
National Weather Service is probably the agency we oversee that has the 
most impact on the everyday lives of our constituents, and we want to 
do everything we can to make sure it is in top form.
    Based on its recent performance--trial by water, one might say--I 
don't think we have too much to worry about when it comes to the 
Weather Service. Let me repeat what I said at the Select Committee's 
hearing: the National Weather Service performed magnificently in 
tracking Hurricanes Katrina and Rita, and in providing information 
before, during and after the hurricanes made landfall. Max Mayfield was 
the indispensable man in the lead-up to the storms, and we owe the 
entire staff of the National Weather Service a debt of gratitude.
    The men and women of the Weather Service and the men and women of 
the armed forces who fly into the hurricanes to get data on storms get 
no special perks if they've had a rough couple of days or a bad season. 
They have to be ready for the next storm.
    I was talking the other day to Deputy Secretary Sampson of the 
Commerce Department, and he had just been down to visit the National 
Hurricane Center. He said that morale at the Center was suffering 
because the staff felt so saddened that Katrina had produced such 
suffering. That speaks volumes about the kind of people we have working 
for us down there.
    For in reality, all the Weather Service can do is provide the best 
information they can--which in the case of Katrina happened to be 
especially accurate because conditions were ideal for monitoring the 
storm. In short, the Weather Service can lead officials to information, 
but they can't make them think. Or act, I might add.
    Now that doesn't mean, of course, that nothing can be improved. 
We'll want to hear today about any steps the Weather Service is taking 
to ensure that federal, State and local officials are receiving the 
information that the Weather Service is putting out. But it's not the 
Weather Service's job, and it can't be, to ensure that others are 
heeding its warnings. So I hope we won't be asking our witnesses today 
questions that fall beyond their purview.
    I also hope that we can ask questions that go beyond rehearsing the 
prelude to the most recent storms. We should be looking for information 
about the rest of the hurricane season, about what is behind the 
increased frequency and intensity of hurricanes, and most important, 
about what tools the National Weather Service needs to continue to 
improve its ability to forecast and track storms.
    If nothing else, the horrifying events of recent weeks have 
underscored the value of the National Weather Service. We need to work 
together to make sure that the Weather Service can provide the best 
information possible. Thank you.

    Mr. Gordon. Thank you, Mr. Chairman.
    And let me concur with your comments and certainly your 
compliments to the Weather Service and the team they have put 
together.
    This hearing today is vitally important. We have recently 
been reminded of both the power of weather and weather 
prediction and I look forward to exploring these topics. Over 
the years, we have spent billions of dollars on the Weather 
Service to improve our capacity to predict the weather. We do 
it not simply because it is good science, but because we can 
save lives if we provide accurate warnings for severe weather 
events. We have also spent hundreds of billions of dollars on 
homeland security. We do it to enhance our capacity to stop 
terrorist attacks and to mobilize our nation's forces in cases 
of catastrophic incidents, whether by terrorists or by natural 
disaster.
    The goal of both of these sets of expenditures is to keep 
Americans secure and to come to their aid when they most need 
it. In the last few weeks, it appears that one of these systems 
worked and one of these systems failed. And failure has 
consequences. In this case, some of those who died, and we do 
not yet know how many, they died because the Federal Government 
did not get there in time. As Walter Maestri, the Emergency 
Management Chief of the Louisiana Jefferson Parish put it, 
``The cavalry did not arrive.''
    Information regarding the power of Hurricane Katrina went 
right to the top. One of our witnesses here today conducted 
briefings that included President Bush, Secretary Chertoff, and 
Under Secretary Brown. May I have the first chart?

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The other witness heads an agency which has placed an 
employee inside the nerve center for the Federal Government's 
response to catastrophic events, Homeland Security Operations 
Center.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chart 2. As the graph on the screen demonstrates, Secretary 
Chertoff is the head of that center and information is supposed 
to flow up to the secretary from its work and also to President 
Bush. So the information from the Weather Service was flowing 
to our emergency response leaders through two paths, and yet 
our Government seemed taken by surprise. FEMA Head, Michael 
Brown said on CNN on August 31 and I quote, ``I must say, this 
storm is much bigger than anyone expected.''
    Is it possible that the Weather Service simply wasn't being 
articulate about the nature of the threat posed by Katrina? I 
do not think that to be true, but we have a chance today to 
confirm it. Apparently, one of our witnesses didn't think it 
was true either. Mr. Mayfield, according to the St. Petersburg 
Times story on August 30 based on an interview with Max 
Mayfield in Chart 3 and I will quote that. ``On Sunday night, 
Mayfield was so worried about Hurricane Katrina that he called 
the Governors of Louisiana, Mississippi, and the Mayor of New 
Orleans. On Sunday, he even talked about the forces of Katrina 
during a video conference call to President Bush at his ranch 
in Crawford Texas.'' ``I just wanted to be able to go to sleep 
that night knowing I did all I could do,'' said Mr. Mayfield.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    On Sunday, Mr. Mayfield conducted his regular presentation 
to the Hurricane Liaison Team/FEMA conference call. According 
to Mr. Mayfield's press account and the government's records, 
the President and Secretary Chertoff and Undersecretary Brown 
were on the calls either Saturday or Sunday and we know from 
other sources that President Bush and Chertoff were both on the 
line on the August 28 briefing.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    On the screen is a photograph released by the White House 
of the President participating in this video conference. On the 
screen in front of the President is Max Mayfield and over Mr. 
Mayfield's shoulder is an image of a powerful storm.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In an article printed in the September 4 Times Picayune of 
New Orleans, Mr. Mayfield said reacting to the claims by some 
that the storms surprised them in its veracity and 
consequences, Chart 5, and I quote, ``We were briefing them way 
before landfall. It is not that this is a surprise. We had 
advisories that the levee could be topped. I kept looking back 
to see if there was anything else we could do, could have done, 
and I just don't know what it would be.''
    So I hope today in your testimony, Mr. Mayfield, you can 
address whether anything else has come to your mind that could 
have been done to get the attention of our emergency response 
leaders.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    Thank you Mr. Chairman.
    This hearing today is vitally important. We've recently been 
reminded of both the power of weather and weather prediction, and I 
look forward to exploring these topics.
    Over the years, we've spent billions of dollars on the Weather 
Service to improve our capacity to predict the weather. We do it not 
simply because it is good science, but because we can save lives if we 
provide accurate warnings of severe weather events.
    We have also spent hundreds of billions of dollars on homeland 
security. We do it to enhance our capacity to stop terrorist attacks 
and to mobilize our nation's forces in cases of catastrophic 
incidents--whether by terrorism or by natural disaster.
    The goal in both sets of expenditures is to keep Americans secure 
and to come to their aid when they most need it.
    In the last few weeks, one of these systems worked and one of these 
systems failed. And failure has consequences--in this case some of 
those who died, and we do not yet know how many, they died because the 
Federal Government did not get there in time. As Walter Maestri, the 
Emergency Management Chief for Louisiana's Jefferson Parish put it: 
``the cavalry didn't arrive.''
    The information regarding the power of Hurricane Katrina went right 
to the top. One of our witnesses here today conducted briefings that 
included the President, Secretary Chertoff and Under Secretary Brown.
    The other witness heads an agency which has placed an employee 
inside the nerve center for the Federal Government's response to 
catastrophes: the Homeland Security Operations Center (HSOC).
    As the graphic on the screen demonstrates, Secretary Chertoff is 
the head of that center and information is supposed to flow up to the 
Secretary from its work and also to the President.
    So the information from the Weather Service was flowing to our 
emergency response leaders through two paths and yet our government 
seemed taken by surprise.
    FEMA head Michael Brown said on CNN on August 31, ``I must say, 
this storm is much bigger than anyone expected.''
    Is it possible that the Weather Service simply wasn't being 
articulate about the nature of the threat posed by Katrina? I don't 
think that to be true, but we will have a chance today to confirm it.
    Apparently one of our witnesses didn't think it was true. Mr. 
Mayfield. According to a St. Petersburg Times story on August 30, based 
on an interview with Max Mayfield:

         ``On Saturday night, Mayfield was so worried about Hurricane 
        Katrina that he called the Governors of Louisiana and 
        Mississippi and the Mayor of New Orleans. On Sunday, he even 
        talked about the force of Katrina during a video conference 
        call to President Bush at his ranch in Crawford, Texas.''

         ``I just wanted to be able to go to sleep that night knowing 
        that I did all I could do,'' Mayfield said.

    On Sunday Mr. Mayfield conducted his regular presentation to the 
Hurricane Liaison Team/FEMA conference call. According to Mr. 
Mayfield's press account and government records the President, 
Secretary Chertoff and Under Secretary Brown were on calls either 
Saturday or Sunday and we know from other sources that the President 
and Chertoff both were on line for the August 28 briefing.
    On the screen is a photo released by the White House of the 
President participating in this video teleconference. On the screen in 
front of the President is Max Mayfield and over Mr. Mayfield's shoulder 
is an image of a powerful storm: Hurricane Katrina.
    In an article printed in the September 4 Times Picayune of New 
Orleans Mr. Mayfield said, reacting to the claims by some that the 
storm surprised them in its ferocity and consequences.
    ``We were briefing them way before landfall.. . . It's not like 
this is a surprise. We had the advisories that the levee could be 
topped. I keep looking back to see if there was anything else we could 
have done, and I just don't know what it would be.''
    I hope in your testimony Dr. Mayfield you can address whether 
anything else has come to mind that you could have done to get the 
attention of our emergency response leaders.
    Thank you Mr. Chairman.

    Chairman Boehlert. Thank you very much.
    Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    In the last six weeks, two of the strongest hurricanes ever 
recorded in the Gulf of Mexico hit the Gulf Coast region. 
Hurricanes Katrina and Rita left a wake of devastation and 
destroyed the homes and disrupted the livelihoods of countless 
Americans. My prayers continue to go out to the victims of 
these horrible events.
    Experts agree that the Atlantic Ocean is in a natural 
period of increased tropical storm activity. The last time were 
in an active period like this was 1920 to 1966. Obviously, 
these are very long-term cycles. However, today many more 
people live in hurricane-prone areas. To help prepare and 
respond better in the future, it is urgent for us to understand 
the forecasting of Katrina and Rita and what future hurricane 
seasons may hold. In that vein, I am pleased that Chairman 
Boehlert organized today's hearing about NOAA's hurricane 
forecasting.
    As the Chairman of the Environment and Technology and 
Standards Subcommittee, I am proud of the National Oceanic and 
Atmospheric Administration's Weather Service. The Weather 
Service, in particular through its National Hurricane Center in 
Miami, Florida, did an excellent job forecasting Katrina and 
Rita. Weather Service employees worked countless long hours to 
ensure that federal, State, and local officials and the public 
have the most accurate and up to date information about 
dangerous weather events. I applaud their hard work and look 
forward to learning more about how they do it. And I also am 
very anxious to find out how we can possibly alert the public 
anymore than has already been done to make certain the public 
responds and doesn't take it for granted.
    I yield back.
    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    In the last six weeks, two of the strongest hurricanes ever 
recorded in the Gulf of Mexico hit the Gulf Coast region. Hurricanes 
Katrina and Rita left a wake of devastation and destroyed the homes and 
disrupted the livelihoods of countless Americans. My prayers continue 
to go out to the victims of these terrible events.
    Experts agree that the Atlantic Ocean is in a natural period of 
increased tropical storm activity. The last time we were in an active 
period like this was 1920-1966. However, today many more people live in 
hurricane-prone areas. To help prepare and respond better in the 
future, it is urgent for us to understand the forecasting of Katrina 
and Rita and what future hurricane seasons may hold. In that vein, I am 
pleased that Chairman Boehlert organized today's hearing about NOAA's 
hurricane forecasting.
    As Chairman of the Environment, Technology, and Standards 
Subcommittee, I am proud of the National Oceanic and Atmospheric 
Administration's (NOAA) National Weather Service. The Weather Service, 
in particular through its National Hurricane Center in Miami, Florida, 
did an excellent job forecasting Katrina and Rita. Weather Service 
employees work countless long hours to ensure that federal, State and 
local officials, and the public, have the most accurate and up-to-date 
information about dangerous weather events. I applaud their hard work 
and look forward to learning more about how they do it.

    Chairman Boehlert. Thank you very much, Dr. Ehlers.
    Mr. Wu.
    Mr. Wu. As Ranking Member of the Environment, Technology, 
and Standards Subcommittee, I would like to begin by yielding 
time to one of my several good friends who were affected by 
Hurricanes Katrina and Rita, in this case, Mr. Melancon, the 
gentleman from Louisiana.
    Mr. Melancon. Thank you, Mr. Wu, I appreciate it.
    As you all know, my district suffered catastrophic losses 
and damage, lots of lives during Hurricane Katrina. It is hard 
to relate in words the situation that Katrina left behind. The 
challenges to rebuilding and putting the South Louisiana area 
back together again are complex and the progress will be slow.
    The loss of life, livelihood, homes and communities defy 
description but the courage and the resilience of the people of 
South Louisiana is all evident. We have taken a mighty blow 
from Mother Nature and we are stunned, but we are still 
standing and we are going to recover from this and restore our 
communities but we have a long and hard road ahead. The Federal 
Government must work with the State and local governments to 
rebuild our communities, our livelihoods, and the natural and 
manmade structures that protect us from these storms.
    We have heard criticism of the Government's response at all 
levels. In the midst of all this finger pointing, however, I 
think it is important that we highlight the many local 
officials who took care of their people when the network to 
support them collapsed. If not for the efforts of these heroes, 
many people would not have been evacuated and many of those who 
did not evacuate would not have survived. My constituents are 
not interested in partisan bickering or Monday morning 
quarterbacking. They need their immediate needs addressed and 
they need to have help to rebuild their lives.
    As federal officials, we need to ensure the Federal 
Government is ready to respond rapidly to future situations 
where citizens are victimized by natural or manmade disasters. 
State and local governments cannot be expected to provide 
sustained response and assistance from within a vast devastated 
area. The Federal Government is the only organization with the 
resources to provide the type of emergency assistance our 
citizens need.
    We can learn from some of the federal agencies that did 
perform well, such as the National Weather Service and the U.S. 
Coastguard. The National Weather Service worked cooperatively 
with State and local officials and with the media to get 
information out to the public. Their forecasts were accurate 
and their warnings were clear. Without these forecast and 
warnings and the lead time they provided, we would not have 
been able to evacuate as many people as we did and the loss of 
life would have been much greater. Their performance emphasizes 
the need for Congress to ensure that this agency stays 
adequately funded.
    To the American people and my fellow Members on this 
committee, I thank you. You have reached out to me and my 
district these past days and your generosity has not gone 
unnoticed. Rest assured with your help, Louisianans will 
survive. We will rebuild and our state will be strong again.
    On behalf of my constituents, I thank you, Mr. Mayfield and 
the other employees of the Hurricane Center and the National 
Weather Service for your fine work. I am anxious to work with 
my colleagues on the Committee to ensure that NOAA has the 
resources it needs to continue to improve hurricane 
forecasting. Additionally, I would also want to ensure that 
NOAA's other branches have the resources they need to help us 
rebuild our coastal wetlands and our fisheries.
    On behalf of the people of Louisiana and I would believe on 
behalf of the people of the entire Gulf Coast, I thank you.
    With that, I yield back my time.
    [The prepared statement of Mr. Melancon follows:]

         Prepared Statement of Representative Charlie Melancon

    As you all know, my district suffered catastrophic damage and 
tragic loss of life due to Hurricane Katrina. It's hard to relate in 
words the situation that Katrina left behind. The challenges to 
rebuilding and putting South Louisiana back together again are complex 
and the progress is slow. The loss of life, livelihood, homes, and 
communities defies description.
    But, the courage, resilience, and strength of Louisiana's citizens 
is also evident. We have taken a mighty blow from Mother Nature and 
we're stunned, but we're still standing. We are going to recover from 
this and restore our communities, but we have a long hard road ahead. 
The Federal Government must work with the State and local governments 
to rebuild our communities, our livelihoods and the natural and the 
man-made structures that protect us from these storms.
    We've heard criticism of the government response at all levels. In 
the midst of all this finger-pointing, however, I think it is important 
that we highlight the many local officials who took care of their 
people when the network to support them collapsed. If not for the 
efforts of these heroes, many people would not have evacuated and many 
of those who did not evacuate would not have survived.
    My constituents are not interested in partisan bickering or Monday-
morning quarterbacking. They need their immediate needs addressed and 
they need help to rebuild their lives. As federal officials, we need to 
ensure the Federal Government is ready to respond rapidly to future 
situations where citizens are victimized by natural or man-made 
disasters. State and local governments cannot be expected to provide 
sustained response and assistance from within a vast devastated area. 
The Federal Government is the only organization with resources to 
provide the type of emergency assistance our citizens need.
    We can learn from some of the federal agencies that did perform 
well--the National Weather Service and the U.S. Coast Guard are two 
examples.
    The National Weather Service worked cooperatively with State and 
local officials and with the media to get information out to the 
public. Their forecasts were accurate, and their warnings were clear. 
Without these forecasts and warnings, and the lead time they provided, 
we would not have been able to evacuate as many people as we did and 
the loss of life would have been much greater. Their performance 
emphasizes the need for Congress to ensure that this agency stays 
adequately funded.
    To the American people and my fellow Members on this committee--
thank you. You have reached out to me and my district these past days 
and weeks and your generosity has not gone unnoticed. Rest assured, 
with your help, Louisianians will survive; we will rebuild; and our 
state will be strong again.
    On behalf of my constituents; thank you Dr. Mayfield, and the other 
employees of the Hurricane Center and the National Weather Service for 
your fine work. I am anxious to work with my colleagues on the 
Committee to ensure that NOAA has the resources it needs to continue to 
improve hurricane forecasting. Additionally, I would also want to 
ensure that NOAA's other branches have the resources they need to help 
us to rebuild our coastal wetlands and our fisheries.
    Thank you, and I yield back my time.

    Chairman Boehlert. Thank you very much for those heartfelt 
remarks and I think we all identify with them.
    And without objection, all other Members will be able to 
offer opening statements at this juncture in the record.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank the witnesses for appearing before 
our committee to examine hurricane forecasting by the National Oceanic 
and Atmospheric Administration (NOAA). The devastating affects of 
hurricanes are familiar to all of us. In the wake of Hurricanes Katrina 
and Rita, it is important to gain a better understanding of the 
prediction of hurricanes and determine what can be done to improve 
prediction of hurricanes, both in the short-term and the long-term.
    Within the NOAA, the National Weather Service (NWS) and the 
National Hurricane Center (NHC) predicted the severity of Hurricane 
Katrina and issued multiple warnings for the Gulf Coast as early as 5 
pm on Thursday, August 25th. By late Sunday night, early Monday 
morning, August 29th, the National Hurricane Center issued an advisory 
stating ``coastal storm surge flooding of 18 to 22 feet above normal 
tide levels. . .locally as high as 28 feet.. . .Some levees in the 
greater New Orleans could be overtopped.'' This is not an instance 
where science failed us. The science of hurricane prediction has 
increased dramatically with observational work and research done by 
NOAA.
    For decades FEMA, the Army Corp of Engineers, academics and other 
federal, State and local agencies have performed simulations and 
analyses to determine the affect of a hurricane on the New Orleans 
area. These analyses overwhelming concluded that should a Category 3, 
or higher, hurricane strike New Orleans, the result would be 
catastrophic flooding, loss of property and life with or without a 
levee breach. Simple overtopping of the levees alone was predicted by 
the Red Cross to result in between 25,000-100,000 lives.
    Hurricane Katrina revealed that despite billions of dollars in 
emergency response preparation and a complete overhaul of the federal 
domestic security system embodied in the Department of Homeland 
Security, Americans are not secure today from the ravages of nature. 
Thus, within this chaos, one thing is clear; this disaster was not the 
fault of the NOAA or their sub-components the NWS or the NHC. The 
aftermath was not due to a failure of science to predict. The aftermath 
was a failure of emergency response to act on sound engineering, 
oceanographic and atmospheric science that predicted that Katrina could 
be devastating and the Gulf region in particular, New Orleans, because 
the city sits below sea level and is dependent on levees and pumps to 
keep the water out.
    I thank the witnesses for their testimony and look forward to 
hearing what the outlook is for the remainder of the 2005 hurricane 
season and for improving hurricane predictions in the short- and long-
term.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman and Ranking Member.
    Hurricanes Katrina and Rita devastated thousands of lives in New 
Orleans, southern Louisiana, Mississippi, and other parts of the 
Southeast.
    I am anxious to hear about how NOAA and the National Weather 
Service predict hurricanes and how we as legislators can remove 
barriers so that you can do your important work to the best of your 
ability.

    [The prepared statement of Mr. Carnahan follows:]

           Prepared Statement of Representative Russ Carnahan

    Mr. Chairman and Mr. Ranking Member, thank you for hosting this 
hearing.
    I am pleased that the Science Committee is taking this very 
important step to exercise its oversight role, particularly after such 
horrific natural disasters have occurred. We owe it to the American 
public to do everything possible to make sure this type of tragedy 
never happens again.
    After reviewing the written testimony of our witnesses it is clear 
to me that NOAA, the National Weather Service and the National 
Hurricane Service did an outstanding job predicting the course of 
Hurricane Katrina and the ensuing devastation that followed. To prevent 
another Katrina, we must equip the National Hurricane Center and keep 
it as strong as it is today. But, we must also look outside this 
committee and revisit many of the policies promoted by the Bush 
Administration, reform FEMA and ensure that funds directed toward 
emergency management are held accountable.
    General Johnson and Dr. Mayfield, we are pleased to have you with 
us and I look forward to hearing your testimony.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

    Mr. Chairman, let me first thank you for holding this important 
hearing on hurricane forecasting.
    It was about five weeks ago that we first heard reports of a 
hurricane building in the Atlantic Ocean and heading towards our coast. 
We had heard this warning many times before, but the size and the scale 
of this one was different. There hasn't been a hurricane this big and 
this powerful in decades, and it was heading toward one of the most 
vulnerable cities in the country. We have since witnessed the awesome 
destructive power Mother Nature still commands over mankind. Few could 
have imagined the immense devastation and human suffering Katrina would 
bring to our shores.
    If there is something positive we can take from this disaster, 
however, it will be our collective national resolve to never allow this 
to happen again. While this event is still fresh in our memories, we 
must learn from what we did wrong, strengthen what we did right and 
strive to find new ways to ensure the safety of the citizens of this 
country.
    On the forefront of this effort, of course, are the fine people of 
the National Oceanic and Atmospheric Administration. Their state-of-
the-art forecasting, detection and tracking systems saved hundreds, if 
not thousands of lives this past month. Their accuracy in the 
forecasting of Katrina was outstanding, and very impressive in Rita as 
well. Questions remain to be answered regarding what the proper 
response to NOAA's warnings should have been, but it is very apparent 
that in the case of Rita and Katrina, NOAA performed extremely well, 
and we commend them for that.
    NOAA's impressive performance in this instance, however, serves 
only to further emphasize the need for more work in the area of 
hurricane forecasting. We can't ever expect to conquer Mother Nature, 
or turn back hurricanes with the press of a button. In the wake of this 
disaster, however, we need to constantly be asking each other ``What 
more could we have done?''
    The Committee posed some very difficult questions for our 
distinguished panel, that I hope we can explore today. I hope those 
questions are appropriately addressed, with special attention to what 
can be done to improve forecasting of hurricanes in the future.
    Thank you very much for being here today. I am sure this hearing 
will be very productive, and I look forward to hearing the testimony 
from the panelists as well as from my fellow colleagues.

    Chairman Boehlert. Let me welcome our two distinguished 
visitors, Brigadier General David L. Johnson, who is Director 
of the NOAA National Weather Service; and Mr. Max Mayfield, who 
is the Director of NOAA's Tropical Prediction Center and 
National Hurricane Center. And let me say to both of you 
gentlemen, I can speak, I think, for my colleagues of all 
persuasions from all regions of the country, we appreciate the 
magnificent performance of your people in this tragic incident 
and we are so proud of what you do and do so well.
    The purpose of this hearing, though, is not to give you 
additional pats on the back, well deserved though they are. It 
is to go forward and to try to determine what more you might 
need, what assistance we might be able to provide. But I stress 
my strong, personal feeling that you have been magnificent in 
the performance of your job. I cannot say that about every 
other official at every level of government but I can say it 
about you two and all the people that you represent. Thank you.
    With that, our first witness, General Johnson, Director of 
the National Weather Service. General, the Floor is yours.

    STATEMENT OF BRIGADIER GENERAL DAVID L. JOHNSON (RET.), 
  ASSISTANT ADMINISTRATOR FOR WEATHER SERVICES; DIRECTOR, THE 
  NATIONAL WEATHER SERVICE, NATIONAL OCEANIC AND ATMOSPHERIC 
          ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Johnson. Mr. Chairman and Members of the Committee, I 
am David Johnson, the Assistant Administrator for Weather 
Services at NOAA and Director of the National Weather Service. 
Thank you very much for inviting me here today to discuss 
NOAA's role in forecasting and warning the public about 
hurricanes. And Mr. Chairman, I would like to thank you 
personally and all of the Members of the Science Committee for 
your leadership in this area and for your support last year 
when you provided funding to get us seven additional buoys and 
provide dollars for the Air Force Reserve to put some urgently 
needed instrumentation on their airplanes. They are working 
towards getting me one airplane for the '06 season and then 
additional airplanes after that.
    I am accompanied by Max Mayfield, my Director of the 
National Hurricane Center. He will be focusing on Hurricane 
Katrina and Rita, communicating our forecasts, as well as the 
outlook for the future. I will be focusing on our role in 
hurricane tracking and forecasting, as well as, ongoing and 
future research efforts.
    NOAA's forecast and warnings for Hurricane Rita and Katrina 
pushed the limits of state-of-the-art hurricane prediction and 
our current continuous research efforts including observations, 
modeling, and expanded computational resources at NOAA and in 
partnership with other federal agencies lead to our current 
predictive capabilities and improved ways of describing 
uncertainty in prediction. But NOAA's work does not stop there. 
NOAA assesses damage from storms and evaluates waterways to 
assist dredging operations, reopening our nation's ports and 
waterways impacted by the storms. NOAA also assesses the impact 
to area fisheries, supports hazardous materials containment and 
abatement efforts, and we provide environmental data critical 
for post storm recovery operations.
    The mission of the National Weather Service is to issue 
weather, water, and climate forecasts for the protection of 
life and property and the enhancement of the economy. Nowhere 
is that more evident than in the hurricane program. Various 
components of the National Weather Service play important roles 
in the overall hurricane forecasting and warning process and 
the National Hurricane Center within the NWS has been the 
centerpiece of our nation's Hurricane Forecast and Warning 
Program for 50 years.
    The National Hurricane Center, ably led by Max Mayfield, is 
responsible for predicting the path and intensity of the storm, 
issuing coastal hurricane watches and warnings, and describing 
broad impacts to the areas impacted, including projected storm 
surge levels.
    After each hurricane season, your Weather Service 
undertakes an effort to improve how we can communicate our 
information more clearly. For example, after the 2004 season, 
we focused on how to improve the communication of uncertainty. 
Again this year, we have several experimental products on our 
website for review. We will do a hot wash after this season to 
see how we can do our job better.
    Local National Weather Forecast Offices and River Forecast 
Centers also play a critical role in this process. They use 
their local expertise to refine National Hurricane Center 
advisories and provide specific detailed information about 
storm impacts from the hurricane to their local forecast area 
of responsibility.
    Weather forecast office staffs have detailed knowledge of 
the local terrain and impacts and provide this information 
through direct interaction with local emergency managers via 
their local forecast products and messages. This detailed 
information is used by local emergency managers in their 
evacuation and other preparedness decisions.
    Using a combination of atmospheric and ocean observations 
from satellites, aircraft, and all available surface data over 
the ocean, NOAA conducts experiments to better understand 
internal storm dynamics and interactions between a hurricane 
and the surrounding atmosphere and oceans. Through greater 
understanding of the physical processes in advanced hurricane 
modeling, NOAA continually improves models for predicting 
hurricane intensity and track. These numerical modeling 
improvements, once demonstrated, are then transitioned into 
operations. Our track forecasts have shown consistent 
improvement; however, we have not seen a comparable improvement 
in our intensity forecasts.
    From a scientific point, the gaps in our capabilities fall 
into two broad categories. First, our ability to measure and 
assess the current state of hurricane and its environment doing 
that analysis, and second, our ability to predict the 
hurricane's future state, that is the forecast. We need to 
enhance our observation network. Many of the enhancements 
required to improve hurricane analyses particularly over the 
data sparse ocean areas will be addressed through such programs 
as the Global Earth Observation System of Systems or GEOSS, a 
ten-year international endeavor of which the United States is a 
member and NOAA a key participant.
    Predicting hurricane intensity remains an acute challenge. 
Even though we knew conditions were favorable for the storms to 
intensify, we do not know why the storm underwent its rapid 
intensification once it passed the Florida Peninsula and 
reentered the gulf. We are now at the point in improving 
intensity forecasts that we were at a decade ago with the track 
forecast. Our 2005 version of our high resolution model 
improved some of the intensity forecasts over the current 
statistical models when we run them on last year's 2004 
hurricanes. So we have potential there.
    To advance hurricane prediction, especially hurricane and 
size forecasts, NOAA is developing the Hurricane Weather and 
Research Forecasting System. The Weather Service works with the 
research community to incorporate advanced model physics into a 
hurricane model which integrates the physical interactions of 
the atmosphere, land, and oceans into a single model. Our goal 
here is to couple an advanced wave model with a dynamic storm 
surge model to better predict coastal impacts of waves and the 
storm surge.
    Mr. Chairman, while there are no quick fixes, we are very 
optimistic that we will continue to make advances in our 
operational forecast of tropical cyclone intensity, wind 
structure, size and rainfall in the near future.
    So in conclusion, the government's ability to observe, 
predict, and respond quickly to storm events is critical to 
public safety. At NOAA, we will continue our efforts to improve 
hurricane track and intensity forecasting including wind, storm 
surge, and rainfall amounts. We will also continue to provide 
the technical tools and planning expertise to states and local 
governments to help mitigate future natural disasters and 
provide our assistance for response and recovery.
    With that, sir, I am happy to answer any questions you may 
have.
    [The prepared statement of Brigadier General Johnson 
follows:]

        Prepared Statement of Brigadier General David L. Johnson

    Mr. Chairman and Members of the Committee, I am General David L. 
Johnson, Assistant Administrator for Weather Services at the National 
Oceanic and Atmospheric Administration (NOAA) in the Department of 
Commerce. Thank you for inviting me here today to discuss NOAA's role 
in forecasting, and warning the public about hurricanes, as well as 
NOAA's essential role and activities following landfall.
    The devastation along the Gulf Coast from Hurricane Katrina and 
Hurricane Rita is like nothing I have witnessed before. It is 
catastrophic. Words cannot convey the physical destruction and personal 
suffering in that part of our nation. However, without NOAA's forecasts 
and warnings, the devastation and loss of life would have been far 
greater.
    NOAA's forecasts and warnings for Hurricane Katrina and Hurricane 
Rita pushed the limits of state-of-the-art hurricane prediction. In 
partnership with DOD, NASA, NSF, and other federal agencies, the long-
term continuous research efforts, including observations, modeling, and 
expanded computational resources have led to NOAA's current predictive 
capabilities and improved ways of describing uncertainty in prediction. 
But NOAA's work does not end there. NOAA assesses damage from storms 
and evaluates waterways to assist dredging operations, allowing our 
nation's ports and waterways impacted by the storm to open. NOAA also 
assesses the impact to the areas' fisheries, supports hazardous 
materials containment and abatement efforts, and provides necessary 
data critical for post storm recovery operations.

The Role of the National Weather Service in Tracking, Forecasting and 
                    Communicating the Threats of Hurricanes

    The mission of the National Weather Service (NWS) is to issue 
weather, water and climate forecasts and warnings for the protection of 
life and property and the enhancement of the national economy. Nowhere 
is that more evident than in the hurricane program. Various components 
of the NWS play important roles in the overall hurricane forecasting 
and warning process. The National Hurricane Center (NHC) within the NWS 
has been the centerpiece of our nation's hurricane forecast and warning 
program for 50 years. The mission of the NHC is to save lives, mitigate 
property loss, and improve economic efficiency by issuing the best 
watches, warnings, and forecasts of hazardous tropical weather and by 
increasing the public's understanding of these hazards.
    NHC tropical cyclone forecasts are issued at least every six hours, 
more frequently during landfall threats, and include text messages as 
well as a suite of graphical products depicting our forecasts and the 
accompanying probabilities and ``cone of uncertainty,'' as it has 
become known. The NHC is responsible for predicting the path and 
intensity of the system, issuing coastal hurricane watches and 
warnings, and describing broad impacts to the areas impacted, including 
projected storm surge levels.
    Local National Weather Service Weather Forecast Offices (WFO) also 
play a critical role in this process. The WFOs use their local 
expertise to refine NHC advisories and provide specific, detailed 
information about the impacts from the hurricane to their local 
forecast area of responsibility. Weather forecast staff have detailed 
knowledge of the local terrain and impacts, and provide this 
information through direct interactions with local emergency managers 
and via their local forecast products and messages. This detailed 
information is used by local emergency managers when making their 
evacuation and other preparedness decisions. The effects of hurricanes 
can reach far inland and it is the responsibility of the local WFO to 
issue inland hurricane and tropical storm warnings and describe the 
local impacts here as well. These inland impacts include flood and 
flash floods as well as tornadoes.

Tracking and Forecasting Hurricane Katrina

    Hurricane Katrina began as a tropical depression near the 
southeastern Bahamas on Tuesday, August 23, 2005. The National 
Hurricane Center accurately predicted it would become a Category 1 
hurricane before making landfall near Miami. The storm deluged 
southeast Florida with 16 inches of rain in some places, causing downed 
trees, flooding, and extended power outages as it passed across the 
southern portion of the state.
    Once Katrina re-emerged into the Gulf of Mexico, NOAA hurricane 
forecasters correctly predicted re-intensification of the storm. 
Katrina intensified more quickly and became stronger than initially 
predicted. Within nine hours, Katrina intensified from a tropical 
storm, with winds of 70 miles per hour, to a Category 2 storm with 100 
mile per hour winds.
    As you can see in the graphic below, our forecast track from Friday 
night (August 26), about 56 hours before landfall, had the storm 
curving northward and headed directly toward southeastern Louisiana and 
Mississippi. The projected path of Katrina aimed directly at southeast 
Louisiana, and the prediction was for Katrina to make landfall as a 
Category 4 hurricane. The actual track would deviate little from this 
and subsequent forecasts for the rest of Katrina's approach. On 
average, NOAA forecasts of where Katrina would go were more accurate 
than usual, with all of the forecast tracks during the last 48 hours 
lining up almost directly on top of the actual track. This forecast 
beats the Government Performance and Results Act goal established for 
NOAA hurricane forecasts this year.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    At 10:00 am Central Daylight Time (CDT) Saturday morning, August 
27, the National Hurricane Center posted a hurricane watch for 
southeast Louisiana, including the city of New Orleans. The hurricane 
watch extended eastward to Mississippi and Alabama that afternoon. A 
hurricane watch means hurricane conditions are possible in the 
specified area, usually within 36 hours. Messages from the National 
Hurricane Center highlighted the potential for this storm to make 
landfall as a Category 4 or Category 5 storm.

Tracking and Forecasting Rita

    Rita began as a tropical depression at 10:00 pm CDT Saturday, 
September 17, 2005, east of the Turks and Caicos Islands north of the 
Caribbean. The National Hurricane Center accurately predicted the 
center of the storm to pass just south of the Florida Keys as a 
hurricane on Tuesday, September 20, and predicted it to become a major 
hurricane as it moved over the warm waters of the Gulf of Mexico. 
Hurricane Rita continued to intensify in the Gulf of Mexico and became 
a Category 5 hurricane at 4:00 pm CDT Wednesday, September 21 with 
winds of 165 miles per hour.
    On Thursday, September 22, approximately two days before landfall, 
the forecast track was shifted eastward to just west of the Louisiana/
Texas border. Rita's actual track would deviate little from this and 
subsequent projections. As Hurricane Rita neared landfall, the National 
Hurricane Center accurately predicted its decrease in intensity. 
Hurricane Rita made landfall as a Category 3 storm just east of Port 
Arthur, Texas, near the Texas/Louisiana border.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Storm Surge

    Storm surge has caused most of this country's tropical cyclone 
fatalities, all too vividly evident in the past several weeks, and 
represents our greatest risk for a large loss of life in this country. 
Following Hurricane Camille in 1969, NOAA established a group that 
developed and implemented a storm surge model called SLOSH (Sea, Lake, 
and Overland Surges from Hurricanes). The SLOSH model calculates storm 
surge heights resulting either from historical, hypothetical or actual 
hurricanes. SLOSH incorporates bathymetry and topography, including bay 
and river configurations, roads, levees, and other physical features 
that can modify the storm surge flow pattern. Comprehensive evacuation 
studies, conducted jointly by the Federal Emergency Management Agency 
(FEMA), the U.S. Army Corps of Engineers, NOAA, and State and local 
emergency managers, are based on the simulated surges computed by 
SLOSH.
    The National Hurricane Center introduced storm surge forecasts for 
the Gulf Coast in public advisories at 10:00 pm CDT Saturday--32 hours 
prior to Katrina's landfall in Louisiana. The initial forecast (10:00 
pm CDT, Saturday, August 27) for storm surge was predicted at 15 to 20 
feet, locally as high as 25 feet, and that forecast was updated the 
following morning to a range of 18 to 22 feet, locally as high as 28 
feet, when the forecast intensity for landfall was increased. ``Large 
and battering'' waves were forecast on top of the surge. In addition, 
the 4:00 pm CDT public advisory issued by the National Hurricane Center 
on Sunday, August 28, stated that some levees in the greater New 
Orleans area could be overtopped. Actual storm surge values are being 
determined at this time.
    Storm surge values for Rita were also issued well in advance of 
landfall. At 10:00am CDT on September 22, 40 hours before landfall, the 
National Hurricane Center predicted a storm surge of ``. . .15 to 20 
feet above normal tide levels, along with large and dangerous battering 
waves, can be expected near and to the right of where the center makes 
landfall.'' While exact levels of the surge are still being determined, 
the damage from the surge was similar to damage witnessed in 
Mississippi and Louisiana with Katrina.
    In the case of Hurricane Katrina, there have been news reports that 
Max Mayfield, the Director of the National Hurricane Center, notified 
FEMA that the New Orleans' levees would be breached. In fact, he did 
not say this. He indicated in his briefings to emergency managers and 
to the media the possibility some levees in the greater New Orleans 
area could be overtopped, depending on the details of Katrina's track 
and intensity. This possibility was also indicated in the National 
Hurricane Center advisory products and local weather office Hurricane 
Local Statements and has been discussed at conferences and briefings 
with emergency managers, media, and the public for many years.

Communicating Our Forecasts

    The FEMA/NWS Hurricane Liaison Team (HLT), established in 1996, 
coordinates communications between NOAA and the emergency management 
community at the federal and State levels. Membership consists of FEMA 
Hurricane Program Managers and Disaster Assistance employees as well as 
National Weather Service meteorologists and hydrologists. The Hurricane 
Liaison Team is activated by FEMA, at the request of the Director of 
the National Hurricane Center, or his or her designee. The HLT is 
activated a few days in advance of any potential U.S. hurricane 
landfall. Once activated, FEMA hosts the daily HLT audio or video 
conference calls. FEMA invites State and local emergency managers in 
the potential impact area to participate in these calls. The National 
Hurricane Center, as an invited participant, opens each call by 
providing an updated forecast. After consulting with our local weather 
service offices and the National Hurricane Center, emergency managers 
make evacuation and other preparedness decisions. The HLT provides an 
excellent way to communicate with the large number of emergency 
managers typically impacted by a potential hurricane. This is a 
critical effort to ensure emergency managers and first responders know 
what to expect from the hurricane.
    The reported evacuation rate during Hurricane Katrina of near 80 
percent, however, far exceeds the 25-50 percent rates usually noted. 
This large evacuation saved many lives and did not happen by accident. 
Rather, it resulted from a long working relationship and open 
communication between NOAA, the emergency management community at all 
levels, and the media. This collaboration is especially close and 
complementary during a hurricane threat. For example, since the 1970s, 
NOAA has been delivering and updating thousands of storm surge 
simulations it generates for the entire vulnerable coast from Texas to 
Maine long before any specific event. These simulations are the basis 
for the evacuation plans and storm-specific decisions made by the 
communities there. In addition, NOAA provides real-time storm surge 
information.
    I believe the high evacuation rate for Katrina was also due to the 
broad distribution and diverse formats of National Weather Service text 
and graphical forecast and warning products, the 471 media interviews 
conducted by NHC staff, the more than 2.3 billion ``hits'' the National 
Weather Service forecast products received on our public website, and 
the interactions of local National Weather Service offices and the 
National Hurricane Center with emergency managers in the days prior to 
landfall. For Hurricane Rita, National Hurricane Center staff provided 
935 media interviews. In addition, National Weather Service web 
activity, as supported by NOAA's web-mirroring project, registered over 
2.9 billion ``hits'' during Hurricane Rita.
    On Saturday evening, August 27, Max Mayfield personally called the 
Chief of Operations at the Alabama Emergency Management Agency, as well 
as the Governors of Louisiana and Mississippi and the Mayor of New 
Orleans, to communicate the potential meteorological and storm surge 
impacts from Hurricane Katrina.

NOAA Aircraft Support Efforts

    NOAA Aircraft, the W-P3 Orions and the Gulf Stream IV ``Hurricane 
Hunters,'' provided essential observations critical to the National 
Hurricane Center forecasters and supplement U.S. Air Force Reserve 
Command's 53rd Weather Reconnaissance Squadron flights. A specialized 
instrument flown on one of the W-P3s, the Stepped Frequency Microwave 
Radiometer (SFMR), provided essential hurricane structure and surface 
wind data to hurricane forecasters for both hurricanes. The Military 
Construction Appropriations and Emergency Hurricane Supplemental 
Appropriations Act, 2005 (P.L. 108-324) provided $10.5M to the Air 
Force to outfit the complete fleet of Hurricane Hunters with this 
instrument, the first of these additional units should be available 
during the 2006 Hurricane Season.
    The Military Construction Appropriations and Emergency Hurricane 
Supplemental Appropriations Act, 2005 also provided funding to NOAA for 
seven hurricane buoys, which NOAA deployed this past year in the 
Caribbean, the Gulf of Mexico, and the Atlantic. These new buoys 
provided us with critical information during this active hurricane 
season.

NOAA's Activities After Hurricane Katrina's and Hurricane Rita's 
                    Landfall

    Immediately following Hurricane Katrina's second landfall, and also 
following Hurricane Rita's landfall, several NOAA ships and aircraft 
were tasked with assisting in the hurricane response. Our aircraft flew 
damage assessment flights using a sophisticated digital camera to 
collect imagery to assess damage. Over 10,000 high-resolution images 
were collected by NOAA aircraft for the areas impacted by Hurricanes 
Katrina and Rita. These images are assisting emergency managers and 
other agencies in recovery operations and long-term restoration and 
rebuilding decisions. They are also publicly available on NOAA's 
website to allow those displaced by the storms to view their homes and 
neighborhoods via the Internet.
    It is also NOAA's responsibility to assess the damage to the 
commercial fishing industry in those sections of the Gulf of Mexico. We 
are working closely with each of the impacted State resource agencies 
and commercial entities to assess the storm's impacts to the longer-
term social and economic viability of local fishing communities. NOAA 
employees also are assisting recovery efforts by working with other 
federal agencies in planning, organizing, and conducting oil spill and 
hazardous material response and restoration in the impacted areas of 
the Gulf.
    NOAA vessels are tasked with surveying critical ports and waterways 
for depths, wrecks and obstructions for navigational safety. NOAA 
Navigation Response Teams were on the scene before both hurricanes hit 
to survey for hazards and help the U.S. Coast Guard and the Army Corps 
of Engineers re-open waterways to commercial and emergency traffic. Our 
ships use highly specialized hydrographic equipment to survey near 
shore and mid-water areas to assess potential obstructions to 
navigation caused by Hurricane Katrina, and Rita. The efforts of these 
NOAA ships are critical to rebuilding the Gulf's economic 
infrastructure by enabling vessels of all sizes to pass safely through 
these waterways thereby allowing emergency materials, oil, and 
commercial goods to make it to their destinations.

Outlook for the Future

    Today is October 7; to date we have had seventeen tropical storms, 
nine of which have become hurricanes, five of those have been major 
hurricanes at Category 3 or stronger. We believe we will continue to 
have an active season, with a total of l8-21 tropical storms. We 
believe this heightened period of hurricane activity will continue due 
to multi-decadal variance, as tropical cyclone activity in the Atlantic 
is cyclical and tied to fluctuations in sea surface temperatures and 
other characteristics of the coupled ocean-atmosphere system. The 
1940's through the 1960's experienced an above average number of major 
hurricanes, while the 1970's into the mid-1990's averaged fewer 
hurricanes. The current period of heightened activity could last 
another 10-20 years. The increased activity since 1995 is due to 
natural fluctuations/cycles of hurricane activity, driven by the 
Atlantic Ocean itself along with the atmosphere above it. The natural 
cycles are quite large with 3-4 major hurricanes a year on average 
during active periods and only about 1-2 major hurricanes annually 
during quiet periods, with each period lasting 25-40 years.

Current and Future Research Efforts

    Through greater understanding of physical processes and advanced 
hurricane modeling, NOAA continually improves models for predicting 
hurricane intensity and track, in collaboration with federal partners, 
academic researchers, and commercial enterprises. These numerical 
modeling improvements, once demonstrated, are transitioned into 
operations.
    NOAA is focused on improving the forecasting of hurricane 
frequency, track, and intensity as well as predicting hurricane impacts 
on life and property. We depend on numerous critical research 
activities inside and outside NOAA. Our track forecasts have shown 
continued improvement. However, we have not seen a comparable 
improvement in our intensity forecasts.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    From a scientific standpoint, the gaps in our capabilities fall 
into two broad categories: first, our ability to measure and assess the 
current state of a hurricane and its environment (analysis), and 
second, our ability to predict a hurricane's future state (the 
forecast).
    Many of the enhancements required to improve hurricane analyses, 
particularly over the data-sparse ocean areas, will be addressed 
through such programs as the Global Earth Observation System of Systems 
(GEOSS), a 10-year international endeavor of which the United States is 
a member and NOAA, NASA, and USGS are key participants.
    Using a combination of atmospheric and ocean observations from 
satellites, aircraft, and all available surface data over the oceans, 
NOAA, NASA, NSF and other federal agencies conduct experiments to 
better understand internal storm dynamics and interactions between a 
hurricane and the surrounding atmosphere and ocean. Much of NOAA's 
improvement in tropical cyclone forecasting is attributed to advances 
in Numerical Weather Prediction (NWP). In collaboration with many 
scientists and developers in the domestic and international operational 
NWP centers, the NOAA Environmental Modeling Center develops state-of-
the-art numerical modeling systems. Predicting hurricane intensity 
remains one of our acute challenges. For example, even though we knew 
conditions were favorable for the storms to intensify, and we forecast 
strengthening, there was some error for both storms in the intensity 
forecast for the eastern Gulf due to their rapid intensification. 
Through our NWP advancements, our 2005 version of our high-resolution 
model improved some intensity forecasts over the statistical models 
when run on several 2004 Atlantic storms. To advance hurricane 
prediction, especially hurricane intensity and size forecasts, NOAA is 
developing the Hurricane Weather and Research Forecasting (HWRF) 
system. The HWRF system uses a collaborative approach among the 
research community and will apply advanced model physics as HWRF 
couples the atmosphere, land, and ocean into an integrated model. Our 
goal is to couple an advanced wave model with a dynamic storm surge 
model to better predict coastal impacts of waves and storm surge.
    We have increased our efforts to transfer research into operations. 
The United States Weather Research Program (USWRP) Joint Hurricane 
Testbed (JHT) was formed in late 2000. The mission of the JHT is to 
facilitate the transfer of new technology, research results, and 
observational advances of the USWRP, its sponsoring agencies, the 
academic community, and the private sector for improved operational 
tropical cyclone analysis and prediction.
    While there are no quick fixes, we are very optimistic that we will 
continue to make advances in operational forecasts of tropical cyclone 
intensity, wind structure, size, and rainfall in the near future.

Conclusion

    The government's ability to observe, predict, and respond quickly 
to storm events is critical to public safety. We must now look ahead to 
post-storm redevelopment strategies for communities impacted by 
Katrina, Rita and future storms, to help manage and anticipate these 
extreme events. NOAA has the expertise in coastal management and hazard 
mitigation, and is committed to working with our partners to reduce the 
Nation's vulnerability to hurricanes and other coastal storm events. It 
is critical that we work to protect and restore natural features along 
the Gulf Coast, such as dunes, wetlands, and other vegetated areas that 
offer protection against coastal flooding and erosion.
    Hurricanes Katrina and Rita will not be the last major hurricanes 
to hit a vulnerable area, and New Orleans is not the only location 
vulnerable to a large disaster from a land-falling hurricane. Houston/
Galveston, Tampa Bay, southwestern Florida, the Florida Keys, 
southeastern Florida, New York City/Long Island, and New England, are 
all especially vulnerable. And New Orleans remains vulnerable to future 
hurricanes.
    In partnership with NASA, NSF, and other agencies, NOAA we will 
continue efforts to improve hurricane track, intensity, rainfall and 
storm surge forecasting. NOAA will also continue to provide technical 
tools and planning expertise to States and local governments to help 
mitigate future natural hazards and provide our assistance for response 
and recovery efforts.
    With that, I'll be glad to answer any questions Members may have.

                     NOAA National Hurricane Center

Hurricane Katrina Forecast Timeline

TUESDAY, AUGUST 23, 2005
1600 CDT: Katrina forms as a Tropical Depression 12, near Nassau in the 
Bahamas. Tropical Depression 12 Advisory 1 issued: ``A TROPICAL STORM 
OR HURRICANE WATCH MAY BE REQUIRED FOR PORTIONS OF SOUTHERN FLORIDA 
LATER TONIGHT.''

WEDNESDAY, AUGUST 24, 2005
0400 CDT: The National Hurricane Center's five-day forecast puts the 
projected path of Katrina in the southeast Gulf of Mexico (as the 
system is still a tropical depression in the central Bahamas).

0700 CDT: Katrina is elevated to a Tropical Storm.

1000 CDT: Tropical Storm Katrina Advisory 4 is issued: ``. . .A 
TROPICAL STORM WARNING AND A HURRICANE WATCH HAVE BEEN ISSUED FOR THE 
SOUTHEAST FLORIDA COAST. . .''

THURSDAY, AUGUST 25, 2005
1430 CDT: Katrina is elevated to a Category 1 Hurricane.

1730 CDT: Katrina makes landfall in Florida as a Category 1 Hurricane.

WEDNESDAY/THURSDAY, AUGUST 24/25:
    Hurricane Liaison Team conference calls were conducted both days, 
and included Florida emergency managers, FEMA Headquarters (FEMA HQ), 
and Region IV.

FRIDAY, AUGUST 26, 2005
0200 CDT: Katrina entered the Gulf of Mexico as a Tropical Storm.

0400 CDT: Katrina is elevated to a Category 1 Hurricane.

1000 CDT: Hurricane Katrina Advisory Number 12 is issued: ``KATRINA IS 
A CATEGORY ONE HURRICANE ON THE SAFFIR-SIMPSON SCALE. SOME 
STRENGTHENING IS FORECAST DURING THE NEXT 24 HOURS. . .AND KATRINA 
COULD BECOME A CATEGORY TWO HURRICANE ON SATURDAY.''

1015 CDT: Hurricane Liaison Team Coordination Audio Conference with FL.

1030 CDT: Katrina is elevated to a Category 2 Hurricane. Hurricane 
Katrina Advisory Number 13 is issued: ``. . .KATRINA RAPIDLY 
STRENGTHENING AS IT MOVES SLOWLY WESTWARD AWAY FROM SOUTH FLORIDA AND 
THE FLORIDA KEYS. . .KATRINA IS MOVING TOWARD THE WEST NEAR SEVEN MPH. 
. .AND THIS MOTION IS EXPECTED TO CONTINUE FOR THE NEXT 24 HOURS. . 
.RECENT REPORTS FROM AN AIR FORCE RESERVE UNIT HURRICANE HUNTER 
AIRCRAFT NOW INDICATE MAXIMUM SUSTAINED WINDS ARE NEAR 100 MPH. . .WITH 
HIGHER GUSTS. KATRINA IS NOW A CATEGORY TWO HURRICANE ON THE SAFFIR-
SIMPSON SCALE. SOME STRENGTHENING IS FORECAST DURING THE NEXT 24 HOURS. 
. .AND KATRINA COULD BECOME A CATEGORY THREE OR MAJOR HURRICANE ON 
SATURDAY.''

1100 CDT: Hurricane Liaison Team Coordination Video Conference with 
FEMA HQ, Region IV, FL, AL, and GA.

1600 CDT: Hurricane Katrina Discussion Number 14 is issued: ``. . .THE 
MODELS HAVE SHIFTED SIGNIFICANTLY WESTWARD AND ARE NOW IN BETTER 
AGREEMENT. THIS HAS RESULTED IN THE OFFICIAL FORECAST TRACK BEING 
SHIFTED ABOUT 150 NMI WEST OF THE PREVIOUS TRACK. . .HOWEVER. . 
.PROJECTED LANDFALL IS STILL ABOUT 72 HOURS AWAY. . .SO FURTHER 
MODIFICATIONS IN THE FORECAST TRACK ARE POSSIBLE. KATRINA IS EXPECTED 
TO BE MOVING OVER THE GULF LOOP CURRENT AFTER 36 HOURS. . .WHICH WHEN 
COMBINED WITH DECREASING VERTICAL SHEAR. . .SHOULD ALLOW THE HURRICANE 
TO REACH CATEGORY FOUR STATUS BEFORE LANDFALL OCCURS.''

1615 CDT: Hurricane Liaison Team Coordination Audio Conference with FL.

2200 CDT: Hurricane Katrina Discussion Number 15 is issued: ``THE 
OFFICIAL FORECAST BRINGS THE CORE OF THE INTENSE HURRICANE OVER THE 
NORTH CENTRAL GULF OF MEXICO IN 48 HOURS OR SO. IT IS WORTH NOTING THAT 
THE GUIDANCE SPREAD HAS DECREASED AND MOST OF THE RELIABLE NUMERICAL 
MODEL TRACKS ARE NOW CLUSTERED BETWEEN THE EASTERN COAST OF LOUISIANA 
AND THE COAST OF MISSISSIPPI. THIS CLUSTERING INCREASES THE CONFIDENCE 
IN THE FORECAST.''

SATURDAY, AUGUST 27, 2005
0400 CDT: Katrina is elevated to a Category 3 Hurricane. Hurricane 
Katrina Advisory Number 16 is issued: ``KATRINA BECOMES A MAJOR 
HURRICANE WITH 115 MPH WINDS. . .SOME STRENGTHENING IS FORECAST DURING 
THE NEXT 24 HOURS. . .RECONNAISSANCE AIRCRAFT DATA AND SURFACE 
OBSERVATIONS INDICATE THAT KATRINA HAS BECOME A LARGER HURRICANE. . .'' 
Hurricane Katrina Discussion Number 16 is issued: ``DUE TO THE 
DECREASING SPREAD IN THE MODELS. . .THE CONFIDENCE IN THE FORECAST 
TRACK IS INCREASING.''

1000 CDT: Hurricane Katrina Advisory Number 17 is issued: ``A HURRICANE 
WATCH IS IN EFFECT FOR THE SOUTHEASTERN COAST OF LOUISIANA EAST OF 
MORGAN CITY TO THE MOUTH OF THE PEARL RIVER. . .INCLUDING METROPOLITAN 
NEW ORLEANS AND LAKE PONCHARTRAIN. . .A HURRICANE WATCH WILL LIKELY BE 
REQUIRED FOR OTHER PORTIONS OF THE NORTHERN GULF LATER TODAY OR 
TONIGHT. INTERESTS IN THIS AREA SHOULD MONITOR THE PROGRESS OF KATRINA. 
. .SOME STRENGTHENING IS FORECAST DURING THE NEXT 24 HOURS. . .AND 
KATRINA COULD BECOME A CATEGORY FOUR HURRICANE. . .'' Hurricane Katrina 
Discussion Number 17 is issued: ``. . .IT IS NOT OUT OF THE QUESTION 
THAT KATRINA COULD REACH CATEGORY 5 STATUS AT SOME POINT BEFORE 
LANDFALL. . .''

1015 CDT: Hurricane Liaison Team Coordination Audio Conference with FL.

1100 CDT: Hurricane Liaison Team Coordination Video Conference with 
FEMA HQ, Region IV and VI, FL, LA, MS, AL, and GA.

1600 CDT: Hurricane Katrina Advisory Number 18 is issued: ``THE 
HURRICANE WATCH IS EXTENDED WESTWARD TO INTRACOASTAL CITY LOUISIANA AND 
EASTWARD TO THE FLORIDA-ALABAMA BORDER. A HURRICANE WATCH IS NOW IN 
EFFECT ALONG THE NORTHERN GULF COAST FROM INTRACOASTAL CITY TO THE 
ALABAMA-FLORIDA BORDER. A HURRICANE WARNING WILL LIKELY BE REQUIRED FOR 
PORTIONS OF THE NORTHERN GULF COAST LATER TONIGHT OR SUNDAY. INTERESTS 
IN THIS AREA SHOULD MONITOR THE PROGRESS OF KATRINA.'' Hurricane 
Katrina Discussion Number 18 is issued: ``THE INTENSITY FORECAST WILL 
CALL FOR STRENGTHENING TO 125 KT AT LANDFALL. . .AND THERE REMAINS A 
CHANCE THAT KATRINA COULD BECOME A CATEGORY FIVE HURRICANE BEFORE 
LANDFALL.''

1615 CDT: Hurricane Liaison Team Coordination Audio Conference with FL.

1925 CDT: Louisiana Gubernatorial Briefing: Max Mayfield, Director of 
NOAA's Tropical Predication Center/National Hurricane Center provides a 
briefing to Kathleen Babineau Blanco.

1935 CDT: Max Mayfield, Director of NOAA's Tropical Predication Center/
National Hurricane Center provides a briefing to Bill Filter, Chief of 
Operations, Alabama Emergency Management Agency.

1945 CDT: Mississippi Gubernatorial Briefing: Max Mayfield, Director of 
NOAA's Tropical Predication Center/National Hurricane Center provides a 
briefing to Haley Barbour.

2000 CDT: New Orleans Mayoral Briefing: Max Mayfield, Director of 
NOAA's Tropical Predication Center/National Hurricane Center provides a 
briefing to Ray Nagin.

2200 CDT: Hurricane Katrina Advisory Number 19 is issued: ``. . 
.DANGEROUS HURRICANE KATRINA THREATENS THE NORTH CENTRAL GULF COAST. . 
.A HURRICANE WARNING ISSUED. . .AT 10 PM CDT. . .0300Z. . .A HURRICANE 
WARNING HAS BEEN ISSUED FOR THE NORTH CENTRAL GULF COAST FROM MORGAN 
CITY LOUISIANA EASTWARD TO THE ALABAMA/FLORIDA BORDER. . .INCLUDING THE 
CITY OF NEW ORLEANS AND LAKE PONCHARTRAIN. . .PREPARATIONS TO PROTECT 
LIFE AND PROPERTY SHOULD BE RUSHED TO COMPLETION. . .COASTAL STORM 
SURGE FLOODING OF 15 TO 20 FEET ABOVE NORMAL TIDE LEVELS. . .LOCALLY AS 
HIGH AS 25 FEET ALONG WITH LARGE AND DANGEROUS BATTERING WAVES. . .CAN 
BE EXPECTED NEAR AND TO THE EAST OF WHERE THE CENTER MAKES LANDFALL. . 
.HEAVY RAINS FROM KATRINA SHOULD BEGIN TO AFFECT THE CENTRAL GULF COAST 
SUNDAY EVENING. RAINFALL TOTALS OF FIVE TO 10 INCHES. . .WITH ISOLATED 
MAXIMUM AMOUNTS OF 15 INCHES. . .ARE POSSIBLE ALONG THE PATH OF 
KATRINA.'' Hurricane Katrina Discussion Number 19 is issued: ``. . 
.DESPITE THESE CHANGES IN THE INNER CORE. . .THE BOTTOM LINE IS THAT 
KATRINA IS EXPECTED TO BE AN INTENSE AND DANGEROUS HURRICANE HEADING 
TOWARD THE NORTH CENTRAL GULF COAST. . .AND THIS HAS TO BE TAKEN VERY 
SERIOUSLY.''

1500-2230 CDT: Media pool operated; TPC/NHC provided 12 television and 
two radio interviews. In addition, TPC/NHC participated in 51 telephone 
briefings or media contacts on August 27th.

SUNDAY, AUGUST 28, 2005
0040 CDT: Katrina is elevated to a Category 4 Hurricane.

0100 CDT: Hurricane Katrina Special Advisory Number 20 is issued: ``. . 
.KATRINA STRENGTHENS TO CATEGORY FOUR WITH 145 MPH WINDS. . .''

0400 CDT: Hurricane Katrina Discussion Number 21 is issued: ``THE 
SPREAD IN THE MODEL TRACKS ALONG THE NORTHERN GULF COAST IS AT MOST 90 
MILES. . .SO CONFIDENCE IN THE OFFICIAL FORECAST IS RELATIVELY HIGH.''

0615 CDT: Katrina is elevated to a Category 5 Hurricane.

0700 CDT: Hurricane Katrina Advisory Number 22 is issued: ``. . 
.KATRINA. . .NOW A POTENTIALLY CATASTROPHIC CATEGORY FIVE HURRICANE. . 
.HEADED FOR THE NORTHERN GULF COAST. . .MAXIMUM SUSTAINED WINDS ARE 
NEAR 160 MPH. . .WITH HIGHER GUSTS. KATRINA IS A POTENTIALLY 
CATASTROPHIC CATEGORY FIVE HURRICANE ON THE SAFFIR-SIMPSON SCALE. SOME 
FLUCTUATIONS IN STRENGTH ARE LIKELY IN THE NEXT 24 HOURS.''

1000 CDT: Hurricane Katrina Advisory Number 23 is issued: ``. . 
.POTENTIALLY CATASTRPHIC HURRICANE KATRINA. . .EVEN STRONGER. . .HEADED 
FOR THE NORTHERN GULF COAST. . .REPORTS FROM AN AIR FORCE HURRICANE 
HUNTER AIRCRAFT INDICATE THAT THE MAXIMUM SUSTAINED WINDS HAVE 
INCREASED TO NEAR 175 MPH. . .WITH HIGHER WIND GUSTS. . .HURRICANE 
FORCE WINDS EXTEND OUTWARD UP TO 105 MILES FROM THE CENTER AND TROPICAL 
STORM FORCE WINDS EXTEND OUTWARDS UP TO 205 MILES. . .COASTAL STORM 
SURGE FLOODING OF 18 TO 22 FEET ABOVE NORMAL TIDE LEVELS. . .LOCALLY AS 
HIGH AS 28 FEET ALONG WITH LARGE AND DANGEROUS BATTERING WAVES. . .CAN 
BE EXPECTED NEAR AND TO THE EAST OF WHERE THE CENTER MAKES LANDFALL. 
Hurricane Katrina Discussion Number 23 is issued: ``. . .HURRICANE 
FORCE WINDS ARE FORECAST TO SPREAD AT LEAST 150 N MI INLAND ALONG PATH 
OF KATRINA. CONSULT INLAND WARNINGS ISSUED BY THE NATIONAL WEATHER 
SERVICE FORCAST OFFICES. . .''

1015 CDT: Hurricane Liaison Team Coordination Audio Conference with FL.

1100 CDT: Hurricane Liaison Team Coordination Video Conference with 
FEMA HQ, Region IV and VI, FL, LA, MS, AL, GA, TX.

1300 CDT: Hurricane Katrina Advisory Number 23A is issued: 
``SIGNIFICANT STORM SURGE FLOODING WILL OCCUR ELSEWHERE ALONG THE 
CENTRAL AND NORTHEASTERN GULF OF MEXICO COAST.''

1600 CDT: Hurricane Katrina Advisory Number 24 is issued: ``KATRINA IS 
MOVING TOWARD THE NORTHWEST NEAR 13 MPH. . .AND A GRADUAL TURN TO THE 
NORTH IS EXPECTED OVER THE NEXT 24 HOURS. ON THIS TRACK THE CENTER OF 
THE HURRICANE WILL BE NEAR THE NORTHERN GULF COAST EARLY MONDAY. 
HOWEVER. . .CONDITIONS ARE ALREADY BEGINNING TO DETERIORATE ALONG 
PORTIONS OF THE CENTRAL AND NORTHEASTERN GULF COASTS. . .AND WILL 
CONTINUE TO WORSEN THROUGH THE NIGHT. . .KATRINA IS A POTENTIALLY 
CATASTROPHIC CATEGORY FIVE HURRICANE ON THE SAFFIR-SIMPSON SCALE. SOME 
FLUCTUATIONS IN STRENGTH ARE LIKELY UNTIL LANDFALL. KATRINA IS EXPECTED 
TO MAKE LANDFALL AT CATEGORY FOUR OR FIVE INTENSITY. WINDS AFFECTING 
THE UPPER FLOORS OF HIGH-RISE BUILDINGS WILL BE SIGNIFICANTLY STRONGER 
THAN THOSE NEAR GROUND LEVEL. . .SOME LEVEES IN THE GREATER NEW ORLEANS 
AREA COULD BE OVERTOPPED.''

1615 CDT: Hurricane Liaison Team Coordination Audio Conference with FL.

2200 CDT: Hurricane Katrina Advisory Number 25 is issued: ``A HURRICANE 
WARNING IS IN EFFECT FOR THE NORTH CENTRAL GULF COAST FROM MORGAN CITY 
LOUISIANA EASTWARD TO THE ALABAMA/FLORIDA BORDER. . .INCLUDING THE CITY 
OF NEW ORLEANS AND LAKE PONCHARTRAIN. PREPARATIONS TO PROTECT LIFE AND 
PROPERTY SHOULD BE RUSHED TO COMPLETION.''

MONDAY, AUGUST 29, 2005
0200 CDT: Hurricane Katrina is downgraded to a Category 4.

0400 CDT: Hurricane Katrina Advisory Number 26 is issued: ``EXTREMELY 
DANGEROUS CATEGORY FOUR HURRICANE KATRINA MOVING NORTHWARD TOWARD 
SOUTHEASTERN LOUISIANA AND THE NORTHERN GULF COAST. . .SOME 
FLUCTUATIONS IN STRENGTH ARE LIKELY PRIOR TO LANDFALL. . .BUT KATRINA 
IS EXPECTED TO MAKE LANDFALL AS A CATEGORY FOUR HURRICANE.''

0600 CDT: Hurricane Katrina Advisory Number 26A is issued: ``KATRINA 
REMAINS A VERY LARGE HURRICANE. HURRICANE FORCE WINDS EXTEND OUTWARD UP 
TO 120 MILES FROM THE CENTER. . .AND TROPICAL STORM FORCE WINDS EXTEND 
OUTWARD UP TO 230 MILES.''

0610 CDT: Hurricane Katrina makes landfall in southeastern Louisiana as 
a Category 4 hurricane.

0800 CDT: Hurricane Katrina Advisory Number 26B is issued: ``. . .THE 
CENTER OF HURRICANE KATRINA WAS LOCATED...ABOUT 40 MILES SOUTHEAST OF 
NEW ORLEANS LOUISIANA AND ABOUT 65 MILES SOUTHWEST OF BILOXI 
MISSISSIPPI. . .MAXIMUM SUSTAINED WINDS ARE NEAR 135 MPH. . .WITH 
HIGHER GUSTS. KATRINA IS AN EXTREMELY DANGEROUS CATEGORY FOUR HURRICANE 
ON THE SAFFIR-SIMPSON SCALE. WEAKENING IS FORECAST AS THE CIRCULATION 
INTERACTS WITH LAND TODAY. . .COASTAL STORM SURGE FLOODING OF 18 TO 22 
FEET ABOVE NORMAL TIDE LEVELS. . .ALONG WITH LARGE AND DANGEROUS 
BATTERING WAVES. . .CAN BE EXPECTED NEAR AND TO THE EAST OF THE CENTER. 
STORM SURGE FLOODING OF 10 TO 15 FEET. . .NEAR THE TOPS OF LEVEES. . 
.IS POSSIBLE IN THE GREATER NEW ORLEANS AREA. SIGNIFICANT STORM SURGE 
FLOODING WILL OCCUR ELSEWHERE ALONG THE CENTRAL AND NORTHEASTERN GULF 
OF MEXICO COAST.''

1000 CDT: Hurricane Katrina makes a second landfall at the LA/MS border 
as a Category 3 hurricane.

1015 CDT: Hurricane Liaison Team Coordination Audio Conference with FL.

1100 CDT: Hurricane Liaison Team Coordination Video Conference with 
FEMA HQ, Region IV and VI, LA, MS, AL, FL, TX.

1615 CDT: Hurricane Liaison Team Coordination Audio Conference with FL.

TUESDAY, AUGUST 30, 2005
1000 CDT: Katrina is downgraded to a tropical depression with winds of 
35 mph, 25 miles south of Clarksville, TN. The final TPC/NHC advisory 
is issued at this time; the Hydrometeorological Prediction Center 
assumes inland public advisories.

WEDNESDAY, AUGUST 31, 2005
2200 CDT: Hurricane Katrina has dissipated; remnants absorbed by a 
front in southeast Canada.

NOTES:

        <bullet>  Timeline highlights the major aspects of NOAA's 
        Tropical Prediction Center/National Hurricane Center (TPC/NHC). 
        All advisories (graphic and text) are available on the Katrina 
        archive page: http://www/nhc.noaa.gov/archive/2005/KATRINA/
        shtml?

        <bullet>  Storm surge is a consistent concern and associated 
        threat with any land-falling hurricane, especially a major 
        hurricane.

        <bullet>  Hurricane Liaison Team Coordination calls included 
        the State emergency management officials for the states listed; 
        calls with the State of Florida included both local and State 
        emergency management officials.

        <bullet>  For Katrina (including for Florida) NOAA's Tropical 
        Predication Center/National Hurricane Center provided a total 
        of 471 television and radio interviews, through their media 
        pool or via telephone.

                     Biography for David L. Johnson

    David L. Johnson serves as the Assistant Administrator, National 
Oceanic and Atmospheric Administration (NOAA) for Weather Services 
(National Weather Service). Johnson heads the Nation's weather service 
and is responsible for the day-to-day management of NOAA's domestic 
weather and hydrology operations.
    Prior to joining NOAA, Johnson served as the U.S. Air Force 
director of weather. He retired from the Air Force as a brigadier 
general, after a 30-year military career. As Director of Weather, he 
was one of ten directors at the Headquarters Air Force, Air and Space 
Operations, and was responsible for developing doctrine, policy, 
requirements and operational organizations to support Air Force and 
Army operations worldwide. He also served as one of NOAA's military 
deputies.
    Notably, he organized, trained and equipped forces for the war in 
Afghanistan and the war in Iraq, and managed a steady flow of accurate 
and focused environmental information to battlefield commanders. He was 
a key advisor in the development of the National Polar-orbiting 
Environmental Operational Satellite System (NPOESS).
    Johnson's career is marked by his strong management and fiscal 
capabilities. During his time as Director of Weather, he led a massive 
re-engineering effort that revised the organizational structure, 
training and operations of the 4,000-person career field. Under 
Johnson's steady hand, retention of weather-career airmen and officers 
grew to 97 percent, up from 74 percent previously.
    Johnson guided the planning, programming and budgeting process 
implementation at the highest levels in the Air Force and in the 
Department of Defense. He has a world-wide perspective, having served 
in leadership positions on the Joint Staff with planning portfolios in 
Europe/NATO and Asia/Pacific. He secured funding for a new facility for 
the Air Force Weather Agency to house collection, analysis, modeling 
and career-field supervision functions.
    Prior to his service as the Director of Weather, Johnson flew 
fighter, transport and special operations aircraft. He has over 3,800 
flying hours including 78 combat sorties. Johnson commanded airdrop and 
air/land operations in Bosnia-Herzegovina and was deputy commander of 
the Joint Task Force for Operation Support Hope in Rwanda. He was 
selected for early promotion three times.
    Johnson is an honor graduate from the University of Kansas with a 
degree in geography, and earned his Master's degree in human relations 
from Webster's University. He is a graduate of the National War 
College, Maxwell School of Citizenship and Public Affairs at Syracuse 
University, and from the Paul Nitze School of Advanced International 
Studies at Johns Hopkins University.

    Chairman Boehlert. Thank you very much, General.
    Mr. Mayfield.

    STATEMENT OF MR. MAX MAYFIELD, DIRECTOR, NOAA TROPICAL 
          PREDICTION CENTER/NATIONAL HURRICANE CENTER

    Mr. Mayfield. Mr. Chairman and Members of the Committee, I 
am Max Mayfield, the Director of the Tropical Prediction Center 
and National Hurricane Center which is a part of the National 
Weather Service at NOAA. Thank you for inviting me here today 
to discuss NOAA's National Weather Service role in forecasting 
and warning the public about hurricanes.
    The catastrophic devastation along the Gulf Coast from 
Hurricane Katrina is like nothing I have ever witnessed. Words 
cannot convey the physical destruction and the personal 
suffering in that part of our nation. However, without NOAA's 
National Weather Services forecasts and warnings, the loss of 
life could have been far greater.
    Hurricane Katrina began as a tropical depression near the 
Southeast Bahamas on Tuesday, August 23rd. The National 
Hurricane Center's tropical cyclone forecasts were routinely 
issued every six hours with intermediate updates as necessary 
and included text and graphical products. The National 
Hurricane Center accurately predicted Katrina would become a 
Category 1 hurricane before making landfall near Miami.
    Chairman Boehlert. Sorry for the interruption.
    Mr. Mayfield. That is okay.
    Chairman Boehlert. We are just getting these buzzers now. 
You conclude your opening statement and then we will have to 
take a recess and go to the Floor and vote and we will be back 
shortly thereafter.
    Mr. Mayfield. Thank you.
    Once Katrina emerged into the Gulf of Mexico, the National 
Hurricane Center forecast correctly predicted a re-
intensification of the storm. Within nine hours, Katrina 
intensified from a tropical storm to a Category 2 hurricane. It 
later reached Category 5 status. Our forecast track from 
Saturday morning, August the 27th, about two days before 
landfall, had the storm curving northward and heading directly 
towards Southeast Louisiana and Mississippi. And the prediction 
was for Katrina to make landfall as a Category 4 hurricane. The 
actual track would deviate little from this and subsequent 
forecasts for the rest of Katrina's approach.
    The intensity forecast would also prove to be very good. At 
10:00 a.m. central daylight time, Saturday, August 27th, the 
National Hurricane Center posted a hurricane watch for 
Southeast Louisiana, including the City of New Orleans. We 
issued additional watches and warnings for Louisiana to the 
Florida panhandle soon thereafter. After reaching Southeast 
Louisiana, Katrina made final landfall along the Louisiana/
Mississippi border on Monday morning as a Category 3 hurricane.
    I should also briefly mention the tracking forecasting on 
Hurricane Rita. Rita began as a tropical depression on 
Saturday, September 17th over the Atlantic east of the Turks 
and Caicos Islands. The National Hurricane Center accurately 
predicted the center of the storm to pass just south of the 
Florida Keys as a hurricane on September 20 and predicted it to 
become a major hurricane as it moved over the warm waters of 
the Gulf of Mexico. Later, Rita, just like Katrina, 
strengthened to Category 5 status. On Thursday, approximately 
two days before landfall, the forecast track was shifted 
eastward to just west of the Louisiana/Texas border. Rita's 
actual track would deviate little from this and subsequent 
projections. The National Hurricane Center accurately predicted 
Rita would weaken before landfall but still come ashore as a 
Category 3 hurricane.
    It is critical that we effectively communicate our forecast 
information to everyone. The Hurricane Liaison Team is a 
partnership between the National Weather Service and FEMA. The 
team is a cadre of federal, State, and local emergency managers 
and National Weather Service meteorologists and hydrologists. 
As tropical systems threaten the United States, the HLT deploys 
at the request of the National Hurricane Center to assist in 
coordination efforts. The team's mission is to support 
hurricane response operations through the rapid exchange of 
critical information between the National Hurricane Center and 
emergency managers at all levels. Once activated, FEMA hosts 
and facilitates audio and national video conference calls. On 
these calls, FEMA advises State and local emergency managers in 
the potential impact area to participate.
    The National Hurricane Center is an invited participant and 
opens each call providing an updated forecast. The Hurricane 
Liaison Team provides an excellent way to communicate with the 
large number of emergency managers potentially impacted by an 
approaching hurricane. After consulting with our local weather 
service offices and the National Hurricane Center, emergency 
managers make evacuation and other preparedness decisions.
    The media is also an essential partner and helps us get the 
information widely distributed to the public. The media 
provided an invaluable service to the people of the impacted 
Gulf Coast by communicating National Hurricane Center forecasts 
and warning information about Hurricanes Katrina and Rita. In 
addition, National Weather Service web activity as supported by 
NOAA's premiering project registered over 2.3 billion hits 
during Katrina and 2.9 billion hits during Rita.
    Today is October 7, hopefully on the downside of this 
year's hurricane season. To date, we have had 19 tropical 
storms, 10 of which have become hurricanes and five of those 
have been major hurricanes of a Category 3 or stronger. This 
season has already been one of the most active on record and we 
still have another seven weeks to go. We believe the heightened 
period of hurricane activity that we are in will continue due 
to multi-decadal variations, because tropical cyclone activity 
in Atlantic is cyclical and tied to fluctuations in sea surface 
temperatures. For example, the 1940's through the '60s 
experienced an above average number of major hurricanes while 
the '70s into the mid-'90s averaged fewer hurricanes. The 
current threat of heightened activity could last another 10 to 
20 years. These natural cycles are quite large in amplitude 
with an average of three to four major hurricanes per year in 
active periods and only one to two major hurricanes annually 
during the quiet periods with each period lasting 25 to 40 
years.
    While we must focus our energy on addressing the impacts of 
Hurricane Katrina, we also need to look at the future. Katrina 
will not be the last major hurricane to hit a vulnerable area. 
And New Orleans is not the only location at risk to a large 
disaster from a hurricane. Galveston/Houston, Tampa Bay, 
southwestern Florida, the Florida Keys, southeastern Florida, 
New York City and Long Island, and believe it or not, New 
England are especially vulnerable. And of course, New Orleans 
will be hit again by a hurricane some day.
    At NOAA, we will continue our efforts to improve our 
hurricane track, intensity, precipitation and storm surge 
forecasting and work with our partners to ensure the best 
possible outcome during future hurricane events.
    With that, I will be glad to answer any questions from the 
Members of the Committee.
    [The prepared statement of Mr. Mayfield follows:]

                   Prepared Statement of Max Mayfield

    Mr. Chairman and Members of the Committee, I am Max Mayfield, 
Director of the Tropical Prediction Center/National Hurricane Center. 
The National Hurricane Center is a part of the National Weather Service 
(NWS), of the National Oceanic and Atmospheric Administration (NOAA) in 
the Department of Commerce. Thank you for inviting me here today to 
discuss NOAA's role in forecasting, and warning the public about 
hurricanes, as well as NOAA's essential role and activities following 
landfall.
    The devastation along the Gulf Coast from Hurricane Katrina is like 
nothing I have witnessed before. It is catastrophic. Words cannot 
convey the physical destruction and personal suffering in that part of 
our nation. However, without NOAA's forecasts and warnings, the 
devastation and loss of life would have been far greater.
    NOAA's forecasts and warnings for Hurricane Katrina pushed the 
limits of the state-of-the-art of hurricane prediction. Our continuous 
research efforts at NOAA, and in partnership with other federal 
agencies, have led to our current predictive capabilities and improved 
ways of describing uncertainty in prediction. But NOAA's work does not 
end there. NOAA does extensive work assessing damage from storms and 
evaluating waterways to assist dredging operations, to open our 
nation's ports and waterways impacted by the storm. NOAA also assesses 
the impact to the areas' fisheries, supports hazardous materials 
containment and abatement efforts, and provides necessary data critical 
for post storm recovery operations.

Tracking and Forecasting Hurricane Katrina

    The National Hurricane Center (NHC) within the NWS has been the 
centerpiece of our nation's hurricane forecast and warning program for 
50 years. The mission of the NHC is to save lives, mitigate property 
loss, and improve economic efficiency by issuing the best watches, 
warnings, and forecasts of hazardous tropical weather, and by 
increasing the public's understanding of these hazards.
    NHC tropical cyclone forecasts are issued every six hours and 
include text messages as well as a suite of graphical products 
depicting our forecasts and the accompanying probabilities and ``cone 
of uncertainty,'' as it has become known. Hurricane Katrina began as a 
tropical depression near the southeastern Bahamas on Tuesday, August 
23. The National Hurricane Center accurately predicted it would become 
a Category 1 hurricane before making landfall near Miami. The storm 
deluged southeast Florida with 16 inches of rain in some places, 
causing downed trees, flooding, and extended power outages as it passed 
across the southern portion of the state.
    Once Katrina re-emerged into the Gulf of Mexico, NOAA hurricane 
forecasters correctly predicted re-intensification of the storm. 
Katrina intensified more quickly and became stronger than initially 
predicted. Within nine hours, Katrina intensified from a tropical 
storm, with winds of 70 miles per hour, to a Category 2 storm with 100 
mile per hour winds.
    As you can see in the graphic below, our forecast track from 
Saturday morning, August 27, about two days before landfall, had the 
storm curving northward and headed directly toward southeastern 
Louisiana and Mississippi. The projected path of Katrina aimed directly 
at southeast Louisiana, and the prediction was for Katrina to make 
landfall as a Category 4 hurricane. The actual track would deviate 
little from this and subsequent forecasts for the rest of Katrina's 
approach. On average, NOAA forecasts of where Katrina would go were 
more accurate than usual, with all of the forecast tracks during the 
last 48 hours lining up almost directly on top of the actual track. 
This forecast beats the Government Performance and Results Act goal 
established for NOAA hurricane forecasts this year.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    At 10:00 am Central Daylight Time (CDT) Saturday morning, August 
27, the National Hurricane Center posted a hurricane watch for 
southeast Louisiana, including the city of New Orleans. The watch 
extended eastward to Mississippi and Alabama that afternoon. A 
hurricane watch means hurricane conditions are possible in the 
specified area, usually within 36 hours. Messages from the National 
Hurricane Center highlighted the potential for this storm to make 
landfall as a Category 4 or Category 5 storm.
    Predicting hurricane intensity remains a challenge. Even though we 
knew conditions were favorable for the storm to intensify, there was 
some error in the intensity forecast for the eastern Gulf due to its 
rapid intensification. While we accurately predicted the intensity at 
landfall, there is still more work to be done in improving intensity 
prediction, especially for rapidly intensifying or rapidly weakening 
storms.

Storm Surge

    Storm surge has caused most of this country's tropical cyclone 
fatalities, all too vividly evident in the past two weeks, and still 
represents our greatest risk for a large loss of life in this country. 
Following Hurricane Camille in 1969, NOAA established a group that 
developed and implemented a storm surge model called SLOSH (Sea, Lake, 
and Overland Surges from Hurricanes). The SLOSH model calculates storm 
surge heights resulting either from historical, hypothetical or actual 
hurricanes. SLOSH incorporates bathymetry and topography, including bay 
and river configurations, roads, levees, and other physical features 
that can modify the storm surge flow pattern. Comprehensive evacuation 
studies, conducted jointly by the Federal Emergency Management Agency 
(FEMA), the U.S. Army Corps of Engineers, NOAA, and State and local 
emergency managers, are based on the simulated surges computed by 
SLOSH.
    The National Hurricane Center introduced storm surge forecasts for 
the Gulf Coast in public advisories at 10:00 am CDT Saturday--32 hours 
prior to Katrina's landfall in Louisiana. The initial forecast (10:00 
am CDT, Saturday, August 28) for storm surge was predicted at 15 to 20 
feet, locally as high as 25 feet, and that forecast was updated the 
following morning to a range of 18 to 22 feet, locally as high as 28 
feet, when the forecast intensity for landfall was increased. ``Large 
and battering'' waves were forecast on top of the surge. In addition, 
the 4:00 pm CDT public advisory issued by the National Hurricane Center 
on Sunday, August 28, stated that some levees in the greater New 
Orleans area could be overtopped. Actual storm surge values are being 
determined at this time.
    I know there have been recent news reports that I notified FEMA 
that the New Orleans' levees would be breached. In fact, I did not say 
that. What I indicated in my briefings to emergency managers and to the 
media was the possibility that some levees in the greater New Orleans 
area could be overtopped, depending on the details of Katrina's track 
and intensity. This possibility was also indicated in our advisory 
products.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Communicating Our Forecasts

    The FEMA/NWS Hurricane Liaison Team (HLT), which is activated at 
NHC a few days in advance of any potential U.S. hurricane landfall, 
coordinates communications between NOAA and the emergency management 
community at the federal and State levels. The HLT was established in 
1996. After consulting with our local weather service offices and the 
National Hurricane Center, emergency managers make evacuation and other 
preparedness decisions. The HLT provides an excellent way to 
communicate with the large number of emergency managers typically 
impacted by a potential hurricane. This is a critical effort to ensure 
emergency managers and first responders know what to expect.
    The media is our most essential partner and helps us get the 
information to the public. Without the media, it would be very 
difficult to get the information as widely distributed. The media 
provided an invaluable service to the people of the impacted Gulf Coast 
by communicating National Hurricane Center forecast and warning 
information about Hurricane Katrina. From Thursday, August 25, through 
Katrina's landfall in Mississippi on Monday, August 29, NOAA's Tropical 
Prediction Center/National Hurricane Center provided a total of 471 
television and radio interviews, through their media pool or via 
telephone.
    On Saturday evening, August 27, I personally called the Chief of 
Operations at the Alabama Emergency Management Agency, as well as the 
Governors of Louisiana and Mississippi and the Mayor of New Orleans, to 
communicate the potential meteorological and storm surge impacts from 
Hurricane Katrina. In addition, the National Hurricane Center web 
activity, as supported by NOAA's web-mirroring project, registered 900 
million hits during Katrina.

NOAA Support Efforts

    NOAA is focused on improving the forecasting of hurricane 
frequency, track, and intensity as well as predicting hurricane impacts 
on life and property. Using a combination of atmospheric and ocean 
observations from satellites, aircraft, and all available surface data 
over the oceans, NOAA conducts experiments to better understand 
internal storm dynamics and interactions between a hurricane and the 
surrounding atmosphere and ocean. Through greater understanding of 
physical processes and advanced hurricane modeling, NOAA continually 
improves models for predicting hurricane intensity and track, in 
collaboration with federal partners, academic researchers, and 
commercial enterprises. These numerical modeling improvements, once 
demonstrated, are transitioned into operations at the National 
Hurricane Center.
    NOAA Aircraft, the W-P3 Orions and the Gulf Stream IV, provided 
essential observations critical to the National Hurricane Center 
forecasters and supplement U.S. Air Force Reserve Command's 53rd 
Weather Reconnaissance Squadron flights. A specialized instrument flown 
on one of the W-P3s, the Stepped Frequency Microwave Radiometer (SFMR), 
provided essential hurricane structure, surface wind and rain rate data 
to hurricane forecasters right up to and following landfall in 
Louisiana and Mississippi. The Military Construction Appropriations and 
Emergency Hurricane Supplemental Appropriations Act, 2005 (P.L. 108-
324) provided $10.5M to the Air Force to outfit the complete fleet of 
Hurricane Hunters with this instrument, the first of these additional 
units should be available during the 2006 Hurricane Season.
    The Military Construction Appropriations and Emergency Hurricane 
Supplemental Appropriations Act, 2005 also provided funding to NOAA for 
seven hurricane buoys, which NOAA deployed this past year in the 
Caribbean, the Gulf of Mexico, and the Atlantic. Those new buoys 
provided us with critical information during this active hurricane 
season.

NOAA's Activities After Hurricane Katrina's Landfall

    Immediately following Hurricane Katrina's second landfall, several 
NOAA ships and aircraft were tasked with assisting in the hurricane 
response. Our aircraft flew damage assessment flights using a 
sophisticated digital camera to collect imagery to assess damage. Over 
5,000 high-resolution images collected by NOAA aircraft are assisting 
emergency managers and other agencies in recovery operations and long-
term restoration and rebuilding decisions.
    It is also NOAA's responsibility to assess the damage to the 
commercial fishing industry in that section of the Gulf of Mexico. We 
are working closely with each of the impacted State resource agencies 
and commercial entities to assess the storm's impacts to the longer-
term social and economic viability of local fishing communities. NOAA 
employees also are assisting recovery efforts by working with other 
federal agencies in planning, organizing, and conducting oil spill and 
hazardous material response and restoration in the impacted areas of 
the Gulf.
    NOAA ships are tasked with surveying critical ports and waterways 
for depths, wrecks and obstructions for navigational safety. NOAA 
Navigation Response Teams were on scene before the hurricane hit to 
survey for hazards and help the U.S. Coast Guard and the Army Corps of 
Engineers re-open waterways to commercial and emergency traffic. The 
THOMAS JEFFERSON, a highly specialized hydrographic survey ship 
equipped with multi-beam and side scan sonar and two 28-foot launches 
for near shore and mid-water surveys will be surveying the entrances to 
Pascagoula and Gulfport, Mississippi. Another NOAA ship, the NANCY 
FOSTER, is outfitted with survey technology and is presently conducting 
wreck and obstruction surveys in Mobile Bay, Alabama. The efforts of 
these NOAA ships are critical to rebuilding the Gulf's economic 
infrastructure by enabling vessels of all sizes to pass safely through 
these waterways thereby allowing emergency materials, oil, and 
commercial goods to make it to their destinations. Other NOAA ships and 
aircraft are assisting directly with the recovery effort by providing 
fuel, communications, and supplies to NOAA facilities as well as 
temporary office space for local emergency responders.

Outlook for the Future

    Today is September 21, near the historical peak of the hurricane 
season. To date we have had fifteen tropical storms, seven of which 
have become hurricanes, four of those have been major hurricanes at 
Category 3 or stronger. We believe we will continue to have an active 
season, with a total of l8-21 tropical storms. We believe this 
heightened period of hurricane activity will continue due to multi-
decadal variance, as tropical cyclone activity in the Atlantic is 
cyclical. The 1940's through the 1960's experienced an above average 
number of major hurricanes, while the 1970's into the mid-1990's 
averaged fewer hurricanes. The current period of heightened activity 
could last another 10-20 years. The increased activity since 1995 is 
due to natural fluctuations/cycles of hurricane activity, driven by the 
Atlantic Ocean itself along with the atmosphere above it and not 
enhanced substantially by global warming. The natural cycles are quite 
large with on average 3-4 major hurricanes a year in active periods and 
only about 1-2 major hurricanes annually during quiet periods, with 
each period lasting 25-40 years.
    While we have made significant progress in hurricane forecasting 
and warnings, we believe we have more work to do. From a scientific 
standpoint, the gaps in our capabilities fall into two broad 
categories: first, our ability to assess the current state of a 
hurricane and its environment (analysis), and second, our ability to 
predict a hurricane's future state (the forecast). Finally, we would 
like to improve public preparedness.

Conclusion

    The government's ability to observe, predict, and respond quickly 
to storm events is critical to public safety. We must also now look 
ahead to post-storm redevelopment strategies for communities impacted 
by Katrina and future storms to help manage and anticipate these 
extreme events. NOAA has the expertise in coastal management and hazard 
mitigation, and is committed to working with out partners in reducing 
vulnerability to hurricanes and other coastal storm events. It is 
critical that we work to protect and restore natural features along the 
Gulf Coast, such as dunes, wetlands, and other vegetated areas that 
offer protection against coastal flooding and erosion.
    While we must focus our energy on addressing the impacts of 
Hurricane Katrina, we also need to look to the future. Katrina will not 
be the last major hurricane to hit a vulnerable area, and New Orleans 
is not the only location vulnerable to a large disaster from a land-
falling hurricane. Houston/Galveston, Tampa Bay, southwest Florida, 
Florida Keys, southeast Florida, New York City/Long Island, and believe 
it or not, New England, are all especially vulnerable. And New Orleans 
remains vulnerable to future hurricanes.
    At NOAA we will continue our efforts to improve hurricane track, 
intensity, and storm surge forecasting, as well as provide technical 
tools and planning expertise to states and local governments.
    With that, I'll be glad to answer any questions Members may have.

                     NOAA National Hurricane Center

Hurricane Katrina Forecast Timeline

TUESDAY, AUGUST 23, 2005
1600 CDT: Katrina forms as a Tropical Depression 12, near Nassau in the 
Bahamas. Tropical Depression 12 Advisory 1 issued: ``A TROPICAL STORM 
OR HURRICANE WATCH MAY BE REQUIRED FOR PORTIONS OF SOUTHERN FLORIDA 
LATER TONIGHT.''

WEDNESDAY, AUGUST 24, 2005
0400 CDT: The National Hurricane Center's five-day forecast puts the 
projected path of Katrina in the southeast Gulf of Mexico (as the 
system is still a tropical depression in the central Bahamas).

0700 CDT: Katrina is elevated to a Tropical Storm.

1000 CDT: Tropical Storm Katrina Advisory 4 is issued: ``. . .A 
TROPICAL STORM WARNING AND A HURRICANE WATCH HAVE BEEN ISSUED FOR THE 
SOUTHEAST FLORIDA COAST. . .''

THURSDAY, AUGUST 25, 2005
1430 CDT: Katrina is elevated to a Category 1 Hurricane.

1730 CDT: Katrina makes landfall in Florida as a Category 1 Hurricane.

WEDNESDAY/THURSDAY, AUGUST 24/25:
    Hurricane Liaison Team conference calls were conducted both days, 
and included Florida emergency managers, FEMA Headquarters (FEMA HQ), 
and Region IV.

FRIDAY, AUGUST 26, 2005
0200 CDT: Katrina entered the Gulf of Mexico as a Tropical Storm.

0400 CDT: Katrina is elevated to a Category 1 Hurricane.

1000 CDT: Hurricane Katrina Advisory Number 12 is issued: ``KATRINA IS 
A CATEGORY ONE HURRICANE ON THE SAFFIR-SIMPSON SCALE. SOME 
STRENGTHENING IS FORECAST DURING THE NEXT 24 HOURS. . .AND KATRINA 
COULD BECOME A CATEGORY TWO HURRICANE ON SATURDAY.''

1015 CDT: Hurricane Liaison Team Coordination Audio Conference with FL.

1030 CDT: Katrina is elevated to a Category 2 Hurricane. Hurricane 
Katrina Advisory Number 13 is issued: ``. . .KATRINA RAPIDLY 
STRENGTHENING AS IT MOVES SLOWLY WESTWARD AWAY FROM SOUTH FLORIDA AND 
THE FLORIDA KEYS. . .KATRINA IS MOVING TOWARD THE WEST NEAR 7 MPH. . 
.AND THIS MOTION IS EXPECTED TO CONTINUE FOR THE NEXT 24 HOURS. . 
.RECENT REPORTS FROM AN AIR FORCE RESERVE UNIT HURRICANE HUNTER 
AIRCRAFT NOW INDICATE MAXIMUM SUSTAINED WINDS ARE NEAR 100 MPH. . .WITH 
HIGHER GUSTS. KATRINA IS NOW A CATEGORY TWO HURRICANE ON THE SAFFIR-
SIMPSON SCALE. SOME STRENGTHENING IS FORECAST DURING THE NEXT 24 HOURS. 
. .AND KATRINA COULD BECOME A CATEGORY THREE OR MAJOR HURRICANE ON 
SATURDAY.''

1100 CDT: Hurricane Liaison Team Coordination Video Conference with 
FEMA HQ, Region IV, FL, AL, and GA.

1600 CDT: Hurricane Katrina Discussion Number 14 is issued: ``. . .THE 
MODELS HAVE SHIFTED SIGNIFICANTLY WESTWARD AND ARE NOW IN BETTER 
AGREEMENT. THIS HAS RESULTED IN THE OFFICIAL FORECAST TRACK BEING 
SHIFTED ABOUT 150 NMI WEST OF THE PREVIOUS TRACK. . .HOWEVER. . 
.PROJECTED LANDFALL IS STILL ABOUT 72 HOURS AWAY. . .SO FURTHER 
MODIFICATIONS IN THE FORECAST TRACK ARE POSSIBLE. KATRINA IS EXPECTED 
TO BE MOVING OVER THE GULF LOOP CURRENT AFTER 36 HOURS. . .WHICH WHEN 
COMBINED WITH DECREASING VERTICAL SHEAR. . .SHOULD ALLOW THE HURRICANE 
TO REACH CATEGORY FOUR STATUS BEFORE LANDFALL OCCURS.''

1615 CDT: Hurricane Liaison Team Coordination Audio Conference with FL.

2200 CDT: Hurricane Katrina Discussion Number 15 is issued: ``THE 
OFFICIAL FORECAST BRINGS THE CORE OF THE INTENSE HURRICANE OVER THE 
NORTH CENTRAL GULF OF MEXICO IN 48 HOURS OR SO. IT IS WORTH NOTING THAT 
THE GUIDANCE SPREAD HAS DECREASED AND MOST OF THE RELIABLE NUMERICAL 
MODEL TRACKS ARE NOW CLUSTERED BETWEEN THE EASTERN COAST OF LOUISIANA 
AND THE COAST OF MISSISSIPPI. THIS CLUSTERING INCREASES THE CONFIDENCE 
IN THE FORECAST.''

SATURDAY, AUGUST 27, 2005
0400 CDT: Katrina is elevated to a Category 3 Hurricane. Hurricane 
Katrina Advisory Number 16 is issued: ``KATRINA BECOMES A MAJOR 
HURRICANE WITH 115 MPH WINDS. . .SOME STRENGTHENING IS FORECAST DURING 
THE NEXT 24 HOURS. . .RECONNAISSANCE AIRCRAFT DATA AND SURFACE 
OBSERVATIONS INDICATE THAT KATRINA HAS BECOME A LARGER HURRICANE. . .'' 
Hurricane Katrina Discussion Number 16 is issued: ``DUE TO THE 
DECREASING SPREAD IN THE MODELS. . .THE CONFIDENCE IN THE FORECAST 
TRACK IS INCREASING.''

1000 CDT: Hurricane Katrina Advisory Number 17 is issued: ``A HURRICANE 
WATCH IS IN EFFECT FOR THE SOUTHEASTERN COAST OF LOUISIANA EAST OF 
MORGAN CITY TO THE MOUTH OF THE PEARL RIVER. . .INCLUDING METROPOLITAN 
NEW ORLEANS AND LAKE PONCHARTRAIN. . .A HURRICANE WATCH WILL LIKELY BE 
REQUIRED FOR OTHER PORTIONS OF THE NORTHERN GULF LATER TODAY OR 
TONIGHT. INTERESTS IN THIS AREA SHOULD MONITOR THE PROGRESS OF KATRINA. 
. .SOME STRENGTHENING IS FORECAST DURING THE NEXT 24 HOURS. . .AND 
KATRINA COULD BECOME A CATEGORY FOUR HURRICANE. . .'' Hurricane Katrina 
Discussion Number 17 is issued: ``. . .IT IS NOT OUT OF THE QUESTION 
THAT KATRINA COULD REACH CATEGORY 5 STATUS AT SOME POINT BEFORE 
LANDFALL. . .''

1015 CDT: Hurricane Liaison Team Coordination Audio Conference with FL.

1100 CDT: Hurricane Liaison Team Coordination Video Conference with 
FEMA HQ, Region IV and VI, FL, LA, MS, AL, and GA.

1600 CDT: Hurricane Katrina Advisory Number 18 is issued: ``THE 
HURRICANE WATCH IS EXTENDED WESTWARD TO INTRACOASTAL CITY LOUISIANA AND 
EASTWARD TO THE FLORIDA-ALABAMA BORDER. A HURRICANE WATCH IS NOW IN 
EFFECT ALONG THE NORTHERN GULF COAST FROM INTRACOASTAL CITY TO THE 
ALABAMA-FLORIDA BORDER. A HURRICANE WARNING WILL LIKELY BE REQUIRED FOR 
PORTIONS OF THE NORTHERN GULF COAST LATER TONIGHT OR SUNDAY. INTERESTS 
IN THIS AREA SHOULD MONITOR THE PROGRESS OF KATRINA.'' Hurricane 
Katrina Discussion Number 18 is issued: ``THE INTENSITY FORECAST WILL 
CALL FOR STRENGTHENING TO 125 KT AT LANDFALL. . .AND THERE REMAINS A 
CHANCE THAT KATRINA COULD BECOME A CATEGORY FIVE HURRICANE BEFORE 
LANDFALL.''

1615 CDT: Hurricane Liaison Team Coordination Audio Conference with FL.

1925 CDT: Louisiana Gubernatorial Briefing: Max Mayfield, Director of 
NOAA's Tropical Predication Center/National Hurricane Center provides a 
briefing to Kathleen Babineau Blanco.

1935 CDT: Max Mayfield, Director of NOAA's Tropical Predication Center/
National Hurricane Center provides a briefing to Bill Filter, Chief of 
Operations, Alabama Emergency Management Agency.

1945 CDT: Mississippi Gubernatorial Briefing: Max Mayfield, Director of 
NOAA's Tropical Predication Center/National Hurricane Center provides a 
briefing to Haley Barbour.

2000 CDT: New Orleans Mayoral Briefing: Max Mayfield, Director of 
NOAA's Tropical Predication Center/National Hurricane Center provides a 
briefing to Ray Nagin.

2200 CDT: Hurricane Katrina Advisory Number 19 is issued: ``. . 
.DANGEROUS HURRICANE KATRINA THREATENS THE NORTH CENTRAL GULF COAST. . 
.A HURRICANE WARNING ISSUED. . .AT 10 PM CDT. . .0300Z. . .A HURRICANE 
WARNING HAS BEEN ISSUED FOR THE NORTH CENTRAL GULF COAST FROM MORGAN 
CITY LOUISIANA EASTWARD TO THE ALABAMA/FLORIDA BORDER. . .INCLUDING THE 
CITY OF NEW ORLEANS AND LAKE PONCHARTRAIN. . .PREPARATIONS TO PROTECT 
LIFE AND PROPERTY SHOULD BE RUSHED TO COMPLETION. . .COASTAL STORM 
SURGE FLOODING OF 15 TO 20 FEET ABOVE NORMAL TIDE LEVELS. . .LOCALLY AS 
HIGH AS 25 FEET ALONG WITH LARGE AND DANGEROUS BATTERING WAVES. . .CAN 
BE EXPECTED NEAR AND TO THE EAST OF WHERE THE CENTER MAKES LANDFALL. . 
.HEAVY RAINS FROM KATRINA SHOULD BEGIN TO AFFECT THE CENTRAL GULF COAST 
SUNDAY EVENING. RAINFALL TOTALS OF FIVE TO 10 INCHES. . .WITH ISOLATED 
MAXIMUM AMOUNTS OF 15 INCHES. . .ARE POSSIBLE ALONG THE PATH OF 
KATRINA.'' Hurricane Katrina Discussion Number 19 is issued: ``. . 
.DESPITE THESE CHANGES IN THE INNER CORE. . .THE BOTTOM LINE IS THAT 
KATRINA IS EXPECTED TO BE AN INTENSE AND DANGEROUS HURRICANE HEADING 
TOWARD THE NORTH CENTRAL GULF COAST. . .AND THIS HAS TO BE TAKEN VERY 
SERIOUSLY.''

1500-2230 CDT: Media pool operated; TPC/NHC provided 12 television and 
two radio interviews. In addition, TPC/NHC participated in 51 telephone 
briefings or media contacts on August 27th.

SUNDAY, AUGUST 28, 2005
0040 CDT: Katrina is elevated to a Category 4 Hurricane.

0100 CDT: Hurricane Katrina Special Advisory Number 20 is issued: ``. . 
.KATRINA STRENGTHENS TO CATEGORY FOUR WITH 145 MPH WINDS. . .''

0400 CDT: Hurricane Katrina Discussion Number 21 is issued: ``THE 
SPREAD IN THE MODEL TRACKS ALONG THE NORTHERN GULF COAST IS AT MOST 90 
MILES. . .SO CONFIDENCE IN THE OFFICIAL FORECAST IS RELATIVELY HIGH.''

0615 CDT: Katrina is elevated to a Category 5 Hurricane.

0700 CDT: Hurricane Katrina Advisory Number 22 is issued: ``. . 
.KATRINA. . .NOW A POTENTIALLY CATASTROPHIC CATEGORY FIVE HURRICANE. . 
.HEADED FOR THE NORTHERN GULF COAST. . .MAXIMUM SUSTAINED WINDS ARE 
NEAR 160 MPH. . .WITH HIGHER GUSTS. KATRINA IS A POTENTIALLY 
CATASTROPHIC CATEGORY FIVE HURRICANE ON THE SAFFIR-SIMPSON SCALE. SOME 
FLUCTUATIONS IN STRENGTH ARE LIKELY IN THE NEXT 24 HOURS.''

1000 CDT: Hurricane Katrina Advisory Number 23 is issued: ``. . 
.POTENTIALLY CATASTROPHIC HURRICANE KATRINA. . .EVEN STRONGER. . 
.HEADED FOR THE NORTHERN GULF COAST. . .REPORTS FROM AN AIR FORCE 
HURRICANE HUNTER AIRCRAFT INDICATE THAT THE MAXIMUM SUSTAINED WINDS 
HAVE INCREASED TO NEAR 175 MPH. . .WITH HIGHER WIND GUSTS. . .HURRICANE 
FORCE WINDS EXTEND OUTWARD UP TO 105 MILES FROM THE CENTER AND TROPICAL 
STORM FORCE WINDS EXTEND OUTWARDS UP TO 205 MILES. . .COASTAL STORM 
SURGE FLOODING OF 18 TO 22 FEET ABOVE NORMAL TIDE LEVELS. . .LOCALLY AS 
HIGH AS 28 FEET ALONG WITH LARGE AND DANGEROUS BATTERING WAVES. . .CAN 
BE EXPECTED NEAR AND TO THE EAST OF WHERE THE CENTER MAKES LANDFALL. 
Hurricane Katrina Discussion Number 23 is issued: ``. . .HURRICANE 
FORCE WINDS ARE FORECAST TO SPREAD AT LEAST 150 N MI INLAND ALONG PATH 
OF KATRINA. CONSULT INLAND WARNINGS ISSUED BY THE NATIONAL WEATHER 
SERVICE FORECAST OFFICES. . .''

1015 CDT: Hurricane Liaison Team Coordination Audio Conference with FL.

1100 CDT: Hurricane Liaison Team Coordination Video Conference with 
FEMA HQ, Region IV and VI, FL, LA, MS, AL, GA, TX.

1300 CDT: Hurricane Katrina Advisory Number 23A is issued: 
``SIGNIFICANT STORM SURGE FLOODING WILL OCCUR ELSEWHERE ALONG THE 
CENTRAL AND NORTHEASTERN GULF OF MEXICO COAST.''

1600 CDT: Hurricane Katrina Advisory Number 24 is issued: ``KATRINA IS 
MOVING TOWARD THE NORTHWEST NEAR 13 MPH. . .AND A GRADUAL TURN TO THE 
NORTH IS EXPECTED OVER THE NEXT 24 HOURS. ON THIS TRACK THE CENTER OF 
THE HURRICANE WILL BE NEAR THE NORTHERN GULF COAST EARLY MONDAY. 
HOWEVER. . .CONDITIONS ARE ALREADY BEGINNING TO DETERIORATE ALONG 
PORTIONS OF THE CENTRAL AND NORTHEASTERN GULF COASTS. . .AND WILL 
CONTINUE TO WORSEN THROUGH THE NIGHT. . .KATRINA IS A POTENTIALLY 
CATASTROPHIC CATEGORY FIVE HURRICANE ON THE SAFFIR-SIMPSON SCALE. SOME 
FLUCTUATIONS IN STRENGTH ARE LIKELY UNTIL LANDFALL. KATRINA IS EXPECTED 
TO MAKE LANDFALL AT CATEGORY FOUR OR FIVE INTENSITY. WINDS AFFECTING 
THE UPPER FLOORS OF HIGH-RISE BUILDINGS WILL BE SIGNIFICANTLY STRONGER 
THAN THOSE NEAR GROUND LEVEL. . .SOME LEVEES IN THE GREATER NEW ORLEANS 
AREA COULD BE OVERTOPPED.''

1615 CDT: Hurricane Liaison Team Coordination Audio Conference with FL.

2200 CDT: Hurricane Katrina Advisory Number 25 is issued: ``A HURRICANE 
WARNING IS IN EFFECT FOR THE NORTH CENTRAL GULF COAST FROM MORGAN CITY 
LOUISIANA EASTWARD TO THE ALABAMA/FLORIDA BORDER. . .INCLUDING THE CITY 
OF NEW ORLEANS AND LAKE PONCHARTRAIN. PREPARATIONS TO PROTECT LIFE AND 
PROPERTY SHOULD BE RUSHED TO COMPLETION.''

MONDAY, AUGUST 29, 2005
0200 CDT: Hurricane Katrina is downgraded to a Category 4.

0400 CDT: Hurricane Katrina Advisory Number 26 is issued: ``EXTREMELY 
DANGEROUS CATEGORY FOUR HURRICANE KATRINA MOVING NORTHWARD TOWARD 
SOUTHEASTERN LOUISIANA AND THE NORTHERN GULF COAST. . .SOME 
FLUCTUATIONS IN STRENGTH ARE LIKELY PRIOR TO LANDFALL. . .BUT KATRINA 
IS EXPECTED TO MAKE LANDFALL AS A CATEGORY FOUR HURRICANE.''

0600 CDT: Hurricane Katrina Advisory Number 26A is issued: ``KATRINA 
REMAINS A VERY LARGE HURRICANE. HURRICANE FORCE WINDS EXTEND OUTWARD UP 
TO 120 MILES FROM THE CENTER. . .AND TROPICAL STORM FORCE WINDS EXTEND 
OUTWARD UP TO 230 MILES.''

0610 CDT: Hurricane Katrina makes landfall in southeastern Louisiana as 
a Category 4 hurricane.

0800 CDT: Hurricane Katrina Advisory Number 26B is issued: ``. . .THE 
CENTER OF HURRICANE KATRINA WAS LOCATED. . .ABOUT 40 MILES SOUTHEAST OF 
NEW ORLEANS LOUISIANA AND ABOUT 65 MILES SOUTHWEST OF BILOXI 
MISSISSIPPI. . .MAXIMUM SUSTAINED WINDS ARE NEAR 135 MPH. . .WITH 
HIGHER GUSTS. KATRINA IS AN EXTREMELY DANGEROUS CATEGORY FOUR HURRICANE 
ON THE SAFFIR-SIMPSON SCALE. WEAKENING IS FORECAST AS THE CIRCULATION 
INTERACTS WITH LAND TODAY. . .COASTAL STORM SURGE FLOODING OF 18 TO 22 
FEET ABOVE NORMAL TIDE LEVELS. . .ALONG WITH LARGE AND DANGEROUS 
BATTERING WAVES. . .CAN BE EXPECTED NEAR AND TO THE EAST OF THE CENTER. 
STORM SURGE FLOODING OF 10 TO 15 FEET. . .NEAR THE TOPS OF LEVEES. . 
.IS POSSIBLE IN THE GREATER NEW ORLEANS AREA. SIGNIFICANT STORM SURGE 
FLOODING WILL OCCUR ELSEWHERE ALONG THE CENTRAL AND NORTHEASTERN GULF 
OF MEXICO COAST.''

1000 CDT: Hurricane Katrina makes a second landfall at the LA/MS border 
as a Category 3 hurricane.

1015 CDT: Hurricane Liaison Team Coordination Audio Conference with FL.

1100 CDT: Hurricane Liaison Team Coordination Video Conference with 
FEMA HQ, Region IV and VI, LA, MS, AL, FL, TX.

1615 CDT: Hurricane Liaison Team Coordination Audio Conference with FL.

TUESDAY, AUGUST 30, 2005
1000 CDT: Katrina is downgraded to a tropical depression with winds of 
35 mph, 25 miles south of Clarksville, TN. The final TPC/NHC advisory 
is issued at this time; the Hydrometeorological Prediction Center 
assumes inland public advisories.

WEDNESDAY, AUGUST 31, 2005
2200 CDT: Hurricane Katrina has dissipated; remnants absorbed by a 
front in southeast Canada.

NOTES:

        <bullet>  Timeline highlights the major aspects of NOAA's 
        Tropical Prediction Center/National Hurricane Center (TPC/NHC). 
        All advisories (graphic and text) are available on the Katrina 
        archive page: http://www/nhc.noaa.gov/archive/2005/KATRINA/
        shtml?

        <bullet>  Storm surge is a consistent concern and associated 
        threat with any land-falling hurricane, especially a major 
        hurricane.

        <bullet>  Hurricane Liaison Team Coordination calls included 
        the State emergency management officials for the states listed; 
        calls with the State of Florida included both local and State 
        emergency management officials.

        <bullet>  For Katrina (including for Florida) NOAA's Tropical 
        Predication Center/National Hurricane Center provided a total 
        of 471 television and radio interviews, through their media 
        pool or via telephone.

                       Biography for Max Mayfield
    Max Mayfield has served as the Director of NOAA's Tropical 
Prediction Center, National Hurricane Center, which is part of NOAA's 
National Centers for Environmental Prediction/National Weather Service 
since 2000 and has been a NOAA employee since 1972.
    Mr. Mayfield is a Fellow of the American Meteorological Society 
(AMS) and has presented invited papers at several scientific meetings 
and lectured in several World Meteorological Organization (WMO) 
sponsored training sessions, as well as provided numerous interviews to 
electronic and print media.
    In 1996, he was awarded the Francis W. Reichelderfer Award from the 
AMS for exemplary performance as coordinator of hurricane preparedness 
presentations by the National Hurricane Center to emergency 
preparedness officials and the general public. He received an 
Outstanding Achievement Award at the 2000 National Hurricane Conference 
for the development of an innovative approach to expand the educational 
opportunities to State and local officials in hurricane preparedness, 
and was awarded the Richard Hagemeyer Award at the 2004 
Interdepartmental Hurricane Conference for his contributions to our 
nation's Hurricane Warning Program. Also in 2004, Mr. Mayfield was 
presented the Governor's Award by the National Academy of Television 
Arts and Sciences' Suncoast Chapter. This Emmy Award is given to 
someone who has made extraordinary contributions to television and who 
is not otherwise eligible for an Emmy.
    Mr. Mayfield has been recognized by the Department of Commerce with 
Gold Medals for his work during Hurricanes Andrew and Isabel, with a 
Silver Medal during Hurricane Gilbert, and was awarded a National 
Oceanic and Atmospheric Administration Bronze Medal for the creation of 
a public/private partnership in support of disaster preparedness for 
the Nation.
    He is the current Chairman of the WMO's Regional Association--IV 
Hurricane Committee which consists of 26 members from the international 
community. He has played a key role in forecast and service 
improvements at the National Hurricane Center.
    Mr. Mayfield is married, has three children, and resides in Miami, 
Florida.

    Chairman. Boehlert. Thank you for your testimony.
    We will have to recess briefly to allow Members to go to 
the Floor to vote. We have two votes so we will presumably be 
gone 15 to 20 minutes. We will reconvene as soon as the vote is 
over.
    [Recess.]

                               Discussion

    Mr. Ehlers. [Presiding] We will call the hearing to order. 
We thank the gentlemen for their testimony. We will begin the 
questioning period. Five minutes per Member for questions and 
answers. And because there are quite a number of Members here 
and I know they are anxious to have their questions answered, 
we will attempt to stick to the five minute rule as much as 
possible and I will try to be ruthless. And the Ranking Member 
laughs.

                            Lessons Learned

    General Johnson, based on lessons learned from Katrina and 
Rita is the National Weather Service going to change anything 
about the way you communicate forecasts and warnings to 
federal, State, and local officials?
    Mr. Johnson. Thank you for the question, Mr. Chairman.
    At the end of each hurricane season, we do a pretty 
extensive hot wash. We go through and review all of our 
procedures and----
    Mr. Ehlers. Could you explain for the record what a hot 
wash is?
    Mr. Johnson. Yes, sir. We get people who participate in 
communicating those threats, those warnings, those watches to 
the American public. We get media, we get emergency managers, 
we get people from the Hurricane Center all together and say 
how could we better communicate?
    I appreciate very much Mr. Melancon's characterization of 
us as accurate and clear this year but I believe, sir, that 
there is always room for improvement. And last year, we had a 
pretty unprecedented significant season, probably a better 
word, in five land falling hurricanes. And at the end of last 
year, we decided that we needed special emphasis on the 
communication of uncertainty. I think you remember, sir, the 
assertion of the skinny black line. We wanted to address 
uncertainty so we redoubled our efforts on uncertainty. At the 
end of this season, sir, we will go through and review all of 
our procedures and see if there is a better way to----

           Communication With Emergency Management Officials

    Mr. Ehlers. Okay. The question then is, to my understanding 
there is no mechanism in place for NOAA and the Hurricane 
Center to confirm that officials at agencies such as FEMA and 
other State and local agencies have received all the national 
and local hurricane forecasts issued by the Weather Service. 
Shouldn't there be some sort of confirmation mechanism that you 
get affirmation or confirmation from these folks that they got 
the message, that they are going to act on it? Is there 
anything you can do along that line?
    Mr. Johnson. I will defer to Max on the specific operation 
of the Hurricane Liaison Team. But the weather forecast offices 
also communicate with local emergency managers and we 
participate in for example the Louisiana Emergency Operations 
Center and actually have people positioned in that facility to 
facilitate the communications of that environmental 
information. So we routinely provide discussion in trying to 
further the understanding of the message at different intervals 
always at the six hour intervals when the hurricane center 
issues.
    Mr. Ehlers. Mr. Mayfield, would you expand on that? And 
also if it appears useful, do you have intermediate reports 
between the six hour reports? I would appreciate your comments 
on this.
    Mr. Mayfield. Right. The National Hurricane Center takes 
the big picture and we routinely issue a five-day forecast 
every six hours. When we have watches and warnings in effect, 
we will go to a two or three-hour cycle, depending on how close 
it is and how well defined it is on radar. If there is 
something unexpected in the track or intensity, we will do what 
we call a special advisory and we did that, we certainly did 
that a few times on both Katrina and Rita. So there is a 
continual flow of information from the hurricane center and as 
General Johnson said, it is really important, too, to get down 
to those local decision-makers. And the local weather forecast 
offices do a tremendous amount of handholding with the 
commanders in their local area. They are under their area 
responsibility.
    Mr. Ehlers. Now do you get confirmation from everyone that 
they have received the message and the warning?
    Mr. Mayfield. They are actually talking to them. I mean 
these are actually telephone----
    Mr. Ehlers. Do you do some sort of a role call to make sure 
they are actually on the phone and listening?
    Mr. Mayfield. That is for the local office, I am not sure 
how they do that but I--we can find out about that. But the 
National Hurricane Center, we are indeed an invited participant 
on those Hurricane Liaison Team briefings. And FEMA 
headquarters, as far as I know, they do not take an individual 
role call but they do take an office role call. In other words, 
they will--when I come in, I will hear them say, you know, it 
is the hurricane center on line, FEMA Region 6, FEMA Region 4, 
Louisiana Emergency Operating Center are you on line? So they 
at least do that, yes, sir.
    Mr. Ehlers. And when you come back two hours later, do they 
report at all what they have done to----
    Mr. Mayfield. I do not listen--I do not participate on that 
part.
    Mr. Ehlers. Okay.
    Mr. Mayfield. We are there to provide the, you know, the 
best forecast we can.
    Mr. Ehlers. Yeah.
    Mr. Mayfield. And then often I will do that and then I will 
go back to work.
    Mr. Ehlers. All right. My time has expired.
    I will turn to the Ranking Member, Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman.
    I think with all the information, it is on the public 
record now, it has become pretty evident of two things. One, 
that the Weather Service did an excellent job in predicting the 
hurricane and in the accuracy of doing so. I think we also know 
that FEMA and the Federal Government did not react well. And I 
am trying to find where was that disconnect. And so, Mr. 
Mayfield, I am wondering whether that in addition to the 
accuracy of the forecast there was also adequate information 
about the consequences of the hurricane. And as you know, we 
have asked you to bring your briefing materials from the August 
28 briefing with President Bush and Secretary Chertoff. And if 
you would present that to us at this time, we would appreciate 
it.
    Mr. Mayfield. I would be glad to if we can get that--okay. 
This is exactly what--these are the briefing slides that I used 
on that Sunday, August the 28th briefing, you know, from the 
National Hurricane Center. And I do not have a transcript but I 
am pretty sure I will be very, very close and the briefing I 
would give today would be very close to the briefing I gave 
before, although probably a little condensed version here.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    That first slide, I showed just to demonstrate the--or make 
sure they knew the size of the hurricane and not only is it 
well defined but it is not a small hurricane, it is a very, 
very large hurricane. The next slide, please.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    That was a visible picture. This one is an infrared and 
very, very distinct eye. When you have that, you always have a 
powerful hurricane and, in fact, this was a Category 5 
hurricane. And I said that not only is this a Category 5 
hurricane like Andrew, but there is a big, big, difference. And 
the difference is that it is a much larger hurricane than 
Andrew was.
    And I also made a comparison to Hurricane Lily back in 2002 
that struck Louisiana. Lily had been a Category 4 hurricane in 
the middle of the Gulf of Mexico. It weakened down to a 
Category 1 hurricane. There was a big difference. With Lily, we 
had a very, very small eye. We call it a pinhole eye. And when 
you have those small eyes like that, typically they just do not 
persist for very long. And I did say that given this more 
typical sized eye, we really do not expect significant 
weakening like Lily did. The wise thing to do here would be to 
prepare for a Category 5 hurricane.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The next slide is a water vapor loop and we were also 
showing animations of these I might add on the video 
teleconference. And I show this one just to talk about the 
future motion. There was a trough coming in from the west that 
was eventually going to turn this up more to the north and 
eventually northeast. And the computer models differed somewhat 
on when that turn will occur and it makes a big, big difference 
whether it happens, you know, right at landfall, or before 
landfall, or well inland there. And what I would have said was 
that no one can tell you exactly, you know, where Katrina's 
going to make landfall but again I emphasized it was a large 
hurricane and wherever it made the actual landfall, it was 
going to impact a very large area.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Then the next slide is--this is a Hurrevac slide and that 
is a software program actually developed by a former Weather 
Service employee paid for by FEMA after he retired and this is 
a really nice package here that you can animate this, you can 
do all types of displays here. And I would not have taken the 
time to--I mean they use this--we show this at every single 
briefing we give but for your information, that red area there 
that you see, the bright red from Morgan City, Louisiana over 
to the Florida/Alabama border, that was where the coastal 
hurricane warning was in place. We had tropical storm warnings 
and hurricane watches on either side of that. And then you can 
see the forecast track of the center of the hurricane and we 
always and General Johnson mentioned there, we do not like to 
poke attention to that skinny black line. We have that cone of 
uncertainty based on our previous 10-year forecast errors 
showing where the center of the hurricane can be. And when I 
showed this, I said that this is not just a coastal event, the 
strong winds, the heavy rains, the tornadoes will spread well 
inland. But--and I am also sure that I said this, I want to 
make absolutely clear that the greatest potential for large 
loss of life is also from the storm surge. And that transitions 
over to the next slide.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This is a storm surge simulation from the actual forecast 
that was available at that time. This went along with the 11:00 
a.m. eastern daylight time advisory and this was for that 
noontime eastern daylight time Hurricane Liaison Team briefing. 
And I think you can see Lake Pontchartrain there and certainly 
the Mississippi coastline and much of the Louisiana coastline. 
The colored areas are areas that are indeed inundated from that 
specific forecast. Now again, we are doing this every six hours 
based on the most recent forecast but the point here is that 
those, the light greens and the yellows, those were all storm 
surge valves of over 20 feet. And I would have explained the 
circulation around the eye of the hurricane goes 
counterclockwise so that means that we would have northerly 
flow over Lake Pontchartrain. And I did say that no one can 
tell you with absolute confidence if the levees would be 
overtopped but it was obviously a very grave concern there. And 
I also would have said that if the track had shifted a little 
bit to the west or to the left there, it would have been even 
worse than on our current forecast track there. I really do not 
want anyone to think that we could give a perfect forecast.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    And then the last two very quickly here, the storm surge in 
Mobile. This showed seven to eight feet of surge there. I was 
concerned that we had that much with Hurricane George in 1998 
and that was only a Category 2 hurricane. So I did not know for 
sure if the storm surge model really did justice to that. Wind 
speed also, I asked that that be run a little further to the 
east. And the next to the last slide there, this actually 
shifted the track, I believe 15 to 30 miles to the east and 
this gave us 10 to 11 feet of storm surge even up into the 
northern portion of Mobile Bay, Dolphin Island, portions of the 
Gulf Shores. Most of the Gulf Shores are under water. So those 
are the exact slides that I shared on that Sunday briefing.
    This was a FEMA conference call and they invited the 
Hurricane Liaison Team to participate. This was a daily call 
and it was held during Katrina. Every day it was held at noon 
eastern time.
    Mr. Gordon. At noon. And when did Katrina actually hit the 
City of New Orleans with its maximum force?
    Mr. Mayfield. Well the first landfall there on the mouth of 
the Mississippi and south of Buras, Louisiana was about 7:10 
a.m. on Monday morning, the 29th and then by the time it made 
the final landfall near the Louisiana/Mississippi border, that 
would have been about 10:00 or 11:00 a.m., so shortly before 
that.

                          Directing Hurricanes

    Mr. Rohrabacher. Okay, all right. Thank you very much. Mr. 
Chairman, first of all let me apologize.
    I have a mark up in another committee, International 
Relations Committee that I will have to attend afterwards. This 
has been so enlightening already and I hate to miss the rest of 
the questions but let me just proceed with a few of my own.
    Let me note, these photographs and the tracking that NOAA 
and the National Weather Service forecasts have been utilizing 
are based on space based assets that this committee has 
supported over the years and have given the American people a 
tremendous leverage in terms of preventing the death and 
destruction from hurricanes like this. And I want to pat us on 
the back, Congress on the back for actually doing their job in 
terms of providing this type of technology and also a pat on 
the back for the National Weather Service and NOAA for the 
terrific job that they did in this and in other weather based 
dangers that we faced during my two decades of service here in 
Congress. You have always done a terrific job and this is yet 
another example.
    Where we seem to have had a breakdown as we have indicated 
by the Ranking Member's comments that there may have been some 
sort of breakdown somewhere on the governmental level outside 
of the knowledge base but in terms of the coordination base. I 
would not put that all on the Federal Government; however, I do 
believe that the President by the time of this briefing at noon 
had already talked to the Major of New Orleans and asked that 
people be evacuated and that the efforts on the part of the 
people in charge at that level of government, did not move 
forward with the type of speed that was consistent with the 
danger that was being explained. So although let us just say 
whether it is the local level or the national level, there 
needs to be better coordination on both sides.
    And this is not towards you folks but it just appears that 
there is not an emergency plan. We have got an emergency 
warning system but we do not have an emergency plan that is in 
place that you go this is Step 1, 2, 3, 4 and this is what has 
happened. Now much of that has to be done at the local level 
but the Federal Government could have or our FEMA directors 
could have had that plan in place to be working with the local 
officials and said are you now on Stage 2, Stage 3, Stage 4. 
That obviously did not happen especially considering the 2,000 
buses that were parked in New Orleans rather than used for 
evacuation purposes.
    There has been a lot of talk about whether or not these 
hurricanes while we cannot, you know, everybody says you can 
talk about the weather, you cannot do anything about it. I have 
actually seen some reports and some in Scientific American and 
other magazines suggesting that in the future we might be able 
to direct the path of hurricanes and what do you guys have to 
say about that?
    Mr. Mayfield. You know that question has been around for a 
long, long time if man can, you know, mitigate the hurricanes 
and it is very difficult to get some people to understand both 
the size and the tremendous power of a hurricane. And you know, 
nature can do a lot of things on its own. The United States 
Government used to have a program called Project Storm Fury 
where we would see, we would fly the NOAA hurricane hunter 
aircraft through the hurricane, seed silver iodide on the 
outside of the eye wall of the hurricane with the intent being 
to weaken----
    Mr. Rohrabacher. Well, before my time totally runs out, let 
me ask you specifically.
    Mr. Mayfield. Sure.
    Mr. Rohrabacher. We have already, you know, seen what 
science can do to alert us and give us emergency signs of these 
hurricanes to understand they are coming. Do you think in 20 
years from now we will be able to use space-based assets 
perhaps to warm the water or cloud seeding to actually help 
direct the path of a hurricane to prevent the type of landfall 
that we just had in Katrina?
    Mr. Mayfield. Well, it is great to have a vision to do 
something like that but I am a very pragmatic type of guy and I 
am certainly not going to hold my breath for that.
    Mr. Ehlers. The gentleman's time has expired.
    Mr. Rohrabacher. Yeah, could I ask unanimous consent to 
have the general answer that question for less than a minute?
    Mr. Johnson. Yes, sir. There is a massive amount of energy 
in a hurricane and I think the efforts of man will be a very 
small infinitesimal amount of the----
    Mr. Rohrabacher. Thank you very much, General.
    You now have told us that we--to alter the course of that 
hurricane, we are going to have to all learn how to pray, I 
think. Thank you very much.
    Mr. Johnson. A higher power, yes, sir.
    Mr. Ehlers. I suspect that is good advice. As a physicist, 
I can tell you that you could explore 120 megaton bombs in that 
and the hurricane would not even notice it so, a very 
depressing thought.
    On that cheery note, we will turn to the gentleman from 
Colorado, Mr. Udall.

       Communication With Emergency Management Officials (cont.)

    Mr. Udall. Thank you, Mr. Chairman.
    I want to also extend my gratitude to the panel for your 
presence here today and your compelling and enlightening 
testimony.
    I intend to yield to the Ranking Member, Mr. Gordon, but I 
did want to just remind all the Committee Members here in the 
audience that in my district which includes the City of Boulder 
where we are fortunate to have a NOAA facility which is a 
tremendous asset. I cannot think of a harder working cohort of 
people and I want to pay tribute to them and the good work they 
do and the role they play in weather forecasting, as well as, 
the climate studies that are undertaken in Boulder.
    So thanks again to the panel. With that, I would like to 
yield the remaining amount of my time to the gentleman from 
Tennessee, Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Udall.
    Once again, Mr. Mayfield, you have been mentioned a variety 
of times, thank you for your service to the country, thank you 
for that powerful presentation.
    Let me ask you, you told them to prepare for a Category 5. 
Is that correct in that presentation?
    Mr. Mayfield. That is correct.
    Mr. Gordon. Did you explain or did they understand the 
consequences of a Category 5? Did you explain that to them?
    Mr. Mayfield. Those briefings, Congressman, are not--you 
know, it is really not the time to, you know, to teach a course 
in meteorology 101 but they, the folks on that, the emergency 
management folks on that conference call certainly should 
understand what a Category 5 hurricane can do.
    Mr. Gordon. And though just a short time before that, 
through that PAM exercise, they had a chance. It was not a five 
but a four so you would know what was going on there.
    So would you tell us, then, would you describe what are the 
consequences to that region for a Category 5?
    Mr. Mayfield. Well you have to deal with all the hazards of 
the hurricane. The first is the storm surge. It is a dome of 
water that comes in near to where the center makes landfall. 
Very unique set of circumstances there in Louisiana that it is 
just so low lying and of course the city itself being like a 
bowl and much of the city below sea level. That has always been 
a concern with a storm surge in that area.
    Number two, of course, are the strong winds and the winds 
were, you know, a Category 4 or 5 hurricane can do tremendous 
wind damage. And we have also learned over the years that the 
winds are stronger aloft. We put a statement in our advisories 
on Sunday saying that being that the windows could be blown out 
in, you know, high rise structures. Then you have to worry 
about the rainfall. And this is a team effort. We have the 
rainfall experts within NOAA, the Hydro Meteorological 
Prediction Center. And I did not mention this earlier but they 
actually were on those Hurricane Liaison Team briefings with us 
every day. I would do the basic meteorology and then they would 
chime in on the rainfall forecast. And then, of course, the 
fourth main hazard would be the tornadoes that can spread well 
inland and can be well removed from the eye of the hurricane.
    Mr. Gordon. Thank you, sir.
    As I quoted earlier, Michael Brown said, ``I must say, this 
storm is much bigger than anyone expected.'' Was it bigger than 
you expected and bigger than you predicted?
    Mr. Mayfield. We briefed routinely and then in every 
advisory we issued, we would give the size. Are we, you know, 
differentiating between the size of the hurricane and the 
intensity? There is a difference. You can have a large powerful 
hurricane or a large weak hurricane or a small powerful 
hurricane or small, you know, weak hurricane so those are two 
different things. I am not sure exactly what Mike Brown meant 
by that if he--I suspect he meant it was, you know, an extreme 
event. I am not sure he really meant large in terms of size, 
but that I will think you will have to ask him what he actually 
meant from that.
    Mr. Gordon. Thank you, Mr. Udall.
    Mr. Bonner. [Presiding] I believe the Chair controls the 
time but the gentleman from Minnesota has another appointment 
so I would now recognize Mr. Gutknecht.

                     Hurricane Multi-decadal Cycle

    Mr. Gutknecht. I thank the Chair.
    Mr. Mayfield, I would like to switch gears for just a 
minute because we have heard from some other experts and I 
would like to hear it right from the top guns here. That we may 
expect more hurricanes this year and we are in a hurricane 
cycle where we may see more. First, a simple question, how many 
more hurricanes should we expect this year?
    Mr. Mayfield. I wish I could tell you for sure about that. 
I cannot be exact. Our seasonal forecasters were calling even 
back in early August 18 to 21 named storms, we have already had 
19. We were calling for nine to 11 hurricanes and we have had 
ten. And we were calling for five to seven major hurricanes and 
we have had five. I think the best way I could answer that, if 
you go back the last 40 years or so, we typically averaged two 
or three named storms in October and November. I would like to 
say we could count Stan and Tammy on that but I really do not 
think we can. I think a reasonable expectation would be for 
another two to three named storms. One or two of those might be 
hurricanes. I think one of the important things is that and I 
just checked on this. If you go back to 1995 when this active 
period began, we have had eight major hurricanes in the month 
of October, two major hurricanes in the month of November so we 
are averaging, you know, one major hurricane per year in 
October and November in this active period.
    Mr. Gutknecht. Now you have just touched on this and I am 
sorry, I had an agricultural hearing and a markup and some of 
us are in and out and that does not mean that it is not 
important, but can you talk a little bit about those cycles? I 
mean, we hear about that on the news. Where do you think we are 
in the cycle and how long will it last?
    Mr. Mayfield. Well we have got some not very good news 
here. These cycles, you know, will go 10 to 30 or 40 years and 
you can go well back in the record books here to look at these 
cycles. And if, for example, the '50s and '60s indeed were 
very, very active with a lot of major hurricanes. And we need 
to remember that most of the loss of life and most of the 
damage occurs from these major hurricanes, Categories 3, 4, and 
5 on the Saffir-Simpson Hurricane Scale. Then in 1995, somebody 
seems to have thrown a switch here and it has really gotten 
active. We have had a tremendous number of major hurricanes. 
And the research meteorologists unfortunately are telling us 
that this active period will very likely last another 10 or 20 
years or more.
    Mr. Gutknecht. Thank you, Mr. Chairman.
    Mr. Bonner. Thank you.
    The Chair recognizes the gentleman from North Carolina, Mr. 
Miller.

                     Funding for Hurricane Research

    Mr. Miller. Thank you, Mr. Chairman.
    I agree with Mr. Gordon that certainly NOAA's performance 
was probably the best one we had in the Federal Government.
    General Johnson, when you count your life's blessings, 
count the fact that there was never a moment on National 
television that President Bush said to you, Johnny, you are 
doing a heck of a job. You all certainly did a much better job 
than other agencies of the Federal Government. But I am very 
concerned about our continued ability to do a good job and to 
do a better job. And certainly there seems to be room for 
improvements in the technology, in the science forecasting even 
if we do not look to that millennial day when we can actually 
control hurricanes, we certainly could do better in forecasting 
their exact path, their intensity, their rainfall, the inland 
flooding that they cause.
    General Johnson, the difference between the House and the 
Senate budget for NOAA is $1 billion. What would the House 
budget due to NOAA's ability to improve upon the science or 
even maintain what you have, to maintain or improve the buoy 
system, to improve upon science? I understand that the 
scientists at NC State by the way did a better job of 
forecasting the path and intensity of the storm because they 
are using more advanced methodology. General Johnson, what 
would that budget difference due to NOAA's ability to improve 
or even keep what you got?
    Mr. Johnson. I have had the opportunity to look at the 
House mark and the Senate mark at a very conceptual level.
    Mr. Miller. I sort of thought that would get your 
attention, yeah.
    Mr. Johnson. Yes, sir. There is a significant different 
there and we are anxiously awaiting the conference and what 
really comes out of that. There is always an opportunity to do 
better and to improve. And I think in my opening statement, we 
talked about observations, opportunities in modeling, and my 
written statement I highlight some of those as well.
    I appreciate the support in the Science Committee overall 
and right now we are anxiously awaiting what comes out of that 
to see how we can continue to serve the American public with 
accurate and timely advise and forecasts like we have been.
    Mr. Miller. What are your feelings, Mr. Mayfield?
    Mr. Mayfield. If I could just say one thing and I need to 
say this very carefully for the folks who were impacted. In 
both Katrina and Rita, to some extent, we were fortunate 
because they were both major hurricanes, in fact, Category 5 
hurricanes well before they made landfall. You know, if you 
look at all the storms and hurricanes that hit the United 
States, only about 20 percent of them are major hurricanes, 
Category 3, 4, and 5, yet that 20 percent causes over 80 
percent of the damage. Most major hurricanes become major 
hurricanes by going through some rapid intensification cycle 
that we simply do not understand yet. And both Katrina and Rita 
did this rapid intensification fortunately well, you know, away 
from that landfall point. If that rapid intensification had 
happened right at the time of landfall, in other words, people 
are going to bed preparing for let us say a Category 1 or 2 
hurricane and then if they, you know, awaken to a Cat 4, I 
would not be sitting here today I suspect.
    Anyway, we do need help especially with that rapid 
intensification.

                            Local Forecasts

    Mr. Miller. You would be testifying before the Government 
Reform Committee rather than the Science Committee.
    Mr. Mayfield, in my state, you said someone threw a switch 
in 1995. My district, not just my state, but my district and, 
in fact, my house has been affected by Fran and Floyd. And the 
great bulk of the damage has been inland flooding, tornadoes. 
It has been a local forecast that would be most helpful in 
preparations and in response. How important or what is the 
current status of our ability to do local forecast and how will 
the proposal to cut the number of the local offices from I 
think 122 to maybe 20 or 30, how will that affect your ability 
to do the local forecasting?
    Mr. Johnson. Let me take that one.
    Mr. Miller. Okay.
    Mr. Johnson. We are constantly looking at opportunities to 
improve the way we provide products and services. And one of 
the things that I am looking at is our concept of operations. 
We have 122 weather forecast offices and 13 river forecast 
centers that provide services for America. I am looking at 
economies and efficiencies in how can we best provide those 
products and services. There is no proposal to cut the number 
of offices at this time. We are looking at how we can use the 
resources we have and be good stewards of the taxpayers 
dollars. So there is no proposal out there to cut numbers of 
offices.

                          Evacuation Decision

    Mr. Bonner. The gentleman's time has expired.
    I will reclaim my time and I want to express as others 
have. I would be remiss if I did not. As someone who lives in 
Mobile, Alabama and since last September with Hurricane Ivan, 
has experienced the good fortune of relying on both of you two 
gentlemen and the many men and women who work with you, our 
thanks for the great job you all do and for the service you 
render our entire country in terms of giving us adequate 
warning that a storm is imminent.
    I would like to go back to a question I think Mr. Gordon 
raised, but others have as well, and that deals with the issue 
of shelters. Because we experienced during Hurricane Ivan and 
we certainly did during Hurricane Dennis where the Governor of 
our State, Bob Riley ordered a mandatory evacuation of Mobile 
County, Alabama and the coastal area of Baldwin County and 
turned both lanes of I-65 northbound, the first time we had 
done that. It was successful in terms of evacuating a lot of 
people. Fortunately for us in Alabama, Dennis veered a little 
bit to the right, unfortunately for our friends in Florida, but 
as a result, we had a good lesson on evacuation.
    But General Johnson, Mr. Mayfield, is there ever a time 
when a community, a state, or the Federal Government should 
encourage people to stay in an area when a Category 4 or a 
Category 5 storm is coming. Using New Orleans as an example, 
should any official of government have recommended that people 
stay in a city with a Hurricane 4 or a Hurricane 5 coming into 
that city?
    Mr. Johnson. The role of the National Weather Service is to 
provide that accurate timely and focused information. We refer 
to our colleagues over in Emergency Management side on 
evacuation decisions and whether they should shelter in place. 
We do work with them in the off season to see how much time 
would be required and available. That is part of the hot wash 
at the end because evacuations from certain areas take much 
longer than others depending on the infrastructure but I would 
defer to them.
    Mr. Mayfield. And that doesn't mean we do not care about 
those things. I mean it is a real team effort, the Nation's 
Hurricane Warning Program, you know, it consists of the 
forecasters, the emergency management, the community, and the 
media. The media is a big part of this. And we certainly care 
about that and our message has been so consistent in urging 
every individual, every family, every business, and every 
community to develop that hurricane plan and know what to do. 
But as General Johnson said, the roles are defined. And our 
role is to provide the best forecast that we possibly can.
    Mr. Bonner. But even with your role, you still have a 
wealth of knowledge. Mr. Mayfield if you had been in New 
Orleans watching TV, the reports that your office and that you 
in fact were the one that was on national TV recommending, 
would you have stayed in that city?
    Mr. Mayfield. I think that I would hope that the mayors and 
the governors were not telling me how to forecast and I am sure 
they would appreciate me not telling them how to evacuate.
    Mr. Bonner. The next question goes to the gentlelady from 
California, Ms. Woolsey.

                         Hurricane Liaison Team

    Ms. Woolsey. Thank you very much.
    First of all, congratulations for both of your agencies for 
providing--using federal funds. And we have to take credit for 
that. We invested in the right thing so that you had weather 
service. Information that was timely, accurate, and focused. 
And thank you, thank you. It proves, I believe, that we can 
achieve our goals. When there is a will, there is a way. And 
now I think we have the opportunity to know how your good 
information was used. So I have a couple questions about that.
    Mr. Mayfield, I know you do not keep a log of who is on the 
daily Hurricane Liaison Team, the HLT, on the calls, but would 
you say there is good participation or there was by the State 
and local folks on these calls in general? Could you tell? Did 
you know?
    Mr. Mayfield. I am not sure if you were in here, 
Congresswoman, but as far as I know, FEMA does not take, you 
know, an individual role call but they do and I mean I am 
talking about these daily video teleconferences now. I mean, 
there is a lot of additional coordination. But they do have a 
role call of offices. In other words, they would come and ask, 
``hurricane center, are you on line? FEMA Region 6, are you on 
line? Mississippi EOC, are you on line?'' They would do that so 
that information I would think would be available from FEMA. I 
did not take role though.
    Ms. Woolsey. Okay. Well, we have used this process for a 
long time now and you know so much more know than we ever knew, 
you know, in previous--in years passed. So would you say this 
process has provided a good forum of information or an exchange 
between the various levels of government or is there a way that 
you would suggest changing the process based on the post 
hurricane season and get local government more involved?
    Mr. Mayfield. Congresswoman, you know if there is anything 
that we could have done differently or better on our end, I 
assure you that I want to know exactly what that is. I can tell 
you that FEMA sponsored a briefing, the noontime video 
teleconference involving the Hurricane Liaison Team. That was 
done the same way in Hurricane Katrina that it was done in all 
the hurricanes, all four of those hurricanes that hit Florida 
last year, and done exactly the same way with Hurricane Rita. 
That process did not change.
    Ms. Woolsey. But should it go lower to get the local folks 
more involved?
    Mr. Mayfield. Oh, you are asking should the local folks be 
on that video teleconference?
    I have absolutely no objection to that. If I could give you 
my own opinion on that, this is a big picture of sort of the 
real big picture, the overview. The locals, I think are best 
served by that handholding going on in their local community by 
the local National Weather Service offices. Right before every 
forecast is issued from the National Hurricane Center, we have 
a hurricane hot line call with all of our potential impacted 
local Weather Service forecast offices, the river forecast 
centers, the rainfall forecasters of the Hydro Meteorological 
Prediction Center, the tornado forecasters and the Storm 
Prediction Center. The Department of Defense is online. They 
would be Norfolk, Jacksonville, Pensacola, and others. NASA is 
on that line. So we do a tremendous amount of coordination. And 
those local forecasters, you know, in the local communities, 
they know everything we do right before the advisory goes out. 
And then they turn around and do that handholding with the 
local emergency management and other officials. And I know 
these folks in Slidell and in Mobile and I have known them for 
years and I know that they did their job. If there is something 
else that could have been done, I am sure they will want to 
know that too.
    Ms. Woolsey. Okay, thank you very much. Thank you.

                        Facilities and Equipment

    Mr. Ehlers. [Presiding] The gentlewoman's time has expired.
    General Johnson, were any of your vital facilities or 
equipment damaged or destroyed in Katrina and Rita? If so, what 
is the status of those facilities today and what are you doing 
to maintain capabilities in the short-term?
    Mr. Johnson. Yes, sir. We had some significant damage to 
facilities. We had a back up plan in place so that when we lost 
power in the Slidell office for example, the Mobile office 
picked up those requirements. I was down there yesterday, Mr. 
Chairman, checking out how operations were going and there is 
some roof damage and some other things that we need to address. 
I know we lost services of a couple of buoys, some NOAA weather 
radios, those kinds of things, sir, and we are in the process 
of assessing those right now.
    Mr. Ehlers. Do you have the resources to do--to make these 
repairs and get back on line during the rest of the hurricane 
season?
    Mr. Johnson. Sir, with the start of the fiscal year and a 
continuing resolution I am going through an assessment right 
now and we are looking forward to the '06 ability to get an 
infusion of funds to address those.
    Mr. Ehlers. All right.

                           Long-Term Outlook

    Mr. Mayfield, I am interested in a little futurism here. 
What is the future outlook with respect to both hurricane 
frequency and intensity during the next 50 to 100 years? Do you 
have any--and I know that is very long-term but what factors 
contribute to the frequency and intensity and what do you see 
developing that could have an impact on both frequency and 
intensity?
    Mr. Mayfield. Well, I would like to jump right to the 
bottom line but I will hold that for a little bit. One of the 
biggest correlations that we have with hurricane activity in 
the Atlantic is the sea surface temperatures. And just as the 
sea surface temperatures have cycles of warm and cold, warm and 
cold, so does the hurricane activity so I cannot tell you with 
any certainty what the future will hold other than these cycles 
will very, very likely continue. Ten to 40 year cycles are 
active and then, you know, followed by inactive periods there.
    But this is important, too. We need to remember that you do 
not have to be in an active period to have that one powerful 
hurricane. And 1992 was well below the average number of storms 
and hurricanes. This was not in a warm period, it was--we only 
had six storms that year, only four of those were hurricanes, 
but yet we had that one little hurricane called Andrew. So no 
matter what period we are in, active or inactive, the bottom 
line from my perspective is that we need to be prepared. We 
need to have those hurricane plans in place. And everyone down 
to that individual taking that personal responsibility needs to 
know what to do before the next one comes.
    Mr. Ehlers. So in other words, the frequency follows 
certain cycles but there is no relationship between intensity 
and frequency?
    Mr. Mayfield. No, there is, I am sorry, sir. I did not 
understand that. Yeah, in the active periods, we do tend to 
have more major hurricanes so that obviously is a concern. I 
was just trying to say that even in the inactive periods you 
can still have that----
    Mr. Ehlers. Right, okay. But there is some correlation 
between frequency and intensity. Okay.
    And much of it is related then to the cycling of the 
surface temperatures in the gulf and in the western Atlantic. 
Is that correct?
    Mr. Mayfield. Right. We typically look at our main 
development region, the tropical Atlantic, the Caribbean and 
part of the Gulf of Mexico.
    You know, you can correlate a lot of different things with, 
you know, the activity and that sea surface temperature is one 
of the best things that we have.
    Mr. Ehlers. Well at least you have not tried to correlate 
it with full moons which seemed to be the favorite thing people 
like to correlate things with.
    My time has expired. We recognize the gentlewoman from 
Texas, Ms. Sheila Jackson Lee.

                                Timeline

    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Let me thank the Chairman and the Ranking Member for what I 
think is both a vital and timely hearing, and allow me to thank 
both General Johnson and Mr. Mayfield for, I know a grateful 
America for the existence of NOAA but also its technology. For 
that reason, allow me for a line of questioning that again may 
take you over the timeline that I view is so very crucial to 
the component of saving lives.
    Backtrack for me again if you would, the time that you 
began to assess Hurricane Katrina. And I may interrupt you and 
forgive me only because I have a series of questions and I know 
my time is short. So when I look at sort of the end of August, 
how far back did you begin tracking Hurricane Katrina?
    Mr. Mayfield. Well we were tracking the disturbances, the 
tropical waves come off the coast of Africa every three or four 
days just like clockwork all through the hurricane season and 
we were tracking a tropical wave that really did not form. It 
became a depression on Tuesday, the 23rd of August. I asked for 
activation of the Hurricane Liaison Team to start on the 24th. 
It was activated at 7:00 a.m. on Wednesday, the 24th, became a 
storm on the 24th, and then it became a hurricane just before 
it made landfall on the 25th near Miami.
    Ms. Jackson Lee. And it was what category at that point?
    Mr. Mayfield. A Category 1 hurricane when it made landfall 
there. And it became at Cat 1 just an hour or two before 
landfall.
    Ms. Jackson Lee. A measure or two.
    At that time, were you on any kind of large conference 
calls with all necessary parties including the President or his 
representatives starting at that point?
    Mr. Mayfield. I honestly do not remember when the President 
was on it except I know for a fact that he was on that Sunday, 
August the 28th as it was in the Gulf of Mexico. I do not 
remember and quite honestly some time ago on the video 
teleconference monitor will have nine or more little pictures 
there and it may say the White House or it may say, you know, 
Louisiana Emergency Operations Center and I really cannot see 
exactly who is there in each of those offices. But the video--
well on Wednesday the 24th, we had a telephone conference call 
with FEMA and by the time it hit Florida there on the 25th, we 
had the video teleconferences going daily at noontime. And I am 
sorry but I cannot tell you exactly, you know, which 
individuals were on there.
    Ms. Jackson Lee. But you know that he was on on the 28th, 
which was that Sunday?
    Mr. Mayfield. That is correct.
    Ms. Jackson Lee. And were local officials on as well?
    Mr. Mayfield. The local officials were not on but the 
States, Texas, Louisiana, Mississippi, Alabama, Florida, and 
Georgia emergency operation centers were on that big picture. 
Again, that the big picture called there on that video 
teleconference. Of course FEMA headquarters facilitated the 
call and then FEMA Region 4 out of Atlanta, Georgia and FEMA 
Region 6 out of Denton, Texas.
    Ms. Jackson Lee. How much guidance do you give as you are 
providing the science of these Cats 1, 2, 3, and 4, and 5? How 
much direction can you give to FEMA or how much direction are 
they seeking from you as partly the agency dealing with natural 
disasters, the National FEMA as opposed to State emergency 
agencies?
    Mr. Mayfield. Well, a fair question but the roles are 
defined here and our role is to provide the best forecast that 
we can. So we would be reporting, I would be briefing on, you 
know, the current location and strength of the hurricane, the 
future track of the hurricane, the future intensity forecast, 
the potential storm surge, rainfall, tornado activity. Our role 
is to provide the best, you know, weather information that we 
possibly can.
    Ms. Jackson Lee. But at some point, the human factor must 
play in where somebody takes a deep breath to say guys this is 
a Cat 5, we have got to move. I am sure sometimes in the course 
of conversation that happens. Is that correct?
    Mr. Mayfield. Well, we certainly said that this was a Cat 
5, you know, when it became a Cat 5 and I did, I mean, I firmly 
believe that people understood the potential that this 
hurricane held.
    Ms. Jackson Lee. General, let me ask you this. With the 
work that you have done, my understanding is that there is a 
difference of $1 billion between the Senate's mark and the 
House mark as it relates to NOAA. This Committee has always 
been a strong advocate of funding for NOAA but it baffles me as 
to what you will do with that shortfall.
    And then let me raise this with you. Clearly as Mr. 
Mayfield, said there is a point where there is an exasperation 
or an exasperated voice saying, you know, this is a Cat 5 and 
you are speaking to I call it level folk that are at the level 
of State government but the Federal Government is there. Do we 
need to legislate, if you will, a stronger role for NOAA as it 
relates to the interaction between agencies like FEMA because 
we all know that despite the local responsibility and the state 
in natural disasters when NOAA is on the line saying with its 
refined science there is a Cat 5, somebody at the top level 
should act. In the case of Hurricane Katrina, it is well known 
that they did not act. Do we need to provide some greater 
cohesion so that the Federal Government can be working more 
effectively together and get people out and save lives. But I 
ask that question in the cut in your seemingly proposed cut in 
the dollars that are going to you this time around.
    Mr. Ehlers. The gentlewoman's time has expired. Please give 
a brief answer.
    Mr. Johnson. Ma'am, we are an important part of the team 
and weather service characterizes the storm and provides that 
accurate timely information. We also pay very much attention to 
the National Hurricane Center that takes that very big picture 
and takes the larger view. The local weather forecast offices 
translate that view into specific local topography, bathymetry, 
and specific events. You know, characterizing, you know, where 
the effects are going to be held. We also in the messages that 
we put out through NOAA weather radio and all of our 
communication techniques and capabilities, emphasize paying 
attention to your local emergency manager because they are an 
important part of the team as well.
    Right now, I am hopeful that the Conference Committee will 
find a good accommodation and take care of the requirements for 
NOAA and the Weather Service and allow us to continue to do the 
job that we are capable of doing.

                           Five-Day Forecasts

    Mr. Ehlers. The gentlewoman's time has expired.
    Question for either one of you, you can decide who is to 
answer. But you have introduced a five-day hurricane track 
prediction, where as I recall last year you were doing three-
day. What has your experience been so far and I am curious why 
do you believe the data has improved sufficiently you can now 
give accurate five-day reports and do you plan to continue to 
do that or have you discovered some weaknesses?
    Mr. Mayfield. Mr. Chairman, we really do listen to our 
users. You know, most coastal states now have a yearly 
hurricane conference. We have a national hurricane conference, 
we have interdepartmental hurricane conference. There are a lot 
of venues that allow customers to, you know, share with us what 
they would like. And that five-day went well into effect here 
in 2003, I believe after a couple of years of testing. And that 
was actually stated as a requirement by the United States Navy. 
And, you know, we cannot produce a product with taxpayer money 
and just give it to a few chosen people. With the public/
private partnership we have when we create our product, we make 
that available to, you know, anyone and everyone.
    The feedback that I have gotten on the five-day has been on 
the most part very positive though the truth is a five-day 
forecast is as accurate as the three-day forecast was just 15 
or so years ago. We put out on our graphical products a cone. 
That cone at the extended periods of four and five days is 
very, very large because we have these large areas. But for 
most people, for the public, the only thing I ask is that if 
you are within that large cone at those extended time periods, 
just start thinking about what you might do if the hurricane 
continued to head toward your community. Most people do not 
need that four- and five-day lead time there but there are some 
users, NASA if the Space Shuttle is on the launch pad or the 
Navy with all their aircraft carriers in Norfolk for example 
and they have to get people back from shore leave and get the 
ships ready and underway and away from the coast before the 
arrival, you know, of high seas and storm force winds. So there 
are some customers who indeed make very good use of that four- 
and five-day forecast.

                         Rebuilding New Orleans

    Mr. Ehlers. And may I ask both of you, do you have any 
involvement in the rebuilding of New Orleans? Are you making 
any recommendations? What is your relationship with the local 
officials on that?
    Mr. Johnson. Sir, NOAA is actively involved in restoration, 
clearing the shipping channels to allow the port to reopen, 
looking at the ecosystems and what needs to be done to restore 
those. Your weather service continues to provide information on 
post-Katrina, the Rita impacts, as well as, the daily forecast 
to all the people who are down there working. And sir, they are 
paying attention to the forecast. So, yes, sir, we are actively 
involved at all levels of NOAA.
    Mr. Ehlers. It would be nice also if you could persuade 
them not to rebuild in areas below sea level but I will leave 
that to your discretion.
    My time has nearly expired. Mr. Davis?
    Mr. Davis. Mr. Chairman, thank you very much for 
recognizing me. I will not make a large speech.
    But I think as we observed what happened with the hurricane 
that came through the gulf, perhaps tells all of us in 
Congress, as well as, those who live in the area and certainly 
NOAA that we need to make a serious visit to the predictions. 
Obviously, the ability that you have and a way to protect those 
who live in an area where the hurricanes often frequent in the 
gulf or other areas in Florida.
    I represent an area that is in Tennessee. Obviously, we get 
a goodness many times from the hurricanes because we get 
rainfall that comes in that helps our farmers have the rainfall 
that is needed. But also coming with those many times are 
tornadoes that are spawned from the high winds and as a result 
of that, we have small footprint of damage and destruction that 
was observed in a large footprint across the gulf--down the 
road would be the wooly warm would be dark on one or the other 
or all the way through would mean a rough winter. The thickness 
on the bark of a tree or where a wasp or a hornet would hang 
their nest, how low in the trees it would be.
    Obviously, we have greatly expanded and improved upon 
predicting the weather and how forceful, how almighty it can 
be, how damaging, and how harmful it can be. And it is my hope 
that those of us who serve in Congress realize that continued 
funding for the predictability of weather that will save lives 
is certainly a homeland security issue to us. I do believe that 
people throughout this nation today have had a taste of the 
damage of the hurricane for a reason. The lesser amongst us who 
lived along the coast in Alabama, Mississippi, and New Orleans 
have been displaced because their economic conditions would not 
permit them to rebuild or did they live in an area where they 
could move to a family. And as a result of that, we have seen 
evacuees throughout this nation be dislodged from their home. I 
do not believe there is a state in this nation that has not 
accepted evacuees. Those who have lost their homes and 
everything that they have and the ability even to survive and 
in many cases, the retirees, their small Social Security check 
that can help them have some means of living in many cases to 
them what would appear to be almost a foreign country moving 
from their home in the gulf inland to states all across this 
nation. I think all of us have felt and have been made aware of 
and can see the damage that has occurred.
    So it is my hope that those of us here in Congress realize 
that it is our responsibility as a nation to be sure that we 
adequately fund the weather predictors which is NOAA and that 
we do not cut dollars in that area. I applaud the efforts, I 
applaud the accuracy of the agency that has provided us with a 
safety net in many cases for those to escape. That happened 
when Rita visited the area of Texas and we saw lesser at least 
personal harm done to those.
    Having said that, I would yield the remainder of my time to 
a Ranking Member with permission from the Chairman to 
Representative Bart Gordon from Tennessee.

                        Communicating With Media

    Mr. Gordon. I thank my friend from Tennessee.
    There is a variety of things that we do not know but I 
think a couple of things that we do know is that it is 
unfortunately inevitable that there will be another catastrophe 
of this magnitude or worse whether it is by force of nature or 
force of man. And the other thing that we know is that on the 
federal, State, and probably local level, our governments did 
not serve us as well as they should and we would hope for them 
to do. So it is important that we look at what went right, look 
at what went wrong, try to make preparations for the future to 
get the wrongs to the right. I think in doing that, it is 
important that we have transparency. I think it is also 
important that we have an independent commission that will 
review the various information and try to make non-partisan, 
non-bias suggestions. But again to do that, it has got to be 
transparent.
    And so I want to get a few things on the record because I 
am confident that in trying to do the right thing we will have 
this independent commission later. So General, if you would, 
let us see, would you put up the memo, please?
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    General, just again, just for the record, I cannot speak to 
the truth or not of this. This was on a blog supposedly leaked 
from NOAA staff. It is concerning a memo that went out on 
Thursday, the 29th of September 2005 from a Jim T-e-e-t, is 
that how you pronounce that, his name?
    Mr. Johnson. I believe so, sir.
    Mr. Gordon. Okay. And you can tell me whether this is 
accurate. ``Good day all. I have been informed that any request 
for an interview with a national media outlet reporter must now 
receive prior approval by DOC, Department of Commerce. Please 
ensure everyone on your staff is aware of this requirement. Any 
request for an interview requires that the following 
information to be forwarded to me immediately so this process 
may begin. The name of the reporter and their affiliation, 
their deadline, the contact number, the name of the individual 
being requested for the interview, the purpose of the 
interview, additional background information about the 
interview subject, and expertise of the requested interviewee 
on the subject. The request will be forwarded through NWS, NOAA 
to DOC. However, the individual to be interviewed ultimately 
will be determined by DOC.''
    Is that an accurate memo?
    Mr. Johnson. Sir, I would say that memo did go out. It is, 
in fact, a----
    Mr. Gordon. That is fine. This was what I wanted to know 
whether that was accurate so it was not just something very----
    Mr. Johnson. No, sir. It is a statement of a long standing 
policy. The term now is an unfortunate choice of----
    Mr. Gordon. I think it is also unfortunate that as we try 
to have transparency and find out what went wrong that 
apparently members of your organization have to go through some 
type of a buffer. I think that is unfortunate, too but let me 
continue to try to get some things on the record here.
    I want to note that we asked on this side for several 
things that we have not been delivered. We have requested for 
the reports in whatever form they may take that are produced by 
NOAA employee who works at the NOAA desk in the Homeland 
Security Operations Center. My understanding is the Department 
of Homeland Security is raising objections to this request as 
are counsel at the department. So I want to deliver a formal 
request for those documents today and they will be given to 
you. Go ahead, Leigh Ann.
    This letter also asks that the department make available to 
our staff the person who was assigned to the HSOC desk so that 
we may interview that person. We asked that earlier but again 
there has been national security objections hinted in the 
refusals. General Johnson, I hope you will do all you can to 
shake these things loose. It is silly to think that there is 
anything referred to in NOAA's work on Hurricane Katrina that 
could in any way compromise national security.
    Further, I ask that two letters be entered into the record. 
I have written to the White House asking for the transcript of 
the HLT briefing the President participated in. I also asked 
for the names of any White House staff who communicated with 
NOAA regarding Katrina.
    In the second letter, you will see that I have asked FEMA 
to release any reports they maintain of the HLT briefing from 
August 27 and August 28. I have not received any sort of 
response to either letter. [See Appendix 2: Additional Material 
for the Record.]
    Now General, my interest is not playing a game of got you. 
It is trying to do legitimate oversight. As we said, this is 
going to happen again in some way or the other. We need to be 
prepared. My wife and daughter live here in the District and I 
suspect that a variety of your employees, maybe your family, 
Members here today have family here. It is very likely that 
this region could be one of those hit with a catastrophe, more 
likely the man kind than the natural kind. So it is very 
important that we again learn our lessons, try to prepare. This 
is a matter of life and death.
    Thank you, General.
    [The information follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                           Concluding Remarks

    Mr. Ehlers. The gentleman's time has more than expired. I 
was generous in giving him extra time because as a Ranking 
Member he is entitled to a closing statement. That may not have 
been a wise decision but we appreciate your efforts to get at 
some of these issues.
    Just a quick question to wrap it up and then I will have a 
closing statement. I would like to ask you is there anything 
that you need from the Congress, anything that the Congress 
could do that would help you do a better job forecasting and 
warning about hurricanes. In other words, do you in your 
experience of the past few years of this, has anything come to 
mind where we are getting in the way rather than helping the 
process?
    Mr. Johnson. Sir, in my opening oral testimony I thanked 
you and the Committee for your support after last year. The 
oral remarks also talked about modeling and observing and we 
can always do a better job. I am anxious for the Air Force to 
get the sensors modified and airplanes up to speed. And I look 
forward to the '06 budget, as well as the other activities that 
can help support us overall. We are very appreciative of what 
you have already done.
    Mr. Ehlers. Thank you.
    Mr. Mayfield, do you have anything to add?
    Mr. Mayfield. No. We certainly appreciate everything that 
you have done. And those buoys that the Congress helped us get 
at the end of last year have been very, very, very useful 
already in several storms and hurricanes already. And we 
certainly will appreciate the additional support here as we 
continue to improve.
    Mr. Ehlers. Well thank you.
    And I would like to just make a few closing comments along 
the lines of Mr. Rohrabacher and Mr. Davis pointing out how far 
we have come. We often neglect that, but I must say as I 
watched this unfold on my own TV screen, I could not help but 
marvel at the changes from my childhood. I grew up on the 
plains of Minnesota and we used to have what we called cyclones 
then not tornadoes. No warning whatsoever. Everyone just 
watched the sky and when it got bad enough, you headed for the 
basement. And sometimes you miscalculated. Some real tragedies 
occurred as a result. Today, we have tremendous warning systems 
for hurricanes, floods, tornadoes and particularly the 
satellites. And we often hear complaints from the public about 
wasting our tax money, et cetera. I think this is a good 
example of good use of tax money. Obviously it costs much, much 
more to run the National Weather Service relatively speaking 
than it did 40 years ago, but I would maintain that investments 
in science such as we are doing in this case have a very good 
rate of return. I am certain that the lives saved even property 
damage averted as a result of the work that you do and that you 
have done not just in forecasting but making us aware of the 
dangers of nature, the tax money has more than paid for itself 
and the extra information provided in particularly in the 
saving of lives. And I think that is a very important point to 
note.
    I also would comment there was some comment made earlier 
about the lack of funding for NOAA and what happens in the 
budget. Unfortunately, NOAA frequently in the past has been the 
target of what we politely here call earmarks in which money is 
diverted from a good cause such as the Weather Service or other 
areas and assigned to some other cause which in the eyes of the 
earmarked is more appropriate and more important. I think it is 
time that the Congress and the Nation wake up and realize NOAA 
is really important. This is not a little pork barrel that 
people can dip into and move the pork somewhere else. The work 
you do is extremely important to the livelihood of our nation, 
particularly in agriculture and shipping but in other ways as 
well and we certainly appreciate what you have done.
    I hope that the new satellites we are putting up are going 
to help you even more and do a better job. The new 
supercomputers which this committee has initiated the funding 
for will help you do a more accurate reporting and forecasting. 
I think if you hold a similar hearing ten years from now, I do 
not expect to be here but I am sure that my successors will 
find even more astonishing results and even better forecasting 
in the future.
    So I want to thank you for being here today, for testifying 
before the Committee. It has been a highly educational hearing. 
And you have given this committee a lot to consider about the 
role of NOAA in hurricane prediction. If there is no objection, 
the record will remain open for additional statements from the 
Members and for answers to any follow up questions the 
Committee may ask of the panelists. Without objection so 
ordered. The hearing is now adjourned.
    [Whereupon, at 12:30 p.m., the Committee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Brigadier General David L. Johnson (ret.), Assistant 
        Administrator for Weather Services; Director, The National 
        Weather Service, National Oceanic and Atmospheric 
        Administration, U.S. Department of Commerce

Questions submitted by the Majority

Q1.  What are the various notification systems the National Weather 
Service uses to disseminate weather warnings and information? For each 
notification system, please explain how Federal, State and local 
government officials receive the information. For each level of 
government (Federal, State and local), please explain how the National 
Weather Service (including its local weather forecast offices) confirms 
that government officials received emergency messages. Do these 
procedures change in case of an ``incident of national significance'' 
declared by the Department of Homeland Security?

A1. National Weather Service (NWS) warnings are distributed through a 
vast dissemination network. These systems include NOAA Weather Radio 
All Hazards (NWR), which can reach anyone in the area who has a NWR 
receiver; NOAA Weather Wire Service; Emergency Managers Weather 
Information Network (EMWIN); Internet; local paging systems to 
emergency managers; high-speed direct communications with users of 
large volumes of weather data (i.e., commercial meteorological firms) 
connected by landlines (Family of Services), by satellite broadcasts 
(NOAAPORT), or both. The media uses one or more of these feeds to 
receive the information and then rebroadcast it. Federal, State, and 
local officials typically receive weather warnings and information from 
different combinations of the above systems. Some officials also obtain 
information from the private sector.
    These dissemination systems do not have a mechanism in place to 
verify the user received the message. However, each state emergency 
operations center has a direct feed from the NOAA Weather Wire Service, 
paid for by the NWS, to help ensure NWS warnings and other information 
are received by emergency managers. The State emergency managers then 
redistribute the data and information, as appropriate, to local 
emergency managers. Government officials also typically receive 
messages from several systems (listed above). During major weather 
situations, many NWS offices or regional headquarters send a 
meteorologist to State emergency operations centers, or place phone 
calls to these centers to ensure emergency managers have the most 
current information and interpretation possible.
    These procedures do not change for an ``incident of national 
significance.''

Q2.  For each notification system described in the answer to question 
one, please explain how often the National Weather Service and its 
local forecast offices test the systems to make sure they are working. 
Are the notification systems redundant to such a degree that no 
significant communications capability would be lost if any one of the 
notification systems fails to function during a severe weather event?

A2. Each local weather forecast office tests the NOAA Weather Radio All 
Hazards (NWR) Network in its local area once a week to ensure the 
system is operating. Other dissemination systems are monitored 
continuously at the National Weather Service Telecommunication Gateway 
and any communications outages are addressed immediately.
    If a NWR transmitter becomes inoperable, messages are not 
transmitted to the NWR receivers. NOAA is working to further increase 
the reliability of NOAA Weather Radio All Hazards (NWR) transmitters to 
allow operation in adverse conditions, when normal communications 
systems can fail. Nearly $5M in funding provided to NOAA in the FY 2006 
hurricane supplemental will be used to provide backup electrical power 
for NOAA Weather Radios and Automated Surface Observing Sites in 
coastal areas. Not only is NWR network reliability important, 
increasing the number of individuals who own NWR receivers is also 
critical. NOAA works with the private sector to promote the use of NWR 
receivers and recently worked with FEMA and the Department of Education 
to distribute 16,000 NOAA Weather Radios to public schools across the 
country. Also, with $1M in additional funding provided in the 
supplemental, NOAA will expand the NWS Weather Wire Satellite 
Communication System to improve communications capability at coastal 
Weather Forecast Offices for timely transmission of weather warnings to 
the public and the media.
    One benefit of having multiple dissemination systems is redundancy. 
If one method is non-operational, others still disseminate important 
information. However, this strategy is successful only when recipients 
have access to multiple dissemination systems. Redundancy is one of the 
items stressed in the National Weather Service StormReady program, to 
ensure communities and emergency managers can receive warnings and 
information different ways. Communities can receive NWS and emergency 
messages through NWS dissemination systems which include NOAA Weather 
Radio All Hazards (NWR), which can reach anyone in the area who has a 
NWR receiver; NOAA Weather Wire Service; Emergency Managers Weather 
Information Network (EMWIN); Internet; local paging systems to 
emergency managers; and via commercial meteorological or communication 
(e.g., phone) companies.

Q3.  What are NOAA's back-up procedures during severe storms if a 
radar, buoy, or entire local weather forecast office is destroyed or 
cannot communicate? Please explain the circumstances that would trigger 
back-up procedures. Were any back-up procedures triggered during 
Hurricanes Katrina or Rita? If so, please explain what happened and 
what NOAA is doing to fix any damage.

A3. The National Weather Service (NWS) has robust backup procedures in 
place to ensure continuity of operations. The NWS radar network was 
designed to provide radar coverage for the contiguous United States to 
ensure radar coverage for severe weather, including hurricanes. Should 
a radar fail, adjacent radar stations and other observation systems 
provide sufficient coverage. Other observation systems, such as 
satellites and surface observation stations, provide a sufficient level 
of coverage to assist meteorologists in the forecast and warning 
function. NOAA operated WSR-88D radars have an operational availability 
of 99.1 percent.
    NOAA/NWS recently added connection to four Federal Aviation 
Administration Terminal Doppler Weather Radars--Orlando, FL; West Palm 
Beach, FL; New Orleans, LA; and Houston, TX--in hurricane-prone areas 
as another mechanism to ensure weather radar data are available to 
forecasters. During both Hurricanes Katrina and Rita all radars 
remained operational, providing data to the local weather forecast 
offices.
    NOAA/NWS buoys have redundant wind sensors and barometers that 
provide data if the primary instrument fails. Several of the large 
buoys, including three in the Gulf of Mexico and the seven new buoys 
deployed with FY04 Hurricane Supplemental funds have a complete second 
operational system on board that serves as a back-up. Should a buoy 
suffer catastrophic damage, which rarely occurs, NOAA maintains a 
network of large buoys which provide some overlapping coverage. 
Further, other weather observation systems (for example satellites and 
hurricane reconnaissance flights) also provide coverage. Repairing 
buoys is a high priority but depends on ship availability. NOAA fixes 
damaged buoys within the Atlantic Hurricane Basin as quickly as 
possible, usually within a few months. NOAA/NWS can also provide manual 
backup should an automated surface observing system fail at a Weather 
Forecast Office (WFO) or major airport.
    During Hurricane Katrina, the NWS implemented backup coverage for 
the New Orleans, Louisiana; Lake Charles, Louisiana; and Jackson, 
Mississippi offices when communications to and from the offices were 
lost due to an MCI/communications backbone failure. The FY 2006 
Hurricane Katrina/Rita Emergency Supplemental provides NOAA $1M to 
improve (harden) hurricane-prone WFOs communication capabilities via 
backup satellite communications. The NWS offices in Mobile, Alabama; 
Houston, Texas; and Huntsville, Alabama assumed forecast and warning 
responsibility for the area normally covered by the New Orleans, Lake 
Charles, and Jackson offices, respectively. During Hurricane Rita, the 
NWS implemented backup operations for the Lake Charles, Louisiana WFO 
when the office lost its communications just after landfall. The backup 
service was provided by the WFO in Houston, Texas.

Q4.  In your testimony you mentioned that at the end of each hurricane 
season NOAA leads a ``hot wash'' to review all of its hurricane 
procedures with emergency managers and weather forecasters. Please 
provide the following information about the annual hot wash:

Q4a.  Who from Federal, State, and local government agencies 
participates in the annual hot wash? Who from the private sector 
participates? Do you solicit input and/or participation from non-
governmental organizations and the public?

Q4b.  What is the process for selecting participants?

Q4c.  What is the process for reviewing and prioritizing 
recommendations that result from the hot wash?

Q4d.  What is the process for providing resources, if needed, for 
implementing priority recommendations?

Q4e.  What ``hot wash'' recommendations were made in the last three 
years? Which of these recommendations have been implemented and which 
have not been implemented? If applicable, please explain why 
recommendations were not implemented.

A4a,b,c,d,e. Answer: The ``hot wash'' (a colloquialism for a series of 
agency-directed reviews) is a review and analysis of the past hurricane 
season and occurs on many levels. The first is an internal NOAA 
examination of operations and procedures to see what went well and 
where improvements could be made. The second is the Interdepartmental 
Hurricane Conference, an internal Federal Government review, which 
includes NOAA, the Department of Defense, the Federal Emergency 
Management Agency, NASA, the National Science Foundation, and others. 
And finally, a National Hurricane Conference is conducted which 
includes all levels of government, as well as emergency managers, 
private sector meteorologists, and media representatives. Participation 
in the National Hurricane Conference is open to everyone. Local Weather 
Forecast Offices also conduct more informal analyses of hurricane 
operations and work with their local emergency management counterparts 
to identify best practices and where improvements in the overall 
hurricane program can be made.
    Attached are summaries of the recommendations from the NOAA review 
and the Federal Government review for the past three years (included as 
Appendix 1 and 2, respectively). It is a high priority for NOAA and the 
NWS to implement as many of the recommendations as possible for the 
next hurricane season using existing resources and follow normal 
funding request procedures if necessary.

Q5.  Is the ability to forecast marine wave height and wind speed 
important for predicting storm surge and inland flooding? If so, please 
explain why. What are the current capabilities of NOAA to forecast 
marine wave height and wind speed? Does NOAA require additional 
observational equipment to improve wave forecasts?

A5. Storm surge predictions are based on the size of the storm, the 
strength of the winds and the bathymetry of the ocean. Predicting the 
size and strength of the storm remains most critical to storm surge 
prediction. Winds push water ahead of the storm, causing the water 
level to rise along the shoreline. The stronger the wind and the larger 
the wind field, the larger the storm surge will be. Waves are also 
driven by surface wind speed. NOAA's operational numerical computer 
wave model (WAVEWATCH) provides predictions of wave height for NOAA 
forecasters to use as they prepare storm surge forecasts. Wave 
predictions from the WAVEWATCH model at 24 hours are accurate to within 
about 11/4 feet during the summer and about 21/2 feet on average during 
the stormy winter months. The WAVEWATCH model will eventually be 
coupled to the Hurricane Weather Research and Forecasting Model to 
provide an advanced storm surge model. Battering coastal waves also 
push water up along the coastline. In fact, the battering waves that 
were on top of the storm surge were responsible for the extensive 
damage along North Carolina during Isabel and the catastrophic damage 
along the Northern Gulf of Mexico coastline during Katrina. $2.5M was 
provided in the FY 2006 hurricane supplemental to accelerate storm 
surge forecasting, which includes improvements to the Sea Lake and 
Overland Surges from Hurricanes (SLOSH) model.
    Additional observations, such as those planned under the Global 
Environmental Observation System of Systems (GEOSS), will help improve 
model predictions. NOAA is working with the National Aeronautics and 
Space Administration to develop new observing technologies, such as a 
scanning radar altimeter. When flown on the NOAA P-3 aircraft, this new 
technology can provide valuable information as was demonstrated during 
Hurricane Rita. Data from the instrument were used to help measure 
significant wave height and transmit that information directly the 
National Hurricane Center.
    Inland flooding associated with hurricanes is generally due to 
freshwater flooding from hurricane-related rainfall, not wind driven 
storm surge or waves. With funding provided in the FY 2006 hurricane 
supplemental ($2.5M), we are accelerating the development of new 
localized flood-forecast products and services for hurricane-prone 
states.

Q6.  What is the status of all marine buoys in the Caribbean and Gulf 
of Mexico? According to an article in the Miami Herald on October 9, 
2005, the National Hurricane Center needs 13 additional marine buoys 
($250,000/buoy) to improve its hurricane forecasts. Why has NOAA not 
requested funding for additional buoys?

A6. All of the marine buoys in the Caribbean and Gulf of Mexico are 
operational. NOAA used funding from the Military Construction 
Appropriations and Emergency Hurricane Supplemental Appropriations Act, 
2005 (P.L. 108-324) to deploy seven buoys in the Gulf of Mexico, 
Caribbean Sea and Atlantic Ocean. These buoys provided critical data to 
help forecasters accurately track and predict the intensity and path of 
hurricanes during the 2005 hurricane season. With incorporation of the 
eight buoys provided in the FY 2006 hurricane supplemental, NOAA 
believes the current configuration is adequate. Additional 
observations, are also being planned under the Global Earth Observation 
System of Systems (GEOSS) to further improve predictions.

Q7.  According to an article in the Miami Herald on October 9, 2005, 
older dropwindsondes fail at least half the time in strong winds but it 
would only cost $1 million to fully upgrade to newer, more resilient 
dropwindsondes. What are the failure rates for old and new 
dropwindsondes in high winds? When will NOAA's old supply of 
dropwindsondes be depleted such that the agency will only rely on newer 
dropwindsondes? If NOAA has known that it would only take $1 million to 
upgrade the dropwindsondes, why didn't NOAA fix this problem sooner?

A7. Failure of older dropsondes in high winds occurs primarily in the 
very lowest level winds (about 500 feet altitude), when wind speeds 
exceeded 100-112 miles per hour. NOAA worked with the National Center 
for Atmospheric Research and the Air Force Reserve Command to test an 
updated dropsonde in 2004 that performed more reliably in these high 
wind situations. These new dropsondes were mass produced by the primary 
vendor (Vaisala) and used for most of the 2005 hurricane season. 
Preliminary indications are that the new dropsondes performed in 2005 
as well as they did in the tests in 2004, with no failures reported in 
high winds. However, we are still evaluating their performance to 
ascertain whether these new dropsondes have any limitations of their 
own. NOAA has only 220 of the older dropsondes in stock which will be 
used before the next hurricane season.

Q8.  For the past five years, what is the annual number of Doppler 
radar failures due to lightning strikes? Where did these failures occur 
geographically? What is the justification for not pursuing the $3.5 
million fiber optic solution for protecting Doppler radars from 
lightning strikes? What lightning protection projects has NOAA 
completed or is NOAA planning to complete in lieu of the fiber optic 
solution? What has been or is predicted to be the cost of those 
projects?

A8. On average, 25 of 158 operational WSR-88D radar systems have been 
damaged, apparently due to lightning strikes, annually during the last 
five years (17 in 2005; 33 in 2004; 27 in 2003; 34 in 2002; and 12 in 
2001). Radars in all areas of the contiguous United States have 
received lightning damage; this type of damage is not any more or less 
prevalent in any one geographical location. Radar towers are usually 
the tallest structure in the local area, making them a likely target 
for lightning strikes. NOAA operated WSR-88D radars have an operational 
availability of 99.1 percent. The average time to repair a radar is 
about 6.5 hours.
    Recognizing early in the program that radars are susceptible to 
lightning strikes, NOAA/NWS took aggressive action to make the radars 
more robust. We focused on actions that would have the most immediate 
and largest payback. NOAA/NWS has completed several lightning 
mitigating projects as part of sustaining engineering and retrofit 
actions:

        (1)  Stocking lightning sensitive spare parts at field sites 
        and in a ``lightning kit'' maintained at our logistics centers, 
        to reduce radar down time due to awaiting parts delivery.

        (2)  A retrofit of the grounding grid at radar sites in 1993-
        1998 ($1.9 million) greatly reduced lightning susceptibility 
        and reduced the number of lightning-damaged radar parts by an 
        estimated 50 percent.

        (3)  Surge protection devices were added to the radar shelters 
        in three different projects ($732,000).

        (4)  Replacement of aging copper communication lines with fiber 
        optic communication lines which are less susceptible to 
        lightning damage/interruption in 2004-2005 ($1.6 million).

        (5)  Preventative maintenance inspections have been refined to 
        mitigate lightning impacts.

        (6)  Depot-level engineering visits to the occasional sites 
        that appear to have an unusual susceptibility to lightning have 
        corrected a number of small issues and subsequently reduced the 
        occurrences of lightning induced damage. A visit of this type 
        was conducted at the Miami WSR-88D last year after we noticed 
        an anomalously high number of lightning failures. Since the 
        engineering team visit, there have been no lightning failures.

        (7)  Transition power maintenance systems were installed in 
        1998-2003 ($45.3 million). These systems enable the ``ride 
        through'' of commercial power outages until engine generator 
        power becomes available and they condition the commercial power 
        to eliminate ``spikes'' due to nearby lightning strikes. These 
        features reduce the likelihood of lightning induced radar 
        damage.

        (8)  A National Severe Storm Laboratory study in 2000 showed 
        the current radome lightning rod configuration is the most 
        effective design.

    These initiatives have been very effective and made the radars more 
resilient under lightning conditions. It is important to note that it 
is not possible to make the radars lightning proof against a direct 
strike. However, we are taking all steps necessary to mitigate the 
effects of lightning. On those occasions when radars fail due to a 
direct lightning strike, the adjacent radars are positioned to provide 
backup coverage.

Q9.  Please provide a funding history, including number of full-time 
employees, for the Hurricane Research Division for the past twenty 
years.

A9. The first table below summarizes the funding history of the 
Hurricane Research Division for the past twenty years. Non-base support 
includes other NOAA support received through funded proposals to 
Hurricane Research Division scientists through projects such as the 
Joint Hurricane Testbed. Non-base support also includes extramural 
support from other federal agencies, including the National Aeronautics 
and Space Administration and the Federal Emergency Management Agency. 
The second table summarizes Hurricane Research Division staff history 
broken into FTEs and cooperative institute (CI)/contract personnel.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    NOAA conducts hurricane research not only at HRD, but also at its 
Geophysical Fluid Dynamics Laboratory and Environmental Modeling 
Center. Through its hurricane research program, NOAA develops new 
technologies for observing hurricanes, further improves its models for 
predicting hurricane track and intensity, and provides critical 
assistance to forecasters at the National Hurricane Center. All 
together, these efforts resulted in the vast track improvements over 
the past 20 years.

Q10.  According to an article in the Miami Herald on October 10, 2005, 
Hurricane Research Division scientists use sensors called Airborne 
Expendable Bathythermographs to measure the temperature of the ocean 
down to 1,000 feet. But, researchers can't get the data to forecasters 
because they need to develop software to use the data (estimated 
software cost is $200,000). Is this characterization accurate, and if 
so, why has NOAA not provided the funding for the software development?

A10. The October 10, 2005 Miami Herald article is correct per se, in 
that software needs to be developed to get the data to forecasters; 
however the article is inaccurate in its implication that NOAA has 
neglected to fund software development as there is no current 
operational requirement for the observations/data from the ocean 
probes. The ocean probes used were acquired from the Navy surplus by 
the Hurricane Research Division (HRD) for use in research missions. The 
HRD maintains software to process and quality-control these data for 
research purposes. After these data are collected and processed for 
quality control, they are sent to NOAA's operational modeling center to 
determine utility of the data.

Q11.  When does NOAA plan to completely upgrade all 102 stations in the 
weather balloon observation network? What is the failure rate for 
weather balloons and what could be done to reduce the failure rate?

A11. NOAA oversees 102 upper air stations in the United States and 
throughout the Caribbean. Our FY 2006 operating plan supports the 
upgrade of 78 of those sites, which are scheduled to be upgraded by the 
end of Fiscal Year 2010.
    During the period of October 2004 through October 2005, 98 percent 
of launches have reached the minimum successful height of 400 hecto 
Pascals* (standard is 90 percent), and 66 percent of launches have 
reached 10 hecto Pascals* (standard is 60 percent). The system is 
meeting the NWS performance requirements. (*Hecto Pascals is a standard 
of pressure measurement used by the National Weather Service. At 10 
hecto Pascals, the balloon is at a height of approximately 100,000 
feet.)

Q12.  NOAA has acknowledged that some hurricane research software still 
runs on old computers because the software has not been converted to 
run on newer machines. Are there plans to update the software to run on 
newer computers? If so, when will that update be completed? If not, why 
not?

A12. The Hurricane Research Division manages a 4-5 year information 
technology (IT) strategy to upgrade and replace all IT equipment in 
order to meet NOAA's IT security requirements. NOAA completed the third 
year of this strategy in 2005 and we have replaced or upgraded our 
complete network infrastructure, most of our servers, and 67 percent of 
our desktop computers. Our strategy calls for completion of the server 
and desktop upgrades in 2006, and completing the software update in 
2007. All of our processing software runs on our recently upgraded UNIX 
servers, and we currently are upgrading some of the software that will 
run on the aircraft to process and quality control observations in real 
time to run under LINUX (Aircraft Operations Center's preferred 
operating system). Last year, the Aircraft Operations Center provided a 
LINUX server for HRD to use and we are purchasing a new LINUX server 
this year to accommodate this transition. NOAA is working to streamline 
and upgrade the SATCOM data transfer from the aircraft to the ground as 
part of our strategy to provide more data from the aircraft to our 
operational partners. As part of this upgrade we are working to define 
requirements for data transfer and quality control of the data to 
ensure the IT infrastructure on the aircraft meet all NOAA's needs.

Questions submitted by the Minority

Q1.  For Hurricane Katrina, the weather forecasting offices that were 
in the main path of the hurricane were the New Orleans forecast office 
in Slidell, LA; the Mobile forecast office in Mobile, AL; Jackson, MS; 
and Lake Charles, LA. For Hurricane Rita, Houston, TX and Lake Charles, 
LA were in the main path of the storm.

     According to NOAA's daily Incident Coordination Center reports for 
Katrina, at least four other local offices were at-the-ready or engaged 
to provide backup for these offices--Shreveport, LA; Huntsville, AL; 
Houston, TX; and Tallahassee, FL. For Rita, it appeared to be the Fort 
Worth, TX WFO acting as the backup office.

     The Southern Region Headquarters also provided additional 
personnel to the local forecast offices, the State emergency operations 
centers, and coordinated the backup plan and response for the offices 
in the hurricane path.

     It appears NWS met its goal of maintaining continuity of weather 
forecasting capabilities overall for the affected areas during these 
hurricanes even as some of the local offices were experiencing 
communication and other equipment failure problems. It appears NWS had 
a good internal preparation and response plan.

     What is your assessment of the performance of the NWS internal 
preparation and response plan for these storms? What changes, if any, 
are you considering to further improve the procedures for maintaining 
continuous NWS forecasting capabilities during hurricanes? What is the 
current status of the impacted NOAA offices and equipment damaged by 
these two storms?

A1. The National Weather Service (NWS) plans for continuity of forecast 
and warning operations worked well during Hurricane Katrina. Our 
procedures worked well but we are working to address some technical 
issues, such as phone line failures, to make these systems even more 
robust during natural disasters.
    The National Data Buoy Center (NWS), the National Coastal Data 
Development Center (NESDIS), and the National Marine Fisheries Service 
(NMFS) laboratory located at John C. Stennis Space Center in Bay St. 
Louis, MS, sustained damage. The NWS Weather Forecast Office (WFO) in 
Slidell, LA, was constructed to be able to withstand a Category 3 
hurricane (with an internal room able to withstand a Category 5), and 
sustained minimal damage from the storm. Power and communications were 
quickly restored to the facility. NWS WFOs in Mobile, Lake Charles, and 
Houston provided backup forecast and warning services while 
communications were compromised.
    Additional NOAA facilities/equipment which sustained damages 
include the NMFS lab in Pascagoula, MS, and the Office of Marine and 
Aviation Operations (OMAO) port office and warehouse, personal offices 
co-located at Halter Marine, and the NOAA ship, OREGON 11, all located 
in Pascagoula. Also, two NOAA lab facilities in Miami, FL, sustained 
damage and two National Water Level Observation Network (NWLON) 
stations are being replaced.
    Ten NWS Automated Surface Observing Systems (ASOS) were impacted by 
Katrina, mainly by loss of communications or power. Two systems were 
destroyed; two systems sustained damage and continue to have 
intermittent communications and power problems. The Doppler radar at 
Slidell remained operational throughout the storm. Once communication 
was restored, data were available to all users. Five buoys and four 
Coastal Marine Automated Network (C-MAN) stations were damaged or 
destroyed by the two storms. The buoys and one of the C-MAN stations 
have been repaired. The offshore platforms containing the other three 
C-MAN stations were demolished, and will be repaired. The FY 2006 
Hurricane Katrina Supplemental provides funding to repair or replace 
the ASOS and C-MAN stations that remain down. We are currently awaiting 
local infrastructure restoration (restoration of commercial power and 
communications to the area) before we can address these repairs.

Q2.  How does the declaration of an Incident of National Significance 
by the Secretary of the Department of Homeland Security (DHS) change 
the operations of the National Weather Service with respect to regional 
forecasting, participation in HLT conference calls, local forecasting 
or the other standard operations of NWS for a hurricane?

     How does the flow of information between NOAA and the Homeland 
Security Operations Center (HSOC) at DHS change if an Incident of 
National Significance is declared for a hurricane?

A2. The operations of National Weather Service (NWS) units do not 
change when an Incident of National Significance is declared. Our 
operation procedures are designed to ``automatically'' include incident 
escalation. NOAA/NWS responds to similar situations whenever a 
thunderstorm becomes severe or produces a tornado, or when a strong 
winter storm develops. To keep up with the latest information, the NOAA 
Watch Desk at the Homeland Security Operations Center (HSOC) 
coordinates closely with the NOAA Incident Coordination Center (NOAA 
ICC) or the appropriate NWS Regional Operations Center. Important 
products such as watches, warnings and advisories especially for 
significant meteorological events such as tornadoes, flash floods, and 
blizzards--are automatically routed directly from the main NWS 
communications center, the NWS Telecommunication Gateway, and 
transmitted via e-mail to the NOAA Watch Desk. Additionally, for a 
selected group of these products, such as tornado warnings, flash flood 
warnings, hurricane forecasts and statements, information is sent 
directly to the Department of Homeland Security Senior Watch Officer in 
the HSOC.

Q3.  The Slidell office managed to get a flash flood message out about 
the levee breach in New Orleans at 8:14 am Central Daylight Time the 
morning Hurricane Katrina made landfall. The office lost its 
communication capability a short time later.

     The top of the Bulletin has a line that reads: EAS Activation 
Requested. What action does that request set into motion?

     What systems would transmit this message and who would receive a 
flash flood message of this type (e.g., the Emergency Operations Center 
in Baton Rouge; the Region VI FEMA office; NWS Southern Regional 
Headquarters)? Please trace the path of this message.

A3. Transmitting the message ``EAS Activation Requested'' initiates the 
Emergency Alert System. The Emergency Alert System (EAS) is designed to 
provide the President with a means to address the American people in 
the event of a national emergency. Through the EAS, the President would 
have access to thousands of broadcast stations, cable systems, and 
participating satellite programmers to transmit a message to the 
public. The EAS and its predecessors, CONELRAD and the Emergency 
Broadcast System (EBS), have never been activated for this purpose. But 
beginning in 1963, the President permitted State and local level 
emergency information to be transmitted using the EBS (now EAS).
    Once activated, the EAS, depending on the message, generates tone 
alerts on radio stations, crawls or programming interruptions for 
television broadcasts, and immediate retransmissions by 
``intermediaries'' (e.g., private weather companies, television 
stations, web-based organizations, etc.) to cell phones, e-mail 
messages, Internet notifications, etc. The message is also immediately 
broadcast on NOAA Weather Radio All Hazards (NWR). State Emergency 
Operations Centers are equipped to receive these warning messages 
through various methods, including NWR, Internet, Emergency Managers 
Information Network (EMIN), and NOAA Weather Wire Service (NWWS). 
NOAA's responsibility is complete once the message is transmitted; we 
do not verify receipt of transmission.
    The flash flood warning message was transmitted by the Slidell 
Weather Forecast Office and routed immediately onto NOAA Weather Radio. 
From there, the Emergency Alert System was activated, with the message 
and EAS activation request reaching media within seconds. The message 
was also transmitted through all other NWS dissemination systems, 
including NOAA Weather Wire Service (NWWS), Emergency Managers Weather 
Information Network (EMIN), NOAAPORT, Internet, Family of Services, and 
others.

Questions submitted by Representative Eddie Bernice Johnson

Q1.  What role does NOAA play in providing information to the Army 
Corps of Engineers regarding the potential and magnitude of flooding 
and storm surge that would factor into setting construction standards 
for the New Orleans levee system? How often is this information 
updated?

A1. NOAA's National Weather Service (NWS) runs the SLOSH (Sea, Lake, 
and Overland Surges from Hurricanes) model in simulation studies to 
estimate potential hurricane storm surge flooding. This work is done as 
part of comprehensive hurricane evacuation planning. Data from these 
model simulation studies are used, in addition to other relevant 
information, to develop evacuation plans. NOAA/NWS also runs the SLOSH 
model for post-storm analysis, using the exact track of the storm, to 
help assess storm impacts.
    The U.S. Army Corps of Engineers (USACE) and FEMA are the primary 
Federal agencies providing funding for these SLOSH simulation studies. 
NOAA is responsible for running the simulations. The Atlantic and Gulf 
coastlines of the United States, from Texas to Maine, can be divided 
into 41 geographic regions, or basins. SLOSH updates are generated for 
each of the 41 basins, including the New Orleans area, according to a 
list of priorities established by the Interagency Coordinating 
Committee on Hurricanes (ICCOH), of which the USACE, FEMA, and NOAA are 
members. The ICCOH determines when the SLOSH model studies are updated, 
and makes the request to NOAA. These NOAA simulations are used 
primarily for evacuation studies and planning. NOAA conducted SLOSH 
model simulation studies for the New Orleans area in 1989, 1994, and 
2002. These studies are not done on a scheduled basis, but when levee 
data or upgrades to the storm surge model physics warrant, and as 
resources permit. SLOSH is used primarily by the USACE to support 
evacuation studies and emergency response activities.
    For engineering studies and flood protection structure design the 
USACE uses NOAA wind fields and other storm meteorological data as well 
as bathymetric map products to drive high resolution storm surge and 
wave models.
    At the request of the U.S. Army Corps of Engineers, NOAA's Office 
of Oceanic and Atmospheric Research provides post-storm analysis of 
wind fields to assist USACE post-storm analysis of storm surge modeling 
and impact.

Appendix I

  Federal Interdepartmental Hurricane Conference (IHC) Recommendations

57th IHC ACTION ITEMS (2002)

Recommendation: Amend NHOP to carry Internet address. Implemented.

Recommendation: Amend NHOP to reflect changes in tropical cyclone 
breakpoints. Implemented.

Recommendation: Amend NHOP Appendices H and I when information is 
received from NOAA/NWS. Implemented.

Recommendation: Amend appropriate sections of NHOP to reflect forecasts 
extended to five days. Implemented.

Recommendation: Delete section A.1.7 of the NHOP. Implemented.

Recommendation: Add to Appendix L--Glossary section of NHOP. 
Implemented.

Recommendation: NOAA/NWS will provide OFCM further details. Add product 
to appropriate section of NHOP. Implemented.

Recommendation: The name Isidore be retired and suggest replacement 
names Irving, Icaro, or Ike. Recommend the name Lili be retired and 
suggest replacement names Lucy, Laura, or Lisette. Recommend the name 
Kenna be retired and suggest replacement names Karina, Katherin, or 
Kayla. IHC to forward suggestions to the RA-IV Hurricane Committee. 
Implemented.

Recommendation: Update NHOP to reflect changes by AFWA. Implemented.

Recommendation: Amend NHOP to reflect changes from 53 WRS. Implemented.

58th IHC ACTION ITEMS (2003)

Recommendation: Amend the NHOP to add the GPS dropwindsonde splash time 
to the TEMP DROP 62626 section. Implemented.

Recommendation: Amend NHOP for deployment of drifting buoys. 
Implemented.

Recommendation: Amend NHOP to reflect replacement names for retired 
storm names Fabian, Isabel, Juan and Lili. Implemented.

Recommendation: Ask the Navy to run the GFDN at 0, 6, 12, and 18Z out 
to 126 hours. Implemented--FNMOC will increase the run frequency and 
extend the forecast period of the GFDN, resources permitting.

Recommendation: Amend the 2004 NHOP to include approved recommended 
changes from 53 WRS. Implemented.

59th IHC ACTION ITEMS (2004)

Recommendation: Have at least one of the two P-3s operationally 
configured and available to respond within 24 hours to reconnaissance 
taskings from 1 June through 30 November. The minimum operational 
configuration for the P-3 includes the SFMR and the Airborne Vertical 
Atmosphere Profiling System. Modify the 2005 National Hurricane 
Operations Plan accordingly. Implemented.

Recommendation: Retire storm names Charley, Frances, Ivan, and Jeanne. 
Implemented.

Recommendation: Ask SAB to continue to provide Dvorak satellite 
classifications for tropical weather systems in the Atlantic, eastern 
and central north Pacific basins. Implemented

Recommendation: Correct NHOP. Implemented.

Recommendation: Make the appropriate changes to NHOP section 5.5.4 to 
allow the NRL P-3 to operate jointly with the other aircraft in the 
effected airspace. Implemented.

Recommendation: Revise the Memorandum of Agreement (MOA) in the NHOP 
Appendix F, as needed, to reflect changes in agency contacts and 
approving officials for 2005. Implemented.

Recommendation: Update NHOP Table 6-2 and Appendices I and K. 
Implemented.

Recommendation: During the 2005 Atlantic Hurricane Season, UBLOX 
dropsondes are to be used in the eyewall of intense (Cat. 3-5) 
hurricanes and in drop locations adjacent to land on any reconnaissance 
or surveillance flights. GPS121 dropsondes should be used elsewhere to 
deplete the current inventory of these sondes before becoming obsolete. 
Adopted--Coordination is ongoing between TPC/HRD/AOC/53 WRS.

Recommendation: The OFCM should facilitate the identification of 
engineering support necessary design, testing and replacement of 
components of the GPS dropsonde. Action--The OFCM will facilitate the 
development of an implementation strategy to pursue the development and 
procurement of the next-generation dropwindsonde.

OPEN ACTION ITEM (from 56th IHC)

Recommendation: Amend Section 3.3 of the NHOP to reflect designation of 
tropical and subtropical cyclones. Implemented.

Appendix 2

              NOAA 2003 Hurricane Conference Action Items

Recommendation: Add the GPS dropwindsonde splash time to the TEMP DROP 
62626 section. Implemented.

Recommendation: Identify simplest mechanisms to get P-3 the data to the 
GTS. Implemented.

Recommendation: Attendees to make decisions regarding Tropical Cyclone 
Wind Team for: what type of 34-, 50-, and 64-kt wind distribution 
should be represented for tropical depressions, tropical storms, and 
hurricanes; whether a wind team is needed, and whether the team charter 
should be continued and why. Implemented.

Recommendation: Include three- to five-day tropical cyclone information 
in the Offshore Waters Forecasts. Implemented.

Recommendation: NWS grids need to be consistent between coastal WFOs 
and OPC. Implemented.

Recommendation: WFOs need to ensure consistent information when re-
issuing NHC products. Implemented.

Recommendation: Rerun the SLOSH model ``MOMs'' using larger storm wind 
fields, farther west tracks, climatologically curved tracks, and for 
time periods that extend well beyond the storm center's passage. 
Implemented.

Recommendation: Redo the PC SLOSH version of the Chesapeake Basin used 
by WFOs with these modifications. Implemented.

Recommendation: Make storm specific SLOSH output available to the field 
offices 24 hours prior to landfall. Output from several runs with 
tracks both to the left and right of the official forecast track, and 
perhaps of different categories, would be valuable. Implemented.

Recommendation: Allow WFOs to run storm specific surge models locally. 
Not Implemented--Computer resources not available locally, and 
differing solutions could hamper preparedness actions.

Recommendation: Work in partnership with the academic sector to develop 
a more sophisticated storm surge model. Implemented.

Recommendation: Work in partnership with the academic sector to develop 
probabilistic methods of displaying storm surge forecasts. Implemented.

Recommendation: Work in partnership with the academic sector to develop 
high resolution storm surge inundation mapping. Implemented.

Recommendation: When forecasting positions over land, decay the winds 
according to model guidance. Implemented.

Recommendation: Reword Section 6.1.1 of NWSI 10-601 to clarify 
requirements of offices designated as ``inland'' by regions, for 
issuing and updating NPWs for Inland Tropical Storm/Hurricane Watch/
Warnings. Implemented.

Recommendation: An automated solution needs to be found so all approved 
break points are handled by the NHC software and so in the future, it 
correctly plots watches and warnings affecting the Chesapeake Bay area 
on the NHC Web site. Implemented.

Recommendation: Develop a method for allowing local offices to correct 
erroneous tropical issuances, bearing in mind this includes web based 
products. Will be Implemented--Awaiting AWIPS software build to 
establish a national standard map and removal process by product 
cancellation.

Recommendation: NWS internet software should use FFA to paint flood 
watch maps and NPW to correctly plot wind warnings/advisories during 
tropical weather. A product should be developed to correctly plot 
tropical weather flags. This would also solve the problem of automated 
NOAA Weather Radio dissemination. Implemented, with modifications to 
use other products at this time.

Recommendation: Could TPC issue a product that would include the 
coastal county codes within the TC Watch and/or Warning areas, as well 
as a simple line of text detailing the breakpoints of the watch/warning 
area? This product could then be sent over AWIPS and used by the 
appropriate WFOs to send to their CRS broadcast. Will be Implemented in 
a future AWIPS software load.

Recommendation: Make surface data received at NHC from mobile platforms 
available to the coastal WFOs through AWIPS. Implemented to the degree 
possible--Supplemental/experimental wind information data from non-NOAA 
sources will be accessible via the Internet, when possible.

Recommendation: Using input from TAFB, OPC and local WFOs, NHC 
advisories should include a statement advising not just ``marine'' 
interests, but the public, to be alert for dangerous surf conditions 
including rip currents. Implemented.

Recommendation: Once TPC commits to beginning an advisory package for a 
new system, a DSA should always be issued to inform all users. 
Implemented.

Recommendation: TPC should be more diligent to place additive 
information below the $$. NWR automation software could also be 
modified to search for key words and remove such from being broadcast. 
NHC will make all efforts to place product ID information regarding on-
going storms at the bottom of the TWO. Implemented.

Recommendation: Determine if a national model/standardized gHLS format/
software should be developed for use by all WFOs. If yes, work towards 
developing the national model/standard. A team approach might be most 
effective to move this initiative along. Not Implemented--A national 
implementation of a gHLS or some form of graphical hurricane hazard 
representation will not take place for the 2004 season. OS21 talking 
with regions about forming a team to look at implementation of some 
form of graphical hurricane hazard product in 2005. Update of this team 
will be made at the 2004 Hurricane Conference.

Recommendation: Initiating and receiving agencies should coordinate in 
the formulation of best-track positions to avoid discontinuities or 
discrepancies near the point of transfer. Implemented.

Recommendation: Expand TCU and TCE product header information to 
associate these products with the particular tropical cyclone they 
describe. Introduce MIATCUATx, MIATCEATx, MIATCUEPx, MIATCEEPx, where x 
varies from 1-5 along with the associated tropical cyclone. 
Implemented.

Recommendation: TPC and WFOs will complete their coordination on the 
list of secondary breakpoints. When complete for a given year, TPC will 
post the list on its web page in a manner similar to the standard 
breakpoints. TPC will coordinate with OCWWS, NCO, and FSL to develop a 
scheme for communicating via the WWA product breakpoint information 
(e.g., county and lat/lon) for any site not on the standard and 
secondary list. Implemented.

Recommendation: Change wording in last sentence of NWSI 10-601, 7.5 to 
``The appropriate regions will ensure Tropical Cyclone Center(s) obtain 
significant information (e.g., deaths and damages) from WFOs not 
preparing formal post-storm reports.'' WFOs should clearly label those 
reports which are unofficial in the PSH, Internet and other information 
source outlets. Implemented.

Recommendation: Delete the definitions of ``advisory'' and ``hurricane 
local statement'' from NWSI 10-604. Implemented.

Recommendation: For a well forecasted storm, such as Isabel, it would 
appear the New York City OEM would usually be best served if the storm 
that is handled in a non-tropical fashion during the watch phase 
continued to be handled in a non-tropical fashion during its warning 
stage. Similarly, tropical issuances should generally follow in the 
warning phase, if initially introduced during the watch stage. However, 
all things considered, the New York City OEM would generally opt for 
tropical versus non-tropical issuances if the situation is a ``toss-
up.'' Implemented.

Recommendation: There needs to be a standard operating procedure to 
address medium range tropical cyclone forecasting. Implemented.

Recommendation: Clarify the standard for handing off a tropical cyclone 
from the TPC to the HPC. Implemented.

Recommendation: Change the National Hurricane Operations Plan (NHOP) 
regarding deployment of drifting buoys. Implemented.

Recommendation: Initiate an annual Hurricane Liaison Team (HLT) review 
of the past season's ``lessons learned'' and implement suggested ``best 
practices'' prior to the beginning of the tropical season. Implemented.

Recommendation: Develop a comprehensive package of geographical 
locations, pronunciations and tropical related impacts pertinent to 
each coastal WFO. Provide the package to the detailed HLT prior to 
arrival at NHC. Not Implemented--Eastern and Southern Regions will 
provide WFOs and RFCs with templates for developing standardized 
information guides, to include tropical-related impacts and 
geographical pronunciations. Regions will complete guides prior to 
beginning of 2006 season with the final guides available to TPC/NHC for 
HLT activations.

Recommendation: Fabian, Isabel and Juan will be retired. Replacement 
names to be decided at WMO RA-IV meeting. Implemented.

Recommendation: The Navy run the GFDN at 0, 6, 12, and 18Z out to 126 
hours. Forward to IHC. Implemented.

              NOAA 2004 Hurricane Conference Action Items

Recommendation: Change NWSI 10-601 to establish a ``Hurricane Eye-wall 
Warning'' product with unique PIL and EAS code to be issued by WFOs for 
landfalling tropical cyclones with distinct eye-wall and inner rainband 
features with destructive winds. Implemented.

Recommendation: To increase the visibility of the inland hurricane 
(wind) hazard, create a new PIL (IHW?) for Inland Hurricane (Wind) 
Watches/Warnings to elevate/distinguish the watch/warning from the more 
universal non-precipitation weather (NPW) PIL. Not Implemented--
Existing products must be more effectively used to communicate the 
potential threats.

Recommendation: To better align terminology between the coastal and 
inland watches/warnings, change the name for the (WFO issued) interior 
watch/warning to ``Inland Tropical Storm/Hurricane Watch/Wanting.'' 
Implemented.

Recommendation: Regions will identify WFOs exempt from the requirement 
of section 7.3.3.3 of NWSI 10-601. Implemented.

Recommendation: To better align NHC and WFO product issuance times, 
change watch/warning criteria in NWSI section 7.3.2.2. to read: A watch 
is valid up to 48 hours after the issuance time. The valid time (event 
start and end times) is described in the watch headline. A warning is 
valid up to 36 hours after issuance time. The valid time (event start 
and end times) is described in the warning headline. Implemented.

Recommendation: To help direct customers to NWS WFO products that 
emphasize tropical storm hurricane impacts over non-coastal areas, NHC 
should include a general reference within the TCP product of wind 
impacts occurring, or projected to occur, along coastal and inland 
areas. Implemented.

Recommendation: Inland offices may issue HLS-type products using the 
HLS when tropical cyclone conditions are expected within part or all of 
the CWA. Implemented.

Recommendation: Reinstate language in 10-601 Section 7.1.2.2 to allow 
WFOs to issue HLSs as needed to dispel rumors or to clarify tropical 
cyclone related information for their CWA. Implemented.

Recommendation: Restructure NWSI 10-601 to encourage WFOs to write 
single purpose HLSs, to emphasize a specific hazard which is imminent 
and/or will have a potentially life-threatening impact, or to describe 
a significant and critical change of short-term hazard impacts. 
Implemented.

Recommendation: All HLSs should include at least one headline. 
Implemented.

Recommendation: Allow WFOs the flexibility to issue Special Marine 
Warnings on an as needed basis during tropical storm/hurricane watches. 
Implemented.

Recommendation: Use the standard tropical storm symbol for subtropical 
storms on the NWS unified surface analysis. This will be consistent 
with warning headlines, which use the phrase ``. . .Tropical Storm 
Warning. . .'' for subtropical storms in OPC/TPC high seas forecasts. 
Implemented.

Recommendation: Decide method to provide required information in 
header. Implemented.

Recommendation: OS21 will investigate requirements needed to expand the 
product bins for NHC numbered products from 5 to 10. We will keep JTWC 
in mind. Not implemented--Will be discussed at the 2005 NOAA Hurricane 
Conference.

Recommendation: At least one of the two P-3s will be operationally 
configured and available to respond within 24 hours to reconnaissance 
taskings from 1 June through 30 November. The minimum operational 
configuration for the P-3 includes the SFMR and the Airborne Vertical 
Atmosphere Profiling System. Implemented.

Recommendation: Decide on a consistent and appropriate way of 
indicating wind speeds for tropical cyclones in WFO text forecast 
products. Implemented.

Recommendation: TPC should stop producing the gridded TCM. If the 
current primary FSL hurricane wind tool does not work, the new generic 
cyclonic wind tool could be used as backup. Implemented.

Recommendation: Allow TPC/NHC to declare Critical Weather Events. 
Implemented.

Recommendation: TPC coordinate with DOD contacts to develop document. 
Forward to Interdepartmental Hurricane Conference. Not implemented--
Recommendation withdrawn.

Recommendation: Meet with Executive members of the NHC Electronic Media 
Pool to assess the scope of costs and impact on local operations; 
explore means for resolving the problem in the public interest 
(convenience and necessity). Realign or redefine resources and rules of 
engagement, as necessary. Implemented.

Recommendation: Initiate a low-cost pilot project to demonstrate the 
feasibility of a local (WFO) level II data archive. The Melbourne, 
Miami, and San Juan offices will participate in the pilot project. TPC 
will coordinate among the participating offices and ROC. Implemented.

Recommendation: Retire 2004 storm names at the annual WMO RA-IV 
meeting. It is likely that Charley, Frances, Ivan, and Jeanne will be 
retired. Implemented.

Recommendation: SAB continue to provide Dvorak satellite 
classifications for tropical weather systems in the Atlantic, eastern 
and central north Pacific basins. Implemented.

Recommendation: Determine best method to use NHC radius of maximum 
winds in SPC tornado watches' ``Mean Vector'' line. Implemented.

Recommendation: Ensure revised NWS Hurricane Directives are annually 
available to the field by June 1st. Implemented.

Recommendation: Include a landfall point in the TCM product. Both 
Hurrevac and the TCM tool could be modified to incorporate this 
additional point and improve the transition between water based points/
radii and land based points which have already taken land effects into 
account in their radii. Not Implemented--TPC/NHC agrees to provide 
guidance on landfall intensity during the Hurricane Hotline 
Coordination calls.

Recommendation: Reiterate the need to NWS headquarters for ASOS backup 
power to ensure no loss of data. Implemented.

Recommendation: Make a request to the observation branch of OCWWS to 
upgrade the structural integrity of ASOS system in hurricane-prone 
areas, making them more resistant to high winds. Implemented.

Recommendation: The need for a PSH in these circumstances should be 
based on a stated need by TPC for the data, and not an all inclusive 
directive which takes no notice of whether the data is actually needed 
or useful. Implemented.

Recommendation: Due to possible urgency implied in a Tropical Cyclone 
Update (TCU), it is requested that TPC, using the Hurricane 
Coordination Hotline, alert WFOs and other users that a TCU is about to 
be issued. Implemented.

Recommendation: Push SLOSH Rex files to WFOs via the AWIPS SBN. Not 
Implemented--Action forwarded to TPC communications specialists in the 
Technical Support Branch for comment and feasibility due to band width 
limitations of SBN.

Recommendation: Port the SLOSH software to the LINUX environment and 
implement it for operational runs on AWIPS. Not Implemented--A LINUX 
version of this program already exists, but it runs rather slowly. TPC 
will ask MDL (Will Shaffer's group) to work, as time and resources 
permit, to improve the efficiency of the LINUX SLOSH display software, 
with the intent to migrate eventually to AWIPS. WFO Miami and TPC will 
investigate using an alternative data transmission mode via the AWIPS 
FTP server.

Recommendation: WFOs need clarification on the convention that NHC will 
use in the SLOSH runs to ensure appropriate interpretation of the 
product. Implemented.

Recommendation: Make operational a probabilistic storm surge model 
available to forecasters that can be relayed as information to 
customers farther in advance than the current approximate 12-hour 
practice. Implemented.

Recommendation: Make corrections to NHOP. Implemented.

              2005 NOAA Hurricane Conference Action Items

    Note: The 2005 NOAA Hurricane Conference occurred in December, 
2005. The following recommendations came from that meeting and are 
being addressed.

Recommendation: Discuss pros and cons of issuing tropical storm/
hurricane/typhoon warnings when conditions are expected over land, or 
along the coast. Action--Change wording of first paragraph to ``along 
the coast.'' Make parallel changes in NHOP if necessary.

Recommendation: Update the directives to formally extend lead time of 
tropical cyclone watches to 48 or 60 hours. This will better support 
evacuation orders provided by local emergency management. Action--No 
action required.

Recommendation: Format the Repeat section of the Tropical Cyclone 
Public Advisory in the current paragraph form or a list. Whatever 
method is used, consistent formatting, words, dots, spaces is required. 
Add wind gusts. Status--open.

        1.  TPC will not add gusts in the public advisory.

        2.  OS will provide documentation/examples on ``Repeat'' 
        section inconsistencies to TPC.

        3.  TPC will take steps to ensure the ``Repeat'' section is 
        formatted consistently in the current narrative fashion.

Recommendation: Add storm identification numbers to the TCP. Action--
Accept Recommendation for TCP. TPC will also add storm identification 
number to all TPC text products. A Public Information Statement will be 
disseminated.

Recommendation: In 10-601, stipulate the use of English and metric 
system measurements in the TCP. Recommend this include the storm 
direction in km/hr, maximum sustained winds in km/hr and extent of 
hurricane and tropical storm winds in km. Action--Section 1.1.3.3.a 
already specifies when TPC should use metric units in the public 
advisories. This section will be modified to delete the part about 
``except when the United States is the only country threatened.''

Recommendation: Delete the breakpoint at Fort Walton Beach. Action--
Accepted. Fort Walton Beach will be deleted as a primary breakpoint, 
but will be retained as a secondary breakpoint. Update NHOP.

Recommendation: Eliminate the Currituck Beach Light breakpoint, and 
replace it with Duck, NC. Action--Accepted. ERH will provide latitude 
and longitude of Duck breakpoint to OS21 and TPC. Update NHOP. 
Currituck Beach Light will be retained as a secondary breakpoint.

Recommendation: Suggest substituting Card Sound Road Bridge as a 
replacement break point. Card Sound Road Bridge is on the Miami-Dade/
Monroe county line and is a very tall bridge, well known by anyone in 
our area. By having Card Sound Road Bridge, tropical cyclone watches 
and warnings can then specify the entire south coast (Florida Bay 
coast) of mainland South Florida in an appropriate manner (for 
example--East Cape Sable to Card Sound Road Bridge). Action--Florida 
City will be deleted as a primary breakpoint and will be retained as a 
secondary breakpoint. Card Sound Bridge will become a primary 
breakpoint. SRH will provide latitude and longitude of Card Sound 
Bridge to OS21 and TPC. Update NHOP.

Recommendation: Provide SLOSH output (MEOWs) for east moving storms in 
the Morehead City Basin. And include forward movements of 10 mph, 20 
mph, and 30 mph as options available to choose from when selecting 
storm variables. Action--This action will be prioritized with ICCOH 
with respect to other basin restudies. When resources are available, 
NHC will work with MDL, WFO Morehead City, and emergency managers to 
test the Recommendations and incorporate those that are critical in the 
next restudy of the Pamlico Basin.

Recommendation: Use zero (0) as the baseline water level during real-
time SLOSH runs, which would then provide output that is ``pure'' 
surge, and can be more easily inserted into WFO products, and conveyed 
to the public. Action--TPC previously agreed to make the real-time 
SLOSH runs at a 0 ft base tide level for the U.S. East Coast. TPC 
accepts the Recommendation. Exceptions will be arranged by TPC and the 
affected WFOs based on coordination during the, event.

Recommendation: Provide training material for real-time SLOSH runs. 
Update SLOSH display manual to include clear explanation of tide datum 
used for real-time runs, MEOWs and MOMs. Action--A Call for forecaster 
attendance at the Train the Trainer course was provided to ERH and SRH 
in November 2005. Additionally, written training material and distance 
learning formats will be explored by the Warning Decision Training 
Branch for the Tropical Cyclone Operations Course. ERH will work with 
NHC and MDL concerning updates to the SLOSH display manual, to be 
approved by NHC and MDL.

Recommendation: Based upon the work and Recommendations by the Tropical 
Cyclone Extreme Wind Team, the conference needs to decide future 
actions. Action--For the 2006 season implement Phase II as follows:

        <bullet>  Add new VTEC Phenomenon Code EW,

        <bullet>  Develop template for WARNGEN ready by 2006 season,

        <bullet>  Change MND Product Type Line to Extreme Wind Warning,

        <bullet>  Ensure Standard Format of 1St Bullet by all WFOs,

        <bullet>  Use of the ``Go to the lowest floor'' Call to Action 
        at WFO discretion,

        <bullet>  WFOs will follow guidance in Directive 10-601 section 
        7.2,

        <bullet>  Issue a Public Information Statement in early 2006,

        <bullet>  Make decision for experimental vice official product 
        addressed by Headquarters, and

        <bullet>  Team to begin actions for Phase III.

Recommendation: Conference to decide the future direction the wind team 
should pursue or disband the team. Action--The Wind Team should 
continue into 2006 to address issues related to the usage of TPC's wind 
speed probabilities product in WFO products.

Recommendation: Modify the TCV to allow local input so the counties in 
question can be removed as conditions warrant. Action--The action was 
subsequently overtaken by the next item. All WFOs to review the 
existing ``county translation table'' and respond to Michelle Mainelli 
(TPC) by 1 February 2006 if any changes are needed for 2006.

Recommendation: Consideration should be given to use ``Zone'' codes 
versus ``County'' FIP codes in the TCV before it is even considered to 
make the TCV official. Action--For 2006 the TCV will use Zone codes 
instead of county codes, if the necessary software changes can be made. 
Regions will coordinate with their WFOs and provide TPC with a list of 
zone codes to include in the TCV by 1 February 2006.

Recommendation: Just as SPC issues watches for Severe Weather for 
adjacent coastal waters, NHC needs to, at minimum, issue guidance as to 
the appropriate Watches and/or Warnings that need to be taken 
concerning coastal waters. In this era of heightened awareness and 
coverage of Tropical events by the news media, a more structured 
approach is required. STATUS: Closed (see next item).

Recommendation: There needs to be clarification in either 10-601, 
granting specific area responsibility for warnings (by zone definition, 
not just breakpoint), or in 10-310, which would grant the WFO authority 
over tropical cyclone watches and warnings for coastal marine zones. 
Note that granting WFO authority over coastal marine zones within 20 nm 
may result in increased consultation with NHC, since there can be a 
serious perception issue when warnings from coastal marine zones and 
adjacent coastal land zones disagree. It is the opinion of this WFO 
that the warnings and watches between a coastal land zone and an 
adjacent coastal marine zone (within 20 nm) must agree. Implemented--
WFOs have full responsibility for watches and warnings in their coastal 
waters, and will coordinate their issuance with TPC and adjacent WFOs. 
NWS 10-310 2.3.5 will be clarified to reflect this policy.

Recommendation: To preserve the existing policy in 10-310, there needs 
to be a choice to use the phrase Small Craft Should Remain in Port that 
holds the active Small Craft Advisory VTEC in a continuation until the 
tropical cyclone watch is upgraded to a warning. As a second less-
preferred item, we can require that Small Craft Advisories be 
maintained if necessary (and headlines as such) until the tropical 
cyclone watch is upgraded (if necessary) to a warning. Action--Issue 
will be resolved through ongoing OS21 update of NWSI 10-310. Modify 
appropriate directives.

Recommendation: Seek agreement from OPC leading to OPC and TAFB 
products stating ``Maximum significant wave height XX ft. Some 
individual waves much higher.'' Change marine directive as necessary. 
Action--For year-round High Seas Forecasts from OPC, TAFB, and WFO 
Honolulu, the following statement will be included in the synopsis 
portion: ``Seas Given In Significant Wave Heights.''

Recommendation: Allow WFO forecast grids to more closely match TCM grid 
output, even if it is in conflict with existing watches/warnings. 
Implemented--WFO grids should match TCM gridded output.

Recommendation: NHC should be more judicious about and less apt to 
issue watch/warning combinations. Action--None required. There will be 
occasions when a Tropical Cyclone Warning/Hurricane Watch combination 
is needed.

Recommendation:

        1.  Enlist the assistance of NHC/TPC and their associations 
        with the engineering/academic communities to aid NYC OEM 
        towards incorporating up-to-date information for residents of 
        high rise buildings. This then needs to be incorporated into 
        the official ``hurricane plan'' for NYC.

        2.  Address the ``canyon effect'' one would see down New York 
        City main Avenues, which we haven't yet seen with a landfalling 
        hurricane. Could this make a large difference in actual wind 
        speed and ultimate destruction potential?

        3.  As a result of this, ascertain if each residential building 
        in NYC should have its own ``hurricane plan'' detailing the 
        safe zones in that building, (e.g., . . .from the 3rd to the 
        8th floor hallways) and have this information delivered to all 
        tenants annually?

Action--WFO Upton will contact several organizations, such as the NOAA 
Air Resources Laboratory, who have technical expertise in this area.

Recommendation: HPC generated forecast maps through Day 6 should 
include remnants for tropical systems. Implemented.

Recommendation: Eliminate issuing separate products NPW/FFA except for 
short fused warnings for inland areas. Action--Members of this 
conference, led by David Manning, WFO Sterling, are tasked to write a 
short white paper that recommends consolidation of the current suite of 
WFO tropical cyclone products, including segmentation of the HLS, and 
submit to OS21 by 1 February 2006.

Recommendation: Delete forecasting wind gust from cyclones after they 
transition into an extra-tropical low. Action--OPC will check for user 
feedback before any changes are made.

Recommendation: Improve hurricane local statements for clear headers, 
place most important sections first, do not repeat the TCP advisory, 
omit sections not needed, do not use headline ``updated Storm 
Information,'' and the HLS does not need to have all sections. Will be 
Implemented for 2006 Hurricane Season.

Recommendation: Make the HLS a segmented product in time for the 2006 
season. Action--It is desired for HLSs to become segmented in 2006. 
WFOs have the option to produce single-segmented or multi-segmented HLS 
products. Eastern, Southern and Pacific Regions will work with selected 
WFOs to provide examples of both formats. Regions and WSH will seek 
customer input regarding segmented HLSs. Mark Tew, OS22, will work with 
software developers to ascertain the level of effort required for HLS 
segmentation, and provide a feasible implementation date as soon as 
possible.

Recommendation: Require that ``New Information'' be the initial header 
in all but the first HLS. Action--If used, ``New Information'' must be 
the initial section header in the HLS.

Recommendation: Allow the flexibility to shorten the HLS to include 
only the New Information header for life-threatening events within six 
hours of occurrence. Action--Will be Implemented for 2006 Hurricane 
Season.

Recommendation: Eliminate the requirement to include the entire CWA, 
for Florida counties, in an HLS that affects a small portion of the 
CWA. Recommendation from OS21: Rewrite in directive 10-601, section 
7.1.2.2 to read (changes in italics):

7.1.2.2 Issuance Criteria. The following WFOs will issue HLSs when 
their area of responsibility is affected by a tropical cyclone watch/
warning or evacuation orders. HLSs may also be issued as needed to 
dispel rumors or to clarify tropical cyclone related information for 
their CWA. Coastal WFOs have the option to include inland counties in 
the HLS. WFOs also have the option to include or not include coastal 
and inland counties not affected by a tropical cyclone watch or 
warning. Action--Change 7.1.2.2 to read: The following WFOs will issue 
HLSs when their zone areas of responsibility are affected by a tropical 
cyclone watch/warning or evacuation orders. HLSs may also be issued as 
needed to dispel rumors or to clarify tropical cyclone-related 
information for their CWA. Coastal WFOs have the option to include 
inland counties in the HLS. WFOs may exclude zones not affected by a 
tropical cyclone watch or warning.

Recommendation: Require impact statements for both NPW and HLS, based 
on life-threatening impacts of wind, surge, or inland flood. Emphasize 
judicious use for each case. For wind, the lower limit should be 
sustained Category 2 (96 mph or greater). Impacts for surge and inland 
flood may be locally defined. Action--WFOs will have the option to 
include strongly-worded impact statements in NPW and HLS products. 
Judicious use is recommended, commensurate with the threat, to ensure 
the continued effectiveness of such statements.

Recommendation: Make improving tropical related GHG formatters by next 
hurricane season a top priority. Action--Recommendation accepted. OS21 
will forward to FSL. FSL to ensure function to capture text from 
previous HLS works correctly.

Recommendation: Tropical Storm/Hurricane Wind Impacts should be base 
lined as a Cal 1To Actions<INF>-</INF>Tropical<INF>-</INF>Overrides 
file in future IFPS builds. Action--Recommendation accepted. WFO 
Slidell will forward files to OS21. OS21 will forward to FSL.

Recommendation: Pursue an agency effort which builds upon the work 
undertaken at WFOs Miami and Melbourne to include enhanced wording 
within the ZFP and CWT text products as generated by the GFE formatter. 
Action--Accepted. Wind Team will coordinate the experimental use of 
probabilistic wind information in the 2006 season. Team will make final 
Recommendations for the ZFP, CWT, and PFM products.

Recommendation: Provide `Hurricane Hotlines' for inland office commonly 
impacted by tropical systems. Action--SRH will submit a formal letter 
for these inland WFOs to OS21.

Recommendation: NWS directives need to better define areas which are 
included in NHC watches/warnings, and areas which are considered 
inland, thereby falling under the realm of inland tropical cyclone 
watches/warnings. Action--OS21 will form a team with representatives 
from Southern, Eastern and Pacific Regions, and TPC, to address this 
recommendation and the next, as well as associated issues.

Recommendation: To improve the delivery and clear communication of 
local WFO tropical cyclone watch/warning information to customers in 
their area of warning responsibility, change the headline in segmented, 
VTEC ready, NPW products for coastal zones. This improvement would 
extend to all local WFO issued NPWs for tropical storm/hurricane 
watches and warnings that affect coastal zones. Action--See previous 
item.

Recommendation: The NHC should provide appropriate error cone radius 
numbers for each forecast time on TCM and possibly TCD products. Also, 
NWS tropical web sections (WFOs, NHC, Regional and National HQ, etc.) 
need to include a good, concise definition and explanation of the error 
cone and how it should be used. This explanation should be non-
technical and geared more toward the public and EMC. Action--TPC/NHC 
will modify their web page text description to include average error 
values and a better definition of the cone of uncertainty.

Recommendation: TPC should produce an internal pre-TCM flat file just 
before conference call time. This file would only be available to WFOs 
and would give them an hour lead time on producing wind grids. If 
necessary, WFOs can run the TCMwind tool if there are changes between 
the preliminary pre-TCM flat file and the final version of the TPC 
Tropical Cyclone Marine Forecast. Action--At conference call time, this 
forecast information is typically available only in hard copy form on 
an advisory composition worksheet. TPC/NHC will investigate the 
possibility of using an electronic tablet to produce this worksheet, so 
that a file containing the information can be transmitted to the WFOs 
and the DOD, when available.

Recommendation: A simple solution to ``retiring'' Greek Alphabet names, 
if necessary, is to have a floating alternate or secondary name list 
available that could be placed into service if the primary Atlantic 
Cyclone name list is exhausted. Named storms from the secondary or 
alternate list that require retirement could easily be replenished 
based on Recommendations from the WMO. Action--Recommendation accepted. 
Will be proposed at the upcoming WMO RA-IV hurricane Committee meeting.

Recommendation: Add Pacific Region ASOS sites to be considered for 
backup power. Action--Pacific Region will forward a list of ASOS sites 
for consideration in this initiative.

Recommendation: Forward to IHC to request action completed by CARCAH, 
USAF 53rd WRS and NOAA AOC prior to start of 2006 hurricane season. 
Action--Recommendations accepted. Will be forwarded to IHC.

Recommendation: Forward to IHC to request action by Air Force prior to 
start of 2006 hurricane season. For TP..10 KGWC WMO Fix Message. 
Action--Recommendation Accepted.

Recommendation: Obtain input from the coastal forecast offices, and 
deliver revised plan prior to start of 2006 hurricane season. Action--
Recommendation accepted.

Recommendation: Change Subtropical Cyclone Definition in Operational 
Manuals. Action--Recommendation Accepted. Forward to IHC and WMO RA-IV 
Hurricane Committee.

Recommendation: Standardize Post-Tropical Cyclone Reports:

        1)  In all issuances of the PSH, follow the existing format in 
        Instruction 10-601 unless and until the format is revised, in 
        particular providing only wind observations with at least gusts 
        of 34 kts or greater, wind speeds in kts, times in UTC, 
        anemometer heights, and sustained wind speed averaging 
        durations.

        2)  Create a team of TPC, WFO, and NWS Headquarters personnel 
        to agree upon the format of a more standardized PSH and to 
        recommend procedures and/or any software enhancements needed to 
        compose the product in the new format. This could be similar to 
        how WFOs input Local Storm Reports into AWIPS. Recommended 
        standardizations for the team to consider would include but are 
        not necessarily limited to the following:

                a.  Standardize the placement of key data values, more 
                specifically than just the order of major sections, to 
                facilitate automated parsing and conversion of the PSH 
                product for multiple uses.

                b.  If an instrument failed during the event, or if 
                data is otherwise incomplete, specify the time of the 
                last available observation and the reason for the data 
                outage (e.g., power failure, storm surge, capsized).

                c.  For unofficial and/or mobile observation sources, 
                provide the latitude and longitude of the listed 
                observation, if available.

        3)  Determine if it is possible for the National Data Buoy 
        Center (NDBC) to issue a PSH product or otherwise produce a 
        text product in the same format as the PSH. The product would 
        include similar information in the same format as WFO-issued 
        PSHs for each NDBC site with observed data satisfying the same 
        wind and/or pressure threshold criteria during the tropical 
        cyclone event.

Action--Recommendation (1) is already covered by existing policy. 
Recommendations (2) and (3) accepted. Dan Brown, TPC, will draft a 
proposed PSH template format and will forward to the Regions and NWS 
Headquarters. OS21 will contact NDBC and make a request for them to 
generate a product in a format consistent with the PSH when conditions 
warrant.

Recommendation: Correct Offshore Forecast Tropical Cyclone Warning 
information displayed on the NWS Watch/Warning/Advisory Web map.

Action--

        1.  Recommended that Warnings for offshore waters not be 
        displayed and a disclaimer/appropriate links be added to the 
        web page. OS21 will forward the Recommendation to the WWA Map 
        Team.

        2.  Michelle Mainelli will work with Bob Bunge and Leon Minton 
        to determine how existing warning information can be properly 
        displayed on the WWA Map.

Recommendation: (1) Request AXBT deployments (minimum of 12), using 
present second-hand inventory, on each WP-3D tasked reconnaissance 
mission. (2) Seek funding support to establish inventory of new, 
reliable AXBTs. Action--Recommendation (1) accepted, and will be 
forwarded to the IHC. The conference supports Recommendation (2). 
Additional funds will be requested through the normal program funding 
process and according to program priorities. Use of the AXBTs is 
currently for research.
                   Answers to Post-Hearing Questions
Responses by Max Mayfield, Director, NOAA Tropical Prediction Center/
        National Hurricane Center

Questions submitted by the Majority

Q1.  In your testimony you explained that while progress has been made 
forecasting hurricane tracks, there is much room for improvement in 
forecasting hurricane intensity. Non-governmental experts have 
suggested that the Federal Government could improve its ability to 
forecast hurricane intensity by conducting additional observations and 
research. Some of the additional activities suggested by these experts 
include:

Q1a.  Hurricane observation flights in the upper troposphere (current 
flights do not go to that altitude);

Q1b.  Improved numerical prediction models that include both ocean and 
atmospheric observations; and

Q1c.  More or improved observations of hurricane cores.

     Do you agree that conducting the additional observations/research 
listed above would likely lead to an improved ability to forecast 
hurricane intensity in the short-term and/or in the long-term? If not, 
why not?

A1a,b,c. Currently NOAA is pursuing all three of these activities to 
improve forecasts of hurricane intensity and structure.

        <bullet>  The NOAA Gulfstream-IV aircraft operates a high 
        altitude sampling of the upper troposphere surrounding 
        hurricanes as part of operational surveillance missions. We are 
        also conducting special research flights into the inner portion 
        of hurricanes including the upper regions in the eye of the 
        hurricane. NOAA has partnered with the National Aeronautics and 
        Space Administration (NASA) on three experiments over the past 
        seven years, the latest conducted this past summer, to obtain 
        high altitude aircraft observations of the inner core of a 
        number of hurricanes and tropical storms from the NASA DC-8 and 
        ER-2 aircraft. These observations, combined with those from the 
        NOAA P-3 aircraft, have provided numerous insights into storm 
        intensity and structure.

        <bullet>  NOAA currently is developing a next generation 
        hurricane prediction system, the Hurricane Weather and Research 
        Forecasting system. The Hurricane Weather and Research 
        Forecasting system consists of (1) advanced high-quality 
        observations for both atmosphere and ocean; (2) advanced data 
        assimilation techniques; and (3) the next generation, coupled 
        air-sea-land prediction system with advanced representation of 
        physical processes. This model is in the testing stage with 
        implementation planned for 2007.

        <bullet>  The NOAA P-3 aircraft operate in the core of the 
        hurricane at altitudes between 1,000-20,000 feet. These 
        aircraft have been used since 1976 to collect research and 
        operational data sets to improve our forecasts and 
        understanding of tropical cyclone track, intensity, and 
        structure. As a result of this research, a number of new 
        technologies, sampling strategies, and concepts have been 
        transitioned to operational use. The most recent of these is 
        the Stepped Frequency Microwave Radiometer (SFMR), which 
        provides surface wind estimates that are a direct measure of 
        the storm structure and intensity. We are in the midst of 
        transferring a new technology into operations, the airborne 
        Doppler radar, for use in initializing and evaluating the new 
        operational modeling system.

Q2.  In your opinion, what other areas of additional research or 
observations are needed to help understand and forecast hurricane 
intensity in the short-term and in the long-term?

A2. Investing wisely in science and technology is the prudent approach 
toward improving hurricane understanding and prediction. Observations 
and research are essential for developing advanced operational 
numerical systems. Research and operations are linked to achieve 
improved understanding and prediction of hurricanes. Requirements to 
better understand and forecast hurricane intensity include numerical 
weather prediction model guidance of high resolution derived from 
cutting edge science and advanced data assimilation, as well as a real-
time observing network of greater resolution and reliability, 
especially over ocean areas for forecaster analysis and short-term 
forecasts. The FY 2006 hurricane supplemental request included over 
$31M in new investments to improve hurricane warnings and forecasts. 
Ocean observations will be expanded by deploying 8 new buoys and re-
engineering dropwindsones. The completion of the new Hurricane Weather 
and Research Forecasting System (HWRF) will be accelerated. The Global 
Forecast System (GFS) will be enhanced to improve forecasts of 
hurricane intensity (strength) and structure (size).

Q3.  In your opinion, what are the five highest priority areas of 
additional research or observations needed to improve hurricane 
intensity forecasts and models in the short-term? Similarly, what are 
the five highest priority areas to improve this capability in the long-
term? What are the estimated costs of implementing theses priority 
areas? Why has NOAA not implemented research or observations in these 
areas? Are there plans to move ahead with these activities?

A3. NOAA is working to address its five highest priority areas for both 
short- and long-term research and observations needed to improve 
hurricane intensity forecasts and models. These areas include:

        1.  Increase computational capacity to run sophisticated high 
        resolution numerical weather prediction models.

        2.  Research for more detailed representation of small scale 
        features in hurricanes and coupling of the wave and hurricane 
        prediction models.

        3.  Expand the current network of coastal and deep-ocean buoys.

        4.  Develop and deploy satellite sensors on NOAA geostationary 
        and polar-orbiting satellites that would significantly improve 
        wind force and vector measurements of hurricanes and severe 
        storms.

        5.  Add additional flight hours for the high altitude NOAA 
        Gulfstream-IV aircraft.

    Hurricane modeling is necessary for studying storm dynamics and for 
forecasting hurricane track, strength, and intensification. One of the 
limiting factors in hurricane modeling in both the short- and long-term 
is computational power. The development of higher resolution models 
that provide more detailed representations of hurricanes is dependent 
on having the computational power to run these higher resolution 
models.
    While the above list of priorities includes both short- and long-
term research goals, additional efforts in the long-term need to focus 
research on: the effect of upper ocean processes on hurricane intensity 
and structure; the role the atmospheric environment plays in hurricane 
intensity and structure change (e.g., how very low humidity in the 
lower troposphere or very strong vertical shear of the horizontal wind 
affect hurricane intensity and structure); improving observations of 
the inner core (eyewall) processes; the role of rain bands in hurricane 
intensity and structure change; and developing and testing of new 
advanced models that (1) provide a more detailed representation of the 
inner-core dynamics of the storm and the interactions between the storm 
with its environment and (2) provide an optimal forecast framework to 
help quantify the uncertainty in the forecasts.
    Through the Joint Hurricane Testbed, funded primarily through the 
U.S. Weather Research Program, the National Hurricane Center has 
devoted considerable time identifying the most pressing needs and 
priorities. A complete list of program priorities can be found at 
http://www.aoml.noaa.gov/hrd/Landsea/jht/
JHT<INF>-</INF>FFO<INF>-</INF>30June2004.pdf.
    Sufficient resources for operations, research and observations have 
been provided. We strive to continue to improve our products and 
services, particularly hurricane intensity forecasting. NOAA continues 
to implement research to operations and programming, planning and 
budgeting activities have identified and include the necessary 
resources to keep up with this demand. We appreciate your continued 
support of the President's annual budget requests.

Q4.  In developing a hurricane forecast, you use weather data collected 
from a variety of sources, including NOAA satellites, radar, buoys, 
hurricane hunters, etc. For each of these sources of weather data, 
please briefly describe the nature of the data you receive and what 
role it plays in developing a hurricane forecast. In addition, please 
identify any weather data that is currently available to you from only 
one source.

A4. There is a tremendous amount of Federal Government (and non-
Federal) data available on hurricanes. The sources and use of the data 
are described below.

AIRCRAFT:

NOAA Gulfstream-IV
    Deploys dropwindsondes, which measure pressure, wind speed, wind 
direction, temperature and dew point, providing a vertical atmospheric 
profile from wherever it is dropped by aircraft to sea surface. Data 
are used to increase accuracy in numerical model predictions.
NOAA P-3
    Deploys dropwindosondes; provides radar images, visual report of 
sea surface and estimated surface winds, center position and pressure, 
wind radii and maximum winds/intensity; Stepped Frequency Microwave 
Radiometer (SFMR) provides surface wind data; Expendable 
Bathythermograph (XBT) provides ocean temperature profiles. Some data 
is used by the forecasters, in numerical model predictions, and used 
extensively for research activities to increase accuracy and improve 
physical understanding of ocean and marine interface. NOAA operates two 
P-3 aircraft, and will purchase a third with funding from the FY06 
hurricane supplemental.
U.S. Air Force Reserve C130-J
    Deploys dropwindsondes; provides visual report of sea surface and 
estimated surface winds, center position and pressure, wind radii and 
maximum winds/intensity. Data is used by numerical models as well as 
forecasters. The Military Construction Appropriations and Emergency 
Hurricane Supplemental Appropriations Act, 2005 (P.L. 108-324) provided 
the U.S. Air Force $10.5M to install SFMRs on its fleet of 10 C130-J 
aircraft.

SATELLITES:

GOES--Geostationary Operational Environmental Satellites
    Primary data is provided by GOES-10, GOES-12, and METEOSAT-7 (VIS, 
IR, WV every 15-30 min). Interpretation of the satellite data provides 
a classification and analysis of the tropical system and helps 
determine the center of the storm and its intensity. Images, or 
``pictures,'' from GOES allow everyone to see what the hurricane looks 
like. It is these images that track the storms and are what is so 
prominently shown by the media.
POES--Polar Orbiting Environmental Satellite
    NOAA Polar Orbiting Environmental Satellites (POES) with the 
advanced microwave sounding unit (AMSU) and the advanced very high 
radiometer (AVHRR) provide: precipitation estimates, qualitative 
estimates of storm intensity trends, sea surface temperatures, storm 
center position, convective structure and atmospheric temperature/
humidity profiles.
    Note: POES are not always over the storm since these satellites 
orbit the globe; this is in contrast to the GOES which are stationary 
relative to Earth surface.
Other Low-Earth Orbiting Satellites

        <bullet>  The Defense Meteorological Satellite Program, using 
        the special sensor microwave/imagery (SSMI) suite of 
        instruments, provides information on ocean surface wind speed, 
        precipitation, sea surface temperatures, center position and 
        convective structure.

        <bullet>  The National Aeronautics and Space Administration's 
        (NASA's) Tropical Rainfall Mapping Mission (TRMM) satellites, 
        using the TRMM microwave imager (TMI), provide precipitation/
        rain rate, center position, convective structure, ocean surface 
        wind speed and sea surface temperatures.

        <bullet>  NASA's OuikSCAT, using the SeaWinds scatterometer, 
        provides wind speed, wind direction, center location and wind 
        radii.

        <bullet>  The NASA AQUA satellite mission uses the moderate 
        resolution imaging spectroradiometer, the advanced microwave 
        scanning radiometer and the atmospheric infrared sounder to 
        provide precipitable water, water vapor, sea surface 
        temperatures, center position, convective structure and 
        atmospheric temperature/humidity profiles.

        <bullet>  European Research Satellite (ERS-2), using a wind 
        scatterometer and a radar altimeter, provides the National 
        Weather Service with wind speed and direction, storm center 
        location, wind radii and wave heights.

RADAR:

    U.S. WSR-88D--Doppler NEXRAD network provides extensive data as the 
storm approaches land. Wind speed data is available within 125 miles of 
the coast and conventional reflectivity data is available out to 250 
miles away from the radar.

UPPER AIR OBSERVATIONS:

    Observations from soundings of the atmosphere are available from 10 
U.S. stations along the Gulf Coast and Puerto Rico. These observations 
(taken twice per day or every six hours when a hurricane is approaching 
land) provide temperature, moisture, wind speed and direction from the 
Earth's surface to as high as 10 miles. Data is also available from 
other countries in the region covering Central and South America and 
the Caribbean nations, although this data is not available as 
consistently as data collected from U.S. sites.

BUOYS:

Drifting
    Drifting buoys provide sea surface temperature and some wind speed 
and direction data.
Moored
    Moored buoys provide wind speed and direction, air and sea 
temperature, barometric pressure, and wave height; and the newer buoys 
provide wave direction. These buoys provide coverage for the Gulf of 
Mexico, the Caribbean, and the Atlantic Coast. Specifically, NOAA 
operates and maintains 12 moored weather buoys in the Gulf of Mexico, 
three in the Caribbean, and 14 along the Atlantic Coast from Florida to 
New York, all critical to the Atlantic hurricane program. Forecasters 
use data from moored buoys operated and maintained by other federal, 
State, local and private entities as well.

LAND-BASED SURFACE OBSERVING EQUIPMENT:

Automated Surface Observing System (ASOS)
    This system measures temperature, wind speed/direction, 
precipitation, present weather, cloud height, visibility, and 
barometric pressure.
Private sector wind portable wind towers
    These are portable towers, mostly deployed by universities involved 
in hurricane research efforts. These data are used in post-storm 
analysis. Data are usually temperature, wind speed/direction, 
precipitation, present weather, and barometric pressure.

OIL PLATFORM OBSERVATION STATIONS:

    Oil platform observation stations can provide data on temperature, 
wind speed/direction, precipitation, and surface pressure.

SHIPS:

    Data collected on ships can include temperature, wind speed/
direction, wave height, precipitation, present weather, cloud height, 
visibility, and pressure.

TIDE GAUGES:

    Tide gauges provide information on the level/height of the water. 
This information is most useful for observing, not forecasting, storm 
surge.

C-MAN:

    C-MAN stations provide data on barometric pressure, wind direction, 
speed and gust, and air temperature. Some C-MAN stations are designed 
to also measure sea water temperature, water level, waves, relative 
humidity, precipitation, and visibility.

COMPUTER MODELS:

    The National Hurricane Center relies extensively on computer model 
output from various numerical weather prediction centers. These data 
provide guidance on the future track and intensity of tropical 
cyclones. Other computer models used by the National Hurricane Center 
help predict potential storm surge the storms could produce.
    While some sources of data are unique, NOAA has backup or 
contingency plans in place to continue the stream of essential data. 
For example, there is overlapping WSR-88D (NEXRAD) radar coverage--if 
one goes down, data is provided by an adjacent site; newer models of 
data buoys have redundant sensors; and NOAA uses FAA Terminal Doppler 
Radar data at coastal sites where data are available to provide another 
layer of backup information.

Q5.  If data from polar-orbiting weather satellites was not available 
to you, how would that affect your ability to forecast hurricanes?

A5. Data from polar-orbiting weather satellites provides information 
essential to computer model forecasts. This data is the only source 
that provides information from over the oceans. Internal studies show 
that lack of polar-orbiting satellite data would have a negative impact 
on our forecasts, potentially reducing forecast accuracy by 15-20 
percent.

Q6.  If NOAA had a second Gulfstream jet for studying hurricanes, what 
improvements could be made to NOAA's hurricane forecasting capability? 
How long would it be before those improvements could be incorporated 
into operational prediction models? How much would it cost to procure a 
second jet and what funding would be required for annual operating 
costs for a second jet?

A6. NOAA routinely operates the Gulfstream-IV (G-IV) aircraft twice a 
day on successive 8.5 hour missions during hurricane season. Internal 
studies show data provided by the current Gulfstream-IV jet have 
improved track prediction by about 20 percent, primarily during the 
hurricane watch/warning phase (when the storm is within a day or two of 
landfall). A second jet would allow more missions to be flown. This 
could be valuable during an active hurricane season when numerous 
hurricanes threaten the United States and data from nearly continuous 
flights would improve predictions.
    A new Gulfstream jet, complete with essential equipment, would cost 
approximately $80 million, assuming the aircraft is purchased under an 
existing Air Force contract. We estimate that it would cost $5 million 
per year in operating costs for crew, maintenance, dropwindsondes and 
fuel.
    Any single observational platform needs to be put into the proper 
context with all other investments in observations. Currently the most 
important observations needed to improve hurricane intensity and 
structure forecasts come from the radars flown on NOAA's P-3s. The U.S. 
Air Force will use funds from the FY 2005 hurricane supplemental to 
install these Stepped Frequency Microwave Radiometer sensors on its 
fleet of 10 aircraft, the first of which will be available late in FY 
2006. The FY 2006 hurricane funding supplemental provided $9M for an 
additional, equipped P-3 aircraft to improve observations of 
hurricanes.

Q7.  You have stated that today's average hurricane track forecast 
errors are only 94 nautical miles, compared with average forecast 
errors of 230 nautical miles in 1987. Have we reached the theoretical 
limit of track forecasting with the 94 nautical miles error, or could 
that error become smaller? If the error could be made smaller, what 
resources (i.e., observing equipment, computers, research funding, 
etc.) does NOAA need to improve track forecasting and what is the 
estimated cost of those resources?

A7. While we may be nearing the theoretical limit of track prediction, 
we continue to work to improve our track forecasts. Track 
predictability depends on being able to predict larger scale 
atmospheric conditions and, on average, we have been successful at 
predicting the features that ``steer'' the hurricane. However, storms 
like Wilma (when it was in the southern Caribbean) and Ophelia (when 
stationary off the coast of Florida) highlight that we have room for 
improvement when it comes to predicting tracks for the ``outlier'' 
storms that stall or take very erratic paths.
    To improve track forecasts we must continue our research efforts 
and computer modeling development. NOAA is currently developing a next 
generation hurricane prediction system, the Hurricane Weather and 
Research Forecasting (HWRF) system. We expect the improvements embodied 
in the HWRF system will lead to reduced track forecast error. Funding 
provided in the FY 2006 hurricane supplemental will accelerate the 
completion of the HWRF system. Additional observations, such as those 
planned under the Global Earth Observation System of Systems (GEOSS), 
would also help in defining the conditions for hurricane predictions.

Q8.  A recent article in the Miami Herald asserts that key countries in 
the Caribbean are not launching weather balloons regularly, despite an 
agreement with the United States to launch balloons, because the 
countries did not have all the equipment the U.S. had promised. Would 
additional funding or other actions help ensure that weather balloon 
equipment is provided to Caribbean countries in a timely manner and 
that the countries launch the balloons as needed?

A8. We face many different challenges when collecting meteorological 
data. All required equipment and supplies have been provided to the 
appropriate countries, in accordance with our agreements. During 
Hurricane Wilma, four of the sites experienced system malfunctions 
(hydrogen generator and/or tracking system), which have now been 
corrected. Releasing weather balloons, using the tracking equipment, 
and transmitting data back to the international data collection hubs is 
the responsibility of each country. Issues such as local power, 
communications, and maintenance are challenges that vary from country 
to country, which has at times made it difficult to collect 
meteorological data from balloon launches. While these data are 
important and NOAA will do all it can to ensure the data are available, 
dropwindsonde data from hurricane reconnaissance flights provide 
similar types of data used by our hurricane forecasters and hurricane 
models.

Q9.  In your opinion, if additional funding were available for 
hurricane forecasting, what are the five highest priority areas of 
where additional resources would improve operational hurricane 
forecasts and models?

A9. The highest priority for hurricane forecasting is to improve our 
prediction of storm intensity. There are many components accompanying 
that element, including continued improvements in track forecasts and 
the prediction of the size of the windfield, as well as being able to 
predict when and how quickly storms will intensify and how strong they 
will become. Additionally, we need to develop a better understanding of 
the uncertainty associated with our forecasts of storm intensity (in 
particular rapid intensification of storms), as well as storm 
structure/size. These priorities can be addressed through continued 
research, increased development of our next generation operational 
hurricane models, and additional observations, such as those planned 
under the Global Environmental Observing System of Systems (GEOSS). 
With funding provided in the FY 2006 appropriation, we will add four 
new hurricane forecasters, who will also enhance operational hurricane 
forecasts.
    Additional priorities are provided in Joint Hurricane Testbed 
Announcement of Opportunity at the following Internet site: http://
www.aoml.noaa.gov/hrd/Landsea/jht/
JHT<INF>-</INF>FFO<INF>-</INF>30June2004.pdf.

Q10.  What is the difference between data received from hurricane 
reconnaissance flights in NOAA's Gulfstream jet, NOAA's P-3 Orions, and 
the Air Force's WC-130 cargo planes? What factors determine which 
aircraft is flown to observe a storm? What factors determine how 
frequently flights are made with each type of aircraft?

A10. The Gulfstream-IV jet is used to obtain data from the environment 
surrounding the hurricane. These data are then assimilated into NOAA's 
operational forecast system to better define the atmospheric conditions 
and steering currents that influence the future track of the hurricane. 
The data collected by the Gulfstream are also used to help forecasters 
identify general conditions for storm intensification.
    In contrast, the P-3s and the WC-130s provide data from inside the 
hurricane, including windspeed, and hurricane eye positions, among 
other vital information. The P-3s are equipped with research 
instruments to help NOAA and other research scientists develop a better 
understanding of the inner workings of hurricanes and help to develop 
improved forecast capabilities, including hurricane intensity forecasts 
predictions. The P-3s also serve as platforms for testing new observing 
technologies, such as the Stepped Frequency Microwave Radiometer 
(SFMR), which measures over-ocean wind speed and rain rate, and Global 
Positioning System (GPS) dropsondes.
    As outlined in the National Hurricane Operations Plan (NHOP), the 
National Hurricane Center (NHC) requests aircraft reconnaissance data 
through the Chief, Aerial Reconnaissance Coordination, All Hurricanes 
(CARCAH). The CARCAH then allocates reconnaissance missions among the 
U.S. Air Force Reserve Command and NOAA as appropriate. Typically, most 
missions are carried out by the U.S. Air Force Reserve Command.

Q11.  Do other missions for NOAA's P-3 Orions, such as air quality 
research, interfere with the National Hurricane Center's hurricane 
forecasting capabilities? If not, why not?

A11. Flight hours for the P-3 Orions are assigned in accordance with 
NOAA's Marine and Aviation Operations Allocation Plan and coordinated 
by NOAA's Aircraft Operations Center. In situations when there are 
competing requests for P-3 usage, the National Hurricane Center has 
priority access to the P-3 flights for hurricane reconnaissance. In 
many cases we are able to conduct hurricane research on these 
reconnaissance flights. Additionally, non-hurricane research missions 
typically occur in areas that would allow the P-3s to be recalled to 
MacDill AFB within the range of one flight, so they could be redirected 
to conduct hurricane reconnaissance if needed. Further, the non-
hurricane research missions are usually flown in the early part of 
hurricane season, to reduce the number of competing requests for P-3 
flight time during the more active portion of the hurricane season. The 
FY 2006 hurricane supplemental provides NOAA with an additional P-3 
aircraft; this should help ensure adequate coverage.
    United States Air Force Reserves' 53rd Weather Reconnaissance 
Squadron maintains and operates a fleet of 10 C130-J aircraft to 
conduct most hurricane reconnaissance missions and provide storm 
location and data, including hurricane intensity. The Air Force will 
use funding from the Military Construction Appropriations and Emergency 
Hurricane Supplemental Appropriations Act, 2005 (P.L. 108-324) to 
outfit its ``Hurricane Hunter'' aircraft with Stepped Frequency 
Microwave Radiometer sensors beginning in late FY 2006. SFMR provides 
meteorologists with critical data on the hurricane surface wind field, 
and in particular the estimation of wind maxima, which has long been a 
requirement of the Tropical Prediction Center/National Hurricane Center 
(TPC/NHC).

Q12.  Recent articles in the Miami Herald assert that ``in 2004 before 
Hurricane Charley. . .weather balloon readings were missing from 
countries all along its path, leaving hundreds of miles of the 
atmosphere unmonitored.. . .Three coastal weather-observing stations 
between the Florida Keys and northwest Florida were malfunctioning, 
denying forecasters clues about ocean temperature and wind speed.'' Is 
this assertion true and if so, why was this observation data 
unavailable? Also, if the assertion is true, what was the impact on 
forecasting Hurricane Charley?

A12. We have encountered some difficulties in obtaining weather balloon 
releases within the Caribbean region from the countries with which the 
United States has agreements due to issues such as local power, 
communications, and maintenance. These problems are being addressed. 
However, because there was nearly continuous aircraft reconnaissance 
during Hurricane Charley, we do not believe the lack of data from these 
sites impacted our forecasts. Our records indicate only one NOAA buoys 
or Coastal-Marine Automated Network (C-MAN) sites was out of service 
prior to the passage of Hurricane Charley. We believe lack of data from 
this one site did not impact our forecasts.

Questions submitted by the Minority

Q1.  What role do the local offices play in distributing and refining 
the forecast for the hurricane prior to the storm and during the storm 
versus the role of the Hurricane Center?

A1. Local Weather Forecast Offices (WFOs) play an important role by 
providing more detailed forecasts for their area of responsibility. For 
example, the National Hurricane Center provides a broad range of values 
in its storm surge predictions; the WFOs refine those storm surge 
predictions by identifying vulnerable areas and associating particular 
values for the surge in those areas. Local WFOs also refine the timing 
of the onset of hurricane conditions in their area, including 
information on wind speed, storm surge, rainfall amounts and the 
potential for tornadoes. The WFOs also coordinate with and brief local 
emergency managers to ensure the managers have the latest information 
available to make their preparedness and evacuation decisions.

Q2.  The Hurricane Center participates in workshops and conferences 
after the hurricane season with FEMA and State and local emergency 
managers and other organizations. Does staff of the local forecast 
offices also participate in these offseason activities? Why are 
multiple annual workshops useful in maintaining skills in preparation 
and response for hurricanes?

A2. Time and resources permitting, local weather forecast offices 
participate in workshops and conferences. Multiple workshops provide 
the opportunity to train more individuals than a single training 
session. Our workshops are coordinated, to the greatest extent 
possible, to allow emergency managers and National Weather Service 
(NWS) forecasters from the same local area to attend the same session. 
This creates a favorable learning environment, and builds/enhances 
relationships in those local areas. Beginning in 2006, in partnership 
with the Federal Emergency Management Agency, local weather forecast 
offices will participate in training sessions for emergency managers on 
how to use NWS products and how to interpret and understand NWS 
predictions of storm surge. The emergency managers receiving this 
training will then return to their offices, where they will train their 
co-workers and other local officials. This method of training allows 
for efficient use of funding and allows us to reach more local 
officials than possible otherwise.

Questions submitted by Representative Eddie Bernice Johnson

Q1.  How would you characterize the participation by State and local 
emergency managers in the Hurricane Liaison Team conference calls?

     The HLT process has been used for a long time now. Would you say 
this process has provided a good forum for information exchange between 
the various levels of government?

     I understand the Hurricane Center participates in a series of 
workshops and conferences after the end of the hurricane season. How 
would you characterize the feedback regarding the HLT process in the 
post-hurricane season from State and local government people?

A1. The Hurricane Liaison Team (HLT) conference calls serve as an 
excellent coordination tool and an efficient use of time. State 
emergency managers from potentially impacted locations participate on 
the call listening to the weather briefing and then coordinating 
emergency management activities. The HLT briefings provide an excellent 
forum for the National Hurricane Center (NHC) to share meteorological 
information with the Federal Emergency Management Agency (FEMA) and 
State Emergency Operations Centers, and also for the NHC to understand 
the concerns of emergency managers. The National Hurricane Center has 
received positive feedback in its participation in the Hurricane 
Liaison Team, from workshops, the National Hurricane Conference, and 
State hurricane conferences.
    The NHC is an invited participant in the HLT video teleconference 
briefings facilitated by FEMA. In addition to the NHC, FEMA typically 
includes State emergency operations centers from the potential impact 
areas and regional FEMA offices on the HLT briefings. The HLT briefings 
do not usually include local emergency managers. Local emergency 
managers have access to National Weather Service (NWS) warnings 
distributed through a vast dissemination network including NOAA Weather 
Radio All Hazards (NWR); NOAA Weather Wire Service; Emergency Managers 
Weather Information Network (EMWIN); Internet; local paging systems to 
emergency managers; high-speed direct communications with users of 
large volumes of weather data (i.e., commercial meteorological firms) 
connected by landlines (Family of Services), by satellite broadcasts 
(NOAAPORT), or both. In addition there is close coordination that 
occurs between the National Weather Service Weather Forecast Offices 
and local emergency managers.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
